<html>
<title> - PROTECTING YOUTHS IN AN ONLINE WORLD</title>
<body><pre>[Senate Hearing 111-1043]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1043
 
                  PROTECTING YOUTHS IN AN ONLINE WORLD

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
67-765                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BYRON L. DORGAN, North Dakota            Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2010....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Rockefeller.................................    31
    Prepared statement...........................................    31
Statement of Senator Wicker......................................    34
    Prepared statement...........................................    34
Statement of Senator Klobuchar...................................    37

                               Witnesses

Jessica Rich, Deputy Director, Bureau of Consumer Protection, 
  Federal Trade Commission.......................................     3
    Prepared statement...........................................     5
Hemanshu Nigam, Co-Chair, Online Safety Technology Working Group; 
  Safety Advisor, News Corporation; and Founder, SSP Blue........    11
    Prepared statement...........................................    13
Jeff Mcintyre, Director--National Policy, Children Now...........    16
    Prepared statement...........................................    18
Michelle Collins, Vice President, Exploited Children Division, 
  The National Center for Missing & Exploited Children...........    19
    Prepared statement...........................................    21
K. Dane Snowden, Vice President, External and State Affairs, 
  CTIA--the Wireless Association ...............................    23
    Prepared statement...........................................    25

                                Appendix

Letter, dated July 15, 2010 to Chairman Mark Pryor and Ranking 
  Member Roger Wicker, Subcommittee on Consumer Protection, 
  Product Safety, and Insurance, U.S. Senate from Laura W. 
  Murphy, Director, Washington Legislative Office and Michael W. 
  Macleod-Ball, Chief Legislative and Policy Counsel, American 
  Civil Liberties Union..........................................    57
Yahoo!, Inc., prepared statement.................................    59


                  PROTECTING YOUTHS IN AN ONLINE WORLD

                              ----------                              


                        THURSDAY, JULY 15, 2010

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:02 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I'll go ahead and call this hearing to 
order.
    And I want to thank all of our witnesses and our audience 
members for being here.
    We are, if you all have probably noticed, we're kind of 
scurrying around here to figure out the schedule. As is the 
custom in the U.S. Senate, the schedule is changing rapidly, 
and we now have a rollcall vote that has just started on the 
floor. And, even though I think we're going to have several 
members participate today, the rollcall vote is going to, you 
know, upset the smooth flow of this hearing.
    But, nonetheless, what I thought I would do is give a brief 
opening statement, and if Senator Wicker's able to make it here 
before the vote, let him give his statement. And if he's not 
able or no one else is able to be here, go ahead and try to get 
as far along as we can before I have to recess and go vote. And 
if I have a fellow subcommittee member here, we'll just 
continue the hearing, but we may have to recess in order to get 
these two votes behind us. But, anyway, that's just 
housekeeping.
    Thank you all for being here. And I really appreciate the 
time and effort that you have made to be here for our hearing 
on protecting youths in an online world.
    As I said, the Subcommittee members may be coming and going 
and a little bit disrupted because of the vote on the floor. 
But, this is a follow-up hearing to the children's privacy 
hearing we held in April, and the second in a series to 
consider how to best protect our young people online.
    Young people are spending an increasing amount of time on 
the Internet. They have Internet access points in their cell 
phones through which they can now connect to social networking 
sites, play games, and use various apps. According to one 
reporter, approximately 83 percent of 17-year-olds and over 50 
percent of 12-year-olds now own a cell phone. Despite the 
valuable benefits of technology--and those are many--some young 
people can be hurt by this instant access.
    Researchers are seeing disturbing trends in cyberbullying 
and harassment, among other risky online behaviors, including 
the forwarding or sending of sexually explicit messages. 
According to one Cox Communications Teen Online Safety and 
Digital Reputation Survey, approximately one-third of teenagers 
using the Internet report they have been victims of online 
harassment. Recent press articles have highlighted injurious 
practices among teens who tease and harass their peers online, 
creating hurt feelings and uncomfortable learning environments.
    A recent New York Times article, entitled ``Online Bullies 
Pull Schools Into the Fray,'' underscored the pain that some 
middle school students are facing when targeted by, or bullied 
by, their peers online. The article captured the complexity 
surrounding this debate, how to teach expectations of behavior 
while promoting parental control and discipline, empowering 
educators, strengthening school safety, and protecting privacy 
concerns.
    A few years ago, one press article featured a student from 
Fayetteville, Arkansas, who experienced aggressive bullying 
both online and offline. In junior high, the student was hit so 
hard he lost consciousness. In 9th grade he was struck with so 
much force that his braces became caught on the inside of his 
cheek. Some of his classmates started a page on Facebook called 
``Everyone that hates'' and then inserted the name of the 
child.
    When I hear about the psychological and emotional damage 
inflicted on teenagers and younger children as a result of 
cyberbullying, online harassment, or forms of exploitation 
online, I become deeply concerned, both as a father and as a 
lawmaker. Children deserve to learn in peace and safety. I 
believe that is one basic premise upon which we all should be 
able to agree.
    I look forward to hearing from the Federal Trade Commission 
about how its education campaign for online socializing is 
working, whether improvements can be made, and how we can 
create solutions together to strengthen the online safety and 
security of our Nation's children.
    I also look forward to hearing from the witnesses about the 
greatest threats to minors' safety in the online space, 
strategies to mitigate them, suggestions for promoting safe use 
of digital media, and how the FTC could work with other groups 
or schools to encourage safe navigation of online sites to 
better defend against risks to their mental health and well-
being.
    It is critical that we work together to determine how to 
integrate the research of our online media and technology 
experts, our public, private, and law enforcement officials, 
and agencies' staff the--at the Federal Trade Commission to 
craft meaningful and effective policies to better protect our 
young people against threats on the Internet.
    So, what I'd like to do now is go ahead and introduce our 
panels here and get as far along as possible with their opening 
statements. And again, I may have to recess at some point 
during the--you know, during the middle of the panel opening 
statements.
    But, I'll go ahead and just very briefly say--let's see, in 
order we have, Ms. Jessica Rich, Deputy Director of Bureau of 
Consumer Protection, Federal Trade Commission; Mr. Hemanshu 
Nigam, Safety Advisor, News Corporation, and Founder of SSP 
Blue, and former Chief Safety and Security Officer for MySpace; 
Mr. Jeff McIntyre, Director of National Policy for Children 
Now; Ms. Michelle Collins, Vice President, Exploited Children 
Division, National Center for Missing & Exploited Children; and 
Mr. K. Dane Snowden, Vice President, External and State 
Affairs, CTIA--The Wireless Association.
    Ms. Rich, would you mind leading us off?

STATEMENT OF JESSICA RICH, DEPUTY DIRECTOR, BUREAU OF CONSUMER 
              PROTECTION, FEDERAL TRADE COMMISSION

    Ms. Rich. Chairman Pryor, my name is Jessica Rich, Deputy 
Director of the Bureau of Consumer Protection with the Federal 
Trade Commission.
    And there I am. I'm on.
    [Laughter.]
    Ms. Rich. I appreciate this opportunity to discuss the 
Commission's efforts to protect the privacy and security of 
teens in the digital environment. While the views expressed in 
this written testimony represent the views of the Commission, 
my oral testimony and responses to questions are my own, and do 
not necessarily reflect the views of the Commission or any 
commissioner.
    The Federal Trade Commission is committed to protecting 
teens as they use and explore the online world. Today, I'll 
talk about the FTC's efforts to educate teens and parents about 
cybersafety, enforce the privacy laws, and develop policy 
approaches to make the digital world safer for all consumers, 
including teens.
    Parents of teens won't be surprised to learn that more 
teens go online than any other age group, over 90 percent. 
Teens have earned the nickname ``digital natives,'' since they 
use the Internet so much to socialize with their peers, learn 
about topics that interest them, and express themselves. Teens 
avidly communicate using instant message and social networks, 
share music and photos on P2P networks, and use smart phones to 
text, watch videos, and surf the web.
    Despite the many positives, teens may be less able to 
handle some challenges online than adults. For example, teens 
may not always think about the consequences of their actions, 
so they may post personal details online without thinking that 
it could leave them vulnerable to identity theft or cost them a 
job if a future employer sees it. And problems, once limited to 
the school hallway or the bus stop, like bullying and 
harassment, now spill into the online world.
    So, what's the FTC doing? First, we educate teens and 
parents about online threats and how to avoid them. The 
Commission's online safety portal, onguardonline.gov, helps 
consumers of all ages use the Internet safely and responsibly. 
Our new booklet, titled ``Net Cetera: Chatting With Kids About 
Being Online,'' provides practical tips on how parents, 
teachers, and other trusted adults can talk to kids about 
issues like cyberbullying, sexting, social networking, mobile 
phone use, and online privacy. We've already distributed more 
than 3.7 million copies of Net Cetera with partners, including 
school districts and individual schools, and we are actively 
working to expand the reach of these efforts.
    Second, the Commission aggressively enforces existing laws 
to protect consumers' privacy. Let me highlight just a couple 
of areas affecting teens: social networks and peer-to-peer file 
sharing.
    About three in four American teens now use social 
networking sites, nearly half on a daily basis. Since social 
networking exploded on the youth scene, the Commission has 
brought a number of enforcement actions against these sites. 
For example, just 2 weeks ago the Commission announced a 
consent order against Twitter, settling charges that it falsely 
represented that it maintain reasonable security and would take 
reasonable steps to ensure that private tweets remain private.
    In addition, many teens use P2P file sharing to share 
music, games, and software online. P2P programs present privacy 
and security risks because people may inadvertently allow 
others to copy private files they never intended to share. The 
Commission recently sent letters notifying several dozen 
entities that their customer information had been exposed on 
P2P file-sharing networks. We also sent them educational 
materials to help them secure their confidential data and 
opened nonpublic investigations into the most serious cases.
    Third, we're exploring policy approaches that would help 
all consumers preserve their privacy in commercial settings, 
including teens. For example, we've been gathering information 
about social networking as part of a recently concluded series 
of public roundtables examining ways to foster privacy 
protections in the Information Age. Participants discussed the 
difficulty of defining consumer expectations on social 
working--networking sites, as well as issues related to data 
collection by numerous third-party applications operating at 
those sites.
    Mobile space is another key area. As the Chairman 
mentioned, a recent study found that 58 percent of 12-year-olds 
and 83 percent of 17-year-olds own a cell phone. And an 
increasing number of teens own more sophisticated smart phones. 
These devices collect and store information from teens, and 
host all sorts of third-party applications which do the same. 
The increasing use of smart phones and similar devices was one 
of the main reasons we decided to accelerate our review of the 
Children's Online Privacy Protection Act.
    Before I conclude, let me address the scope of COPPA. As 
you know, some have suggested that COPPA should be extended to 
teens. COPPA requires websites and online services to obtain 
parental consent prior to the collection, use, or disclosure of 
personal information from children. When drafting COPPA, 
Congress decided to define ``child'' as under age 13, largely 
on the basis that most young children don't possess adequate 
knowledge or judgment to decide if and when to divulge personal 
information online.
    This reasoning does not necessarily extend to adolescents, 
who have greater access to the Internet outside the home than 
younger children. Teens may also be less likely than young 
children to provide their true age or their parents' contact 
information. And as children approach adulthood and use 
general-audience websites, it becomes more difficult to craft 
laws that don't unduly restrict free speech.
    That being said, we are very happy to work with the 
Committee if it determines to enact legislation providing 
special protections for teens online. We'll also continue our 
efforts to educate teens and their parents and develop policy 
recommendations to protect all consumers, including teens.
    In conclusion, the Commission is committed to protecting 
all consumers in the digital environment, especially those, 
such as teens, who are particularly vulnerable to threats on 
the Internet.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Rich follows:]

         Prepared Statement of Jessica Rich, Deputy Director, 
        Bureau of Consumer Protection, Federal Trade Commission

I. Introduction
    Chairman Pryor, Ranking Member Wicker, and members of the 
Subcommittee, my name is Jessica Rich and I am the Deputy Director of 
the Bureau of Consumer Protection at the Federal Trade Commission 
(``FTC'' or ``Commission'').\1\ I appreciate this opportunity to appear 
before you today to discuss the Commission's efforts to protect the 
privacy and security of teens in the digital environment.
---------------------------------------------------------------------------
    \1\ While the views expressed in this statement represent the views 
of the Commission, my oral presentation and responses to questions are 
my own and do not necessarily reflect the views of the Commission or 
any individual Commissioner.
---------------------------------------------------------------------------
    The Federal Trade Commission is committed to protecting teens as 
they navigate digital technologies and applications. The agency has 
actively engaged in education, law enforcement, and policy efforts to 
help make the digital world safer for all consumers, including teens.
    This testimony first highlights some of the privacy and safety 
risks teens face as they participate in the digital world. Second, it 
summarizes the Commission's efforts to educate teens and their parents 
about these risks. Third, it highlights the Commission's efforts to 
protect privacy in the context of technologies used heavily by teens in 
particular--social networking, mobile computing, and peer-to-peer 
(``P2P'') file-sharing programs. Finally, the testimony addresses 
proposals to create separate privacy protections for teens online.

II. Teens in the Digital Environment
    Teens are heavy users of digital technology and new media 
applications including social networking, mobile devices, instant 
messaging, and file-sharing. Indeed, a 2007 study found that over 90 
percent of kids between the ages of 12 and 17 spend time online.\2\ The 
online world has changed how teens learn, socialize, and are 
entertained. In many ways, the experiences teens have online are 
positive--they use the Internet to socialize with their peers,\3\ to 
learn more about topics that interest them,\4\ and to express 
themselves.\5\
---------------------------------------------------------------------------
    \2\ Amanda Lenhart, Mary Madden, Alexandra Rankin Macgill, & Aaron 
Smith, Pew Internet & American Life Project, Teens and Social Media 
(Dec. 19, 2007), available at www.pewinter
net.org//media//Files/Reports/2007/
PIP_Teens_Social_Media_Final.pdf.pdf.
    \3\ See Amanda Lenhart & Mary Madden, Pew Internet & American Life 
Project, Social Networking Websites and Teens (Jan. 2007), available at 
www.pewinternet.org/Reports/2007/Social-Networking-Websites-and-Teens/
Data-Memo/Moredetails-from-the-survey.aspx?r=1.
    \4\ See Kaiser Family Foundation, Generation M2: Media in the Lives 
of 8- to 18-Year-Olds (Jan. 2010), available at www.kff.org/entmedia/
upload/8010.pdf.
    \5\ See Amanda Lenhart, Kristen Purcell, Aaron Smith, & Kathryn 
Zickuhr, Pew Internet & American Life Project, Social Media and Young 
Adults (Feb. 2010), available at www.pewinter
net.org/Reports/2010/Social-Media-and-Young-Adults.aspx?r=1.
---------------------------------------------------------------------------
    But teens also face unique challenges online. For example, research 
shows that teens tend to be more impulsive than adults and that they 
may not think as clearly as adults about the consequences of what they 
do.\6\ As a result, they may voluntarily disclose more information 
online than they should. On social networking sites, young people may 
share personal details that leave them vulnerable to identity theft.\7\ 
They may also share details that could adversely affect their potential 
employment or college admissions.\8\ Teens also sometimes ``sext'' to 
their peers--send text messages and images with sexual content--without 
considering the potential legal consequences and harm to their 
reputations. According to one recent study, 4 percent of cell phone 
owners aged 12 to 17 have sent sexually suggestive images of themselves 
by phone, while 15 percent have received ``sexts'' containing images of 
someone they know.\9\ In addition, bullies or predators--most often 
teens' own peers--may try to take advantage of adolescents on the 
Internet. About one-third of all teens online have reported 
experiencing some kind of online harassment, including 
cyberbullying.\10\
---------------------------------------------------------------------------
    \6\ See, e.g., Transcript of Exploring Privacy, A Roundtable Series 
(Mar. 17, 2010), Panel 3: Addressing Sensitive Information, available 
at htc-01.media.globix.net/COMP008760MOD1/ftc_web/transcripts/
031710_sess3.pdf; Chris Hoofnagle, Jennifer King, Su Li, and Joseph 
Turow, How Different Are Young Adults from Older Adults When It Comes 
to Information Privacy Attitudes & Policies? (April 14, 2010), 
available at ssrn.com/abstract=1589864.
    \7\ See Javelin Strategy and Research, 2010 Identity Fraud Survey 
Report (Feb. 2010), available at www.javelinstrategy.com/uploads/files/
1004.R_2010IdentityFraudSurveyConsumer.pdf.
    \8\ See e.g., Commonsense Media, Is Social Networking Changing 
Childhood? A National Poll (Aug. 10, 2009), available at 
www.commonsensemedia.org/sites/default/files/CSM_teen_social
_media_080609_FINAL.pdf (indicating that 28 percent of teens have 
shared personal information online that they would not normally share 
publicly) .
    \9\ Press Release, Pew Internet & American Life Project, Teens and 
Sexting (Dec. 15, 2009), available at www.pewinternet.org/Press-
Releases/2009/Teens-and-Sexting.aspx.
    \10\ Amanda Lenhart, Pew Internet & American Life Project, 
Cyberbullying and Online Teens (June 27, 2007), available at 
www.pewinternet.org//media//Files/Reports/2007/PIP%20Cyber
bullying%20Memo.pdf.pdf.
---------------------------------------------------------------------------
    Despite teens' sharing and use of personal information in the 
digital world, there is data that suggests teens are concerned about 
their online privacy. For example, one study of teens and privacy found 
that teens engage in a variety of techniques to obscure or conceal 
their real location or personal details on social networking sites.\11\ 
The Commission seeks to address these privacy concerns--as well as 
parents' concerns about their teens' online behavior and interactions--
through education, policy development, and law enforcement, as 
discussed further below.
---------------------------------------------------------------------------
    \11\ Amanda Lenhart and Mary Madden, Pew Internet & American Life 
Project, Teens, Privacy, and Online Social Networks (Apr. 18, 2007), 
available at www.pewinternet.org/Reports/2007/Teens-Privacy-and-Online-
Social-Networks.aspx?r=1.
---------------------------------------------------------------------------
III. Consumer Education
    The FTC has launched a number of education initiatives designed to 
encourage consumers of all ages to use the Internet safely and 
responsibly. The Commission's online safety portal, OnGuardOnline.gov, 
developed in partnership with other Federal agencies, provides 
practical information in a variety of formats--including articles, 
game, quizzes, and videos--to help people guard against Internet fraud, 
secure their computers, and protect their personal information.\12\ The 
Commission's booklet, Net Cetera: Chatting With Kids About Being 
Online,\13\ is the most recent addition to the OnGuardOnline.gov 
consumer education campaign. This guide provides practical tips on how 
parents, teachers, and other trusted adults can help children of all 
ages, including teens and pre-teens, reduce the risks of inappropriate 
conduct, contact, and content that come with living life online.
---------------------------------------------------------------------------
    \12\ The OnGuardOnline.gov website is the central component of the 
OnGuardOnline consumer education campaign, a partnership of the Federal 
Government and the technology community. Currently, 13 Federal agencies 
and a large number of safety organizations are partners on the website, 
contributing content and helping to promote and disseminate consistent 
messages. Since the launch of OnGuardOnline.gov and its Spanish-
language counterpart AlertaenLinea.gov in September 2005, more than 12 
million visitors have used these sites for information about computer 
security.
    \13\ Net Cetera is available online at www.onguardonline.gov/pdf/
tec04.pdf.
---------------------------------------------------------------------------
    Net Cetera focuses on the importance of communicating with children 
about issues ranging from cyberbullying to sexting, social networking, 
mobile phone use, and online privacy. It provides specific advice to 
parents about talking to their children about each of these topics. For 
example, on the subject of sexting, it discusses the risks sexting 
poses to kids' reputations and friendships--as well as possible legal 
consequences if kids create, forward, or save these kinds of messages--
and gives parents straightforward advice: ``Tell your kids not to do 
it.'' With respect to cyberbullying, Net Cetera advises parents to talk 
with their kids about online behavior and about any messages or images 
that make them feel threatened or hurt. The guide advises parents to 
work with a child who is being bullied by helping them to not react, 
save the evidence, and block or delete the bully.
    The Commission has partnered with schools, community groups, and 
local law enforcement to publicize Net Cetera, and the agency has 
distributed more than 3.7 million copies of the guide since it was 
introduced in October 2009. The FTC will continue to work with other 
Federal agencies, state departments of education, school districts, and 
individual schools to distribute Net Cetera and OnGuardOnline.gov to 
parents and educators. Additionally, the FTC plans to reach out to 
other groups that work with kids, such as summer camps, state education 
technology associations, and scouting organizations to publicize these 
materials.
    In furtherance of the FTC's education efforts, Commission staff 
also participated in the Online Safety and Technology Working Group 
(OSTWG), a working group composed of private sector members and Federal 
agencies. OSTWG reported its findings about youth safety on the 
Internet to Congress on June 4, 2010.\14\ Among its tasks, OSTWG 
reviewed and evaluated the status of industry efforts to promote online 
safety through educational efforts, parental control technology, 
blocking and filtering software, and age-appropriate labels for 
content. With respect to Internet safety education, OSTWG recommended 
greater interagency cooperation, publicity, and public-private sector 
cooperation for projects such as OnGuardOnline and Net Cetera to 
improve their national uptake in schools and local communities. As 
described above, the FTC is actively working to expand the reach of the 
already successful OnGuardOnline and Net Cetera projects.
---------------------------------------------------------------------------
    \14\ Youth Safety on a Living Internet: Report of the Online Safety 
and Technology Working Group (June 4, 2010), available at 
www.ntia.doc.gov/reports/2010/OSTWG_Final_Report
_060410.pdf.
---------------------------------------------------------------------------
IV. Social Networking, Mobile Computing, and P2P
    In addition to education efforts to improve teen privacy, the 
Commission is also focused on specific technologies of which teens are 
particularly high users--social networking, mobile computing, and P2P 
file-sharing.

A. Social Networking
    Social networking is pervasive among teens: 73 percent of American 
teens aged 12 to 17 now use social networking sites such as Facebook 
and MySpace, up from 55 percent 2 years ago.\15\ Nearly half of teens 
use these sites on a daily basis to interact with their friends.\16\ 
Teens use social networking to send messages to friends, post comments, 
and share photos and videos.\17\
---------------------------------------------------------------------------
    \15\ See Amanda Lenhart, Kristen Purcell, Aaron Smith, & Kathryn 
Zickuhr, Pew Internet & American Life Project, Social Media and Young 
Adults (Feb. 2010), available at www.pewinternet.org/Reports/2010/
Social-Media-and-Young-Adults.aspx?r=1.
    \16\ See Amanda Lenhart & Mary Madden, Pew Internet & American Life 
Project, Social Networking Websites and Teens (Jan. 2007), available at 
www.pewinternet.org/Reports/2007/Social-Networking-Websites-and-Teens/
Data-Memo/Moredetails-from-the-survey.aspx?r=1..52.
    \17\ See Amanda Lenhart, Mary Madden, Alexandra Rankin Macgill, & 
Aaron Smith, Pew Internet & American Life Project, Teens and Social 
Media (Dec. 19, 2007), available at www.pew
internet.org//media//Files/Reports/2007/
PIP_Teens_Social_Media_Final.pdf.pdf.
---------------------------------------------------------------------------
    The Commission has sought to protect teenage and other consumers in 
this environment through law enforcement, research, and education. It 
has brought a number of enforcement actions against social networking 
sites since 2006, when social networking exploded on the youth scene. 
Most recently, the Commission announced a consent order against 
Twitter, Inc. settling charges that it falsely represented to consumers 
that it would maintain reasonable security of its system and that it 
would take reasonable steps to ensure that private tweets remain 
private. Under the order, Twitter has agreed to maintain reasonable 
security and to obtain independent audits of its security procedures 
every 2 years for 10 years.\18\ The Commission also has brought actions 
against several social networking sites that targeted youth but failed 
to adhere to the Children's Online Privacy Protection Act (``COPPA'') 
with respect to users under the age of 13.\19\ The Commission will 
continue to examine the practices of social networking sites and bring 
enforcement actions when appropriate.
---------------------------------------------------------------------------
    \18\ In re Twitter, FTC File No. 092 3093 (June 24, 2010) (approved 
for public comment), available at www.ftc.gov/opa/2010/06/twitter.shtm.
    \19\ United States v. Xanga.com, Inc., No. 06-CIV-6853(SHS) 
(S.D.N.Y.) (final order Sept. 11, 2006); United States v. Industrious 
Kid, Inc., No. 08-CV-0639 (N.D. Cal.) (final order Mar. 6, 2008); 
United States v. Sony BMG Music Entm't, No. 08-CV-10730 (S.D.N.Y.) 
(final order Dec. 15, 2008); United States v. Iconix Brand Group, Inc., 
No. 09-CV-8864 (S.D.N.Y.) (final order Nov. 5, 2009).
---------------------------------------------------------------------------
    In addition to its enforcement work, the Commission has been 
gathering information about social networking as part of a recently-
concluded series of public roundtables on consumer privacy.\20\ The 
goal of the roundtables was to explore how best to protect consumer 
privacy without curtailing technological innovation and beneficial uses 
of information.\21\ Participants at the roundtables repeatedly raised 
issues related to social networking, and a specific panel was devoted 
to the subject. Experts on this panel discussed the difficulty of 
defining consumer expectations on social networking sites, issues 
related to third-party applications that use data from social 
networking sites, and the effectiveness of privacy disclosures and 
privacy settings in the social networking space.
---------------------------------------------------------------------------
    \20\ More information about the Privacy Roundtables can be found at 
www.ftc.gov/bcp/workshops/privacyroundtables/index.shtml.
    \21\ Several key concepts emerged from the roundtable discussions. 
First, participants stated that data collection and use practices 
should be more transparent by, for example, simplifying privacy 
disclosures so that consumers can compare them. Second, participants 
said that it should be easier for consumers to exercise choice. For 
example, rather than burying important choices in a lengthy privacy 
policy, such choices should be presented at the most relevant time--
e.g., the point of information collection or use. Further, it may not 
be necessary to provide choice about uses of data that are implicit or 
expected as part of a transaction--for example, sharing address 
information with a shipping company to send a product that the consumer 
has requested. Finally, participants noted that companies should build 
basic privacy protections into their systems at the outset by, for 
example, collecting and retaining information only if they have a 
business need to do so. The Commission is taking these basic principles 
into account as it develops privacy proposals to be released for 
comment later this year.
---------------------------------------------------------------------------
    The Commission is reviewing the information it received as part of 
the roundtable series and drafting initial privacy proposals, which it 
will release for public comment later this year.\22\ The Commission 
will consider the information it obtained about social networking as it 
makes its recommendations.
---------------------------------------------------------------------------
    \22\ In addition to the information presented at the roundtables, 
the Commission received over 100 submissions in response to its request 
for written comments or original research on privacy, available at 
www.ftc.gov/os/comments/privacyroundtable/index.shtm.
---------------------------------------------------------------------------
B. Mobile Technology
    Teens' use of mobile devices is increasing rapidly--in 2004, 45 
percent of teens aged 12 to 17 had a cell phone; by 2009, that figure 
jumped to 75 percent.\23\ Many teens are using their phones not just 
for calling or texting, but increasingly for applications like e-
mailing and web browsing, including accessing social networking sites 
and making online purchases.\24\ They are also using relatively new 
mobile applications that raise unique privacy concerns, such as 
location-based tracking.\25\
---------------------------------------------------------------------------
    \23\ Amanda Lenhart, Rich Ling, Scott Campbell, Kristen Purcell, 
Pew Internet & American Life Project, Teens and Mobile Phones (Apr. 20, 
2010), available at www.pewinternet.org//media//Files/Reports/2010/
PIP-Teens-and-Mobile-2010.pdf.
    \24\ Id.
    \25\ Nielsen, How Teens Use Media (June 2009), available at 
blog.nielsen.com/nielsenwire/reports/
nielsen_howteensusemedia_june09.pdf.
---------------------------------------------------------------------------
    The FTC has been actively addressing privacy issues relating to 
mobile technology for several years. In 2008, the Commission held a 
Town Hall meeting to explore the evolving mobile marketplace and its 
implications for consumer protection policy. Participants in the 
meeting examined topics such as consumers' ability to control mobile 
applications and mobile commerce practices targeting children and 
teens. In April 2009, FTC staff issued a report setting out key 
findings and recommendations based on the Town Hall meeting. Having 
highlighted that the increasing use of smartphones presents unique 
privacy challenges regarding children, the Town Hall meeting led to an 
expedited regulatory review of the Children's Online Privacy Protection 
Rule.\26\ The review is taking place this year, even though it was 
originally set for 2015.
---------------------------------------------------------------------------
    \26\ Under the rulemaking authority granted to it by the Children's 
Online Privacy Protection Act of 1998 (``COPPA''), the FTC promulgated 
the COPPA Rule, 16 CFR Part 312, in 1999.
---------------------------------------------------------------------------
    More recently, the privacy roundtable discussions devoted a panel 
to addressing the privacy implications of mobile computing. This panel 
focused on two significant issues: the extent to which location-based 
services were proliferating in an environment without any basic rules 
or standards, and the degree to which transparency of information 
sharing practices is possible on mobile devices. As with social 
networking, the Commission staff's upcoming report on the privacy 
roundtables will further address these issues.
    In addition to these policy initiatives, the FTC is ensuring that 
it has the tools necessary to respond to the growth of mobile commerce 
and conduct mobile-related investigations. In the past month, the FTC 
has expanded its Internet lab to include smartphone devices on various 
platforms and carriers. The Commission also has obtained the equipment 
necessary to collect and preserve evidence from these mobile devices. 
With these smartphones, FTC staff can now improve its monitoring of 
unfair and deceptive practices in the mobile marketplace, conduct 
research and investigations into a wide range of issues, and stay 
abreast of the issues affecting teens and all consumers.

C. P2P File-Sharing
    P2P file-sharing allows people to share their files through an 
informal network of computers running the same software. Teens use P2P 
programs to share music, games, or software online. However, P2P file-
sharing presents privacy and security risks because consumers may 
unknowingly allow others to copy private files they never intended to 
share. The FTC has sought to address these risks in several ways.
    First, the Commission has undertaken an initiative targeting 
businesses that use or allow P2P programs on their networks without 
implementing reasonable safeguards to protect their customers' 
information from inadvertent disclosure through these programs. This 
customer information can be leaked onto a P2P network when, for 
example, an employee downloads a P2P program directly onto his or her 
work computer, or when a business chooses to utilize P2P file-sharing 
programs, but does not configure its network correctly to protect such 
information.
    To address this problem, the Commission recently sent letters 
notifying several dozen public and private entities--including 
businesses, schools, and local governments--that customer information 
from their computers had been made available on P2P file-sharing 
networks.\27\ In the notification letters, the FTC urged the entities 
to review their security practices, explained that they should take 
steps to control the use of P2P software on their networks, and shared 
new business education materials designed to help them protect their 
confidential data from inadvertent sharing to a P2P network.\28\ Many 
entities that received these notifications contacted FTC staff for 
additional information to aid in their investigations into the file-
sharing incidents, and a number reported making changes to their 
security practices to prevent inadvertent file-sharing to P2P networks. 
At the same time it sent the notification letters, the FTC opened non-
public investigations into other companies whose customer or employee 
information had been exposed on P2P networks.\29\
---------------------------------------------------------------------------
    \27\ FTC Press Release, Widespread Data Breaches Uncovered by FTC 
Probe, (Feb. 22, 2010), available at www.ftc.gov/opa/2010/02/
p2palert.shtm.
    \28\ These materials are available at www.ftc.gov/bcp/edu/pubs/
business/idtheft/bus46.shtm.
    \29\ FTC Press Release, supra note 27.
---------------------------------------------------------------------------
    FTC staff has also assisted P2P file-sharing software developers in 
devising best practices to help prevent consumers from inadvertently 
sharing personal or sensitive data over P2P networks. In July 2008, the 
Distributed Computer Industry Association published voluntary best 
practices to guard against inadvertent file sharing. With the 
assistance of an independent P2P technology expert, FTC staff have been 
assessing whether members are complying with these best practices.
    The FTC also seeks to educate consumers about the risks of P2P file 
sharing software. Among other things, the agency provides tips for 
consumers about P2P in a consumer alert entitled ``P2P File-Sharing: 
Evaluate the Risks,'' \30\ which is available through 
OnGuardOnline.gov, and in Net Cetera.
---------------------------------------------------------------------------
    \30\ The consumer alert is available at www.ftc.gov/bcp/edu/pubs/
consumer/alerts/alt128
.shtm.
---------------------------------------------------------------------------
    Finally, the FTC has brought enforcement actions alleging that 
certain P2P file sharing software providers made deceptive claims in 
connection with the marketing of their products.\31\
---------------------------------------------------------------------------
    \31\ FTC v. Cashier Myricks Jr., Civ. No. CV05-7013-CAS (FMOx) 
(C.D. Cal., filed Sep. 27, 2005) (suit against the operator of the 
website MP3DownloadCity.com for making allegedly deceptive claims that 
it was ``100 percent LEGAL'' for consumers to use the file-sharing 
programs he promoted to download and share music, movies, and computer 
games); FTC v. Odysseus Marketing, Inc., Civ. No. 05-330 (D.N.H., filed 
Sep. 21, 2005) (suit against website operator that encouraged consumers 
to download free software falsely marketed as allowing consumers to 
engage in anonymous P2P file-sharing).
---------------------------------------------------------------------------
V. Privacy Models and Teens
    The issues surrounding teens' use of digital technology raise the 
question whether there should be special privacy protections for them. 
Some have suggested that COPPA's protections be extended to cover 
adolescents between the ages of 13 and 18; others suggest that separate 
privacy protections should be established for teens.\32\
---------------------------------------------------------------------------
    \32\ See Hearing: an Examination of Children's Privacy: New 
Technologies and the Children's Online Privacy Protection, Prepared 
Statement of Professor Kathryn Montgomery Before the Subcommittee on 
Consumer Protection, Product Safety, and Insurance, Committee on 
Commerce, Science, and Transportation, U.S. Senate (Apr. 29, 2010), 
available at www.demo
craticmedia.org/files/u1/2010-04-28-montgomerytestimony.pdf; see also 
An Examination of Children's Privacy: New Technologies and the 
Children's Online Privacy Protection Act (COPPA), Prepared Statement of 
Marc Rotenberg, EPIC.org, available at epic.org/privacy/kids/EPIC
_COPPA_Testimony_042910.pdf.
---------------------------------------------------------------------------
    The COPPA statute and implementing regulations enforced by the FTC 
require operators to provide notice to, and receive consent from, 
parents of children under age 13 prior to the collection, use, or 
disclosure of such children's personal information on websites or 
online services. In the course of drafting COPPA, Congress looked 
closely at whether adolescents should be covered by the law, ultimately 
deciding to define a ``child'' as an individual under age 13. This 
decision was based in part on the view that most young children do not 
possess the level of knowledge or judgment to make appropriate 
determinations about when and if to divulge personal information over 
the Internet. The FTC supported this assessment.\33\
---------------------------------------------------------------------------
    \33\ See Testimony of the Federal Trade Commission Before the 
Subcommittee on Communications, Senate Committee on Commerce, Science, 
and Transportation (Sept. 23, 1998), available at www.ftc.gov/os/1998/
09/priva998.htm.
---------------------------------------------------------------------------
    While this parental notice and consent model works fairly well for 
young children, the Commission is concerned that it may be less 
effective or appropriate for adolescents. COPPA relies on children 
providing operators with parental contact information at the outset to 
initiate the consent process. The COPPA model would be difficult to 
implement for teens, as they have greater access to the Internet 
outside of the home than young children do, such as in libraries, 
friends' houses, or mobile devices. Teens seeking to bypass the 
parental notification and consent requirements may also be less likely 
than young children to provide accurate information about their age or 
their parents' contact information. In addition, courts have recognized 
that as children age, they have an increased constitutional right to 
access information and express themselves publicly.\34\ Moreover, given 
that teens are more likely than young children to spend a greater 
proportion of their time online on websites that also appeal to adults, 
the practical difficulties in expanding COPPA's reach to adolescents 
might unintentionally burden the right of adults to engage in online 
speech.\35\
---------------------------------------------------------------------------
    \34\ See, e.g., American Amusement Mach. Ass'n. v. Kendrick, 244 
F.3d 572 (7th Cir. 2001) (citing Erznoznik v. city of Jacksonville, 422 
U.S. 205, 212-14 (1975); Tinker v. Des Moines Independent School 
District, 393 U.S. 503, 511-14 (1969).
    \35\ See ACLU v. Ashcroft, 534 F.3d 181, 196 (3d Cir. 2008) (citing 
ACLU v. Gonzales, 478 F. Supp. 2d 775, 806 (E.D. Pa. 2007) (``Requiring 
users to go through an age verification process would lead to a 
distinct loss of personal privacy.'')); see also Bolger v. Youngs Drug 
Prods. Corp., 463 U.S. 60, 73 (1983) (citing Butler v. Michigan, 352 
U.S. 380, 383 (1957) (``The Government may not reduce the adult 
population . . . to reading only what is fit for children.'')).
---------------------------------------------------------------------------
    The Commission will continue to evaluate how best to protect teens 
in the digital environment and take appropriate steps to do so. In 
specific instances, there may be opportunities for law enforcement or 
advocacy in this area. For example, just this week, the Commission's 
Bureau of Consumer Protection sent a letter to individual stakeholders 
in XY corporation, which operated a now-defunct magazine and website 
directed to gay male youth. The letter expressed concern about these 
individuals' efforts to obtain and use old subscriber lists and other 
highly sensitive information--including names, street addresses, 
personal photos, and bank account information from gay teens. The 
letter warns that selling, transferring, or using this information 
would be inconsistent with the privacy promises made to the 
subscribers, and may violate the FTC Act; thus, the letter urges that 
the data be destroyed.
    More generally, the FTC believes that its upcoming privacy 
recommendations based on its roundtable discussions will greatly 
benefit teens. The Commission expects that the privacy proposals 
emerging from this initiative will provide teens both a greater 
understanding of how their data is used and a greater ability to 
control such data. Finally, the Commission is available to work with 
this committee, if it determines to enact legislation mandating special 
protections for teens.

VI. Conclusion
    The Commission is committed to protecting all consumers in the 
digital environment, especially those consumers, such as teens, who are 
particularly vulnerable to threats on the Internet. The FTC will 
continue to act aggressively to protect teens through education, law 
enforcement, and policy initiatives that will better enable teens to 
control their information online.
    Thank you for this opportunity to discuss the privacy and security 
of teens on the Internet. I look forward to your questions.

    Senator Pryor. And thank you.
    At this point, since I just have a couple of minutes left 
in the rollcall, I will recess the hearing, and we'll reconvene 
when--hopefully, I'll be back in just 10 minutes or so. I 
mean--but, as soon as one of us gets back, we'll reconvene the 
hearing, and we'll hear from the rest of the panel.
    And look forward to that. And thank you, again.
    [Recess.]
    Senator Pryor. I'll go ahead and reconvene the 
Subcommittee.
    Again, thank you all for your patience. We had two votes. 
And I talked to at least a couple of my colleagues that said 
they're heading over here, maybe more. But, if we can, let's go 
ahead and pick up with where we were.
    And, Mr. Nigam, go ahead, please. Thank you.

         STATEMENT OF HEMANSHU NIGAM, CO-CHAIR, ONLINE 
     SAFETY TECHNOLOGY WORKING GROUP; SAFETY ADVISOR, NEWS 
               CORPORATION; AND FOUNDER, SSP BLUE

    Mr. Nigam. Chairman Pryor, thank you for giving me the 
opportunity to address you today on the best ways that we can, 
collectively, protect youth online.
    My name's Hemanshu Nigam, and I bring over 20 years of 
experience in the safety worlds in the online and offline 
sites. I'm the Founder of SSP Blue, a safety, security, and 
privacy strategic consulting business, and a board member of 
the National Center for Missing and Exploited Children. I'm 
also a News Corporation Safety Advisor, having previously been 
MySpace's Chief Security and Safety Officer. Before News, I led 
Microsoft's child safety and cyberenforcement teams, and, prior 
to that, was Vice President of Worldwide Internet Enforcement 
at MPAA. I have also served as a Department of Justice 
prosecutor against Internet child exploitation and computer 
crimes, advised the COPA Commission and advised the White House 
on cyberstalking. Finally, I began my career as a prosecutor in 
the Los Angeles County District Attorney's Office, where I 
specialized in prosecuting child molestation and sex crime 
cases.
    And so, I speak to you from various perspectives in the 
private sector, in government, and law enforcement. As Co-Chair 
of the Online Safety Technology Working Group, I led the review 
and evaluation of industry efforts in four key areas: online 
safety, education, and awareness; reporting of child 
pornography; data retention; and online safety technologies. 
The OSTWG had representatives from nearly every facet of the 
online safety--child safety ecosystem who brought more than 250 
years of experience to the table.
    Our goal is to find holistic solutions to what is a 
multidimensional challenge. We built upon the teachings of 
previous online safety task forces that have occurred over the 
past 10 years by inviting experts to inform our subcommittees 
on the latest online safety developments. From the breadth and 
depth of the 39 recommendations--in case you were wondering how 
many there actually were--from the breadth and depth of the 39 
recommendations we make in our report, ``Youth Safety in a 
Living Internet,'' I think we succeeded in meeting our goal.
    And before I share some of these recommendations, I'd like 
to talk about one concept that became quite clear. As we state 
in the report, the Internet is a living thing that constantly 
mirrors our society, our lives, and our publications. And, as 
such, we have to treat safety online in much the same way as we 
treat safety offline. And just as it takes a village to raise a 
child in the physical world, it takes the same village to raise 
a child in the online world. And given its dynamic nature, 
there is no one-size-fits-all solution and no silver bullet, 
just like in the physical world. Not surprisingly, our children 
seem to know how our offline and online worlds are intertwined 
far better than we adults do.
    And it is with full recognition of this living Internet 
that we make our recommendations to you. And here is just a 
sampling:
    The Subcommittee on Internet Safety Education recommended 
that an online research database be created and better 
coordination of the multitude of Federal Government educational 
efforts be done.
    The Subcommittee on Parental Controls and Child Protection 
Technology recommended that a common set of terms be created to 
help parents understand the various tools better, and that 
these technologies be baked into online products, where 
possible.
    The Subcommittee on Child Pornography Reporting recommended 
that smaller service providers be helped by the larger 
industry, folks like ourselves, to get them to comply with 
reporting requirements. This subcommittee also recommended tax 
credits for industry to offset the high development costs of 
reporting.
    Finally, the Subcommittee on Data Retention recommended 
that the discourse about data retention be held at the Federal 
level and that Congress take a closer look at data preservation 
before considering mandatory data retention.
    And, just as we observed that the Internet had evolved from 
merely a technical tool to a reflection of our living society, 
we also became markedly aware of two important areas that 
require congressional action:
    First, create a cross-functional, cross-agency coordinating 
body, led by the government, that includes members from every 
sector of the child safety ecosystem, to build consensus and 
coordinate education efforts.
    Second, enact legislation that would require a review of 
all the online safety-related programs the Federal Government 
has already undertaken in order to evaluate their 
effectiveness.
    We in the industry must be a critical part of solutions, as 
well. Having led safety efforts at MySpace, I'd like to offer 
you examples of just how the industry should take a holistic 
approach to online safety by building programs that consist of 
safety technologies, education, collaboration, and enforcement.
    As builders of technological platforms, MySpace provides 
both front-end user tools and back-end member protections. We 
give users the ability to block other users to reduce incidents 
of cyberbullying. We also review images to keep out unwanted 
content.
    Technical solutions must be coupled with educational 
programs that raise awareness about safety online. MySpace has 
distributed safety guides to over 55,000 schools in this 
country, and has an informative safety section on its site for 
all visitors.
    The industry must also collaborate with child safety 
experts. And we've partnered with leading child advocacy 
organizations in the country, like the National Center. These 
partnerships have been used to protect children, assist in 
recovering runaways, and preventing suicides.
    At the end of the day, as you know, Mr. Chairman, as former 
Attorney General of Arkansas, illegal incidents can and do 
occur; thus, we work closely with law enforcement--24 hours, 7 
days a week--to help ensure the safety of our users.
    And speaking more broadly, and as I close, Congress also 
has a critical role to play in protecting children online:
    First, we ask that you convene the experts. Today's hearing 
is a great example of a place where we can identify problems 
and cutting-edge solutions.
    Second, educate the masses. The more we can implement 
educational programs at every level of our education system, 
the healthier our citizens will be online.
    And third, fund online safety programs. A solution, without 
proper funding is, frankly, no solution at all.
    So, thank you, Chairman Pryor, Chairman Rockefeller, and 
Ranking Member Wicker, for giving me this opportunity to 
address you on this important topic.
    [The prepared statement of Mr. Nigam follows:]

     Prepared Statement of Hemanshu Nigam, Co-Chair, Online Safety 
    Technology Working Group; Safety Advisor, News Corporation; and 
                           Founder, SSP Blue

    Chairman Pryor, Ranking Member Wicker, and members of the 
Subcommittee, thank you for giving me the opportunity to address you 
today on the best ways that we can collectively protect youth online. I 
bring with me over 20 years of experience in safety in the online and 
offline worlds. I am the Founder of SSP Blue, a safety, security, and 
privacy strategic consulting firm for online businesses. I am also News 
Corporation's Safety Advisor, having previously served as News 
Corporation and MySpace's Chief Security Officer from the birth of 
social media. Before coming to News Corporation, I set in motion a 
cross-company strategy for child safe computing and led a cyber 
enforcement team at Microsoft Corporation. And prior to that, I was 
Vice President of Worldwide Internet Enforcement against digital movie 
piracy at the Motion Picture Association of America. I have also served 
as a Federal prosecutor against Internet child exploitation and 
computer crimes at the U.S. Department of Justice, an advisor to the 
COPA Commission, and an advisor to the White House's Committee on 
Cyberstalking. Finally, I began my career as a prosecutor in the LA 
County District Attorney's office, specializing in child molestation 
and sex crimes cases. And so, I speak to you from various perspectives 
in private industry, government, and law enforcement.
    As co-chair of the Online Safety Technology Working Group, I had 
the honor of leading the mandate to review and evaluate:

        1. The status of industry efforts to promote online safety 
        through educational efforts, parental control technology, 
        blocking and filtering software, age-appropriate labels for 
        content or other technologies or initiatives designed to 
        promote a safe online environment for children;

        2. The status of industry efforts to promote online safety 
        among providers of electronic communications services and 
        remote computing services by reporting apparent child 
        pornography, including any obstacles to such reporting;

        3. The practices of electronic communications service providers 
        and remote computing service providers related to record 
        retention in connection with crimes against children; and

        4. The development of technologies to help parents shield their 
        children from inappropriate material on the Internet.

    The OSTWG had representatives from nearly every facet of the child 
online safety ecosystem totaling more than 250 years of experience in 
online safety. Members were appointed from the Internet industry, child 
safety advocacy organizations, educational and civil liberties 
communities, the government, and law enforcement communities.
    In order to best identify the best solutions for protecting youth 
online, the OSTWG quickly created four subcommittees to focus on each 
area we were asked to evaluate. These subcommittees were chaired as 
follows: Lawrence J. Magid of Connect Safely led the Education 
subcommittee; Michael W. McKeehan of Verizon led the Data Retention 
subcommittee; Christopher G. Bubb of AOL led the Child Pornography 
Reporting subcommittee; and Adam Thierer of the Progress and Freedom 
Foundation led the Technology subcommittee. Given the deadline of 
providing a report to Congress within 1 year of the first meeting, we 
set and followed a very strict timeline that began with an introductory 
meeting on June 4, 2009. We then held meetings at which each 
subcommittee invited experts to provide valuable insights to inform the 
work of that particular subcommittee. Each subcommittee meeting also 
began with a special guest who provided context for the day.
    Our goal was to provide holistic solutions to the multidimensional 
challenge of protecting youth online. This was accomplished by building 
upon the teachings of three task force reports issued over the prior 10 
years--the COPA Commission report, the ``Thornburgh report,'' and the 
Harvard University Berkman Center Internet Safety and Technical Task 
Force report--and hearing from every aspect of the child safety 
ecosystem. From the breadth and depth of the 39 recommendations we made 
in our report, ``Youth Safety on a Living Internet,'' I think we 
succeeded in meeting our goal.
    Before I share these specific recommendations, I want to share one 
concept that became quite clear as a result of this engaging process. 
As we say in the first line of the report, the Internet is a living 
thing that reflects at any given moment in time our humanity's lives, 
sociality, publications and productions. It is very much a part of our 
lives and similarly our lives are very much a part of it. As such, 
users online are intertwined with and often responsible for their own 
safety in this living thing. And given its dynamic nature, there is no 
one-size-fits-all solution and no silver bullet. Finally, our youth 
recognize how our offline and online worlds are intricately intertwined 
far better than we adults do.
    It is with full recognition of this moving, living, breathing 
medium that we make our recommendations.
    Instead of repeating the Subcommittee reports in its entirety, here 
are some key recommendations that came from the work of each 
subcommittee.
    The Subcommittee on Internet Safety Education found that applying 
the Primary/Secondary/Tertiary models used in risk prevention programs 
would work well in Internet safety programs, especially since a high 
correlation exists between offline and online risk. Thus, this 
subcommittee recommended in part that a continually updated online 
research database is necessary, as is the need to coordinate the 
multitude of Federal Government educational efforts in progress.
    The Subcommittee on Parental Controls & Child Protection Technology 
found that a diverse array of protective tools is available today. 
These tools are most effective as part of a ``layered'' approach to 
child online safety especially one that supplements parental education. 
Thus, this subcommittee recommended that a common set of terms be 
created to help parents understand the various tools better and that 
these technologies be ``baked'' into online products where possible.
    The Subcommittee on Child Pornography Reporting found that the 
PROTECT Our Children Act of 2008 had made marked improvements in the 
child pornography reporting process having instant impact on the volume 
of reports being made by the online industry to the National Center for 
Missing and Exploited Children. Yet, nascent and smaller service 
providers need to be brought into the reporting fold. Thus, the 
subcommittee recommended that these smaller providers be helped along 
by the larger industry and work more closely with NCMEC. The 
subcommittee also recommended the consideration of tax credits for 
industry given the high development cost of proper reporting and data 
protection.
    Finally, the Subcommittee on Data Retention highlighted the 
multiple facets to determining what data and how much data should be 
retained by service providers. Varying viewpoints from the law 
enforcement, privacy advocacy, and industry sectors were considered. It 
was clear that law enforcement has a significant need for certain data 
to properly investigate crimes against children online. It was also 
clear that this need must be balanced with privacy concerns from 
legitimate users and the costs of data retention by service providers. 
Thus, the Subcommittee recommended that this discourse be maintained at 
the Federal level to achieve the greatest progress and that Congress 
take a close look at data preservation procedures enacted through the 
PROTECT Act before considering mandatory data retention.
    These are just some of the 39 recommendations we make in the OSTWG 
report. Just as we observed that the Internet had evolved from merely a 
technical tool to a reflection of our living society, we also became 
markedly aware of what I consider to be 50,000 foot-level achievable 
recommendations for future Congresses to consider when creating task 
forces and working groups.
    First, provide proper support and funding to task forces and 
working groups. Unfunded mandates quickly place undue burdens on our 
citizens who stand ready to serve the American public.
    Second, fill the prescription that this and any working group 
writes by perhaps mandating a group whose sole purpose is to drive 
execution of the recommendations.
    Third, create a cross-functional/cross-agency coordinating body led 
by the government with members from every sector of the child safety 
ecosystem to build consensus and coordinate execution efforts.
    Fourth, conduct a review of all the online safety related programs 
the Federal Government has already undertaken and highlight the most 
successful ones. These programs can be a great place for public/private 
partnerships.
    Fifth, take a multi-stakeholder approach when solving the complex 
issues presented by today's new media environment. The OSTWG was 
successful for exactly this reason.
    We in the industry must be a critical part of the solutions as 
well.
    Having led safety efforts at MySpace and News Corporation from the 
time that the social media industry was just an infant and before that 
at Microsoft Corporation, I offer you examples of just how the industry 
can take a holistic approach to online safety. As unusual as it may 
sound, the industry can find parallel and sometimes exact solutions to 
online challenges in the real world. Every online safety program must 
consist of technology, education, collaboration and enforcement 
designed to prevent unwanted content, contact and conduct.
    As builders of these technological platforms, industry must provide 
both front end user tools and back end member protections. MySpace, for 
example, provides users the ability to block anyone from contacting 
them, reducing incidents of cyberbullying. MySpace also automatically 
locks an account that appears to have anomalous activity to prevent 
phishing and spam attacks against users.
    The best technical solutions must then be coupled with educational 
programs to raise awareness about healthy online behaviors. MySpace 
provides guides for parents, teens and school officials with exactly 
this purpose. The school guides have reached over 55,000 schools in 
this country. MySpace also uses teachable moments across the site such 
as during the photo posting process where users are informed about 
acceptable content policies.
    While industry may be expert in technology, we must collaborate 
with experts in other sectors of child online safety. MySpace has 
formed relationships with the National Center for Missing and Exploited 
Children, iKeepSafe, Connect Safely, and Enough is Enough--some of the 
leading child advocacy organizations in the country. Working with 
NCMEC, MySpace sends AMBER Alerts to users when a child is kidnapped or 
missing. MySpace also works with the National Suicide Prevention 
Lifeline when a user is in crisis to get them help immediately thereby 
preventing possible suicides.
    At the end of the day, we know that illegal incidents can occur, 
thus working closely with law enforcement 24/7/365 is a must for all of 
us. MySpace works with law enforcement to respond to requests for 
information that might help bring a perpetrator to justice. MySpace 
also works with law enforcement directly to assist in runaway 
situations in an effort to reunite runaway teens with their families.
    Thus, any industry online safety program must be holistic in nature 
encompassing technology, education, collaboration, and enforcement. I 
will say that the industry has come a long way since my own days as a 
child predator prosecutor in the Department of Justice.
    Speaking more broadly, as this subcommittee examines Protecting 
Youths in an Online World, you have a significant and undeniably 
critical role to play that we in the industry would embrace with open 
arms and one that is necessary for the protection of this Nation's 
children online.

        Convene the Experts to inspire the dialogue. Today's hearing is 
        a great example of just this. The more places that you can 
        inspire folks to gather, discuss, and analyze, the more pointed 
        solutions can be identified.

        Educate the Masses to increase safer online practices. The more 
        we can mandate educational programs at every level of our 
        education system, including colleges, the healthier our 
        citizens will be in their daily online practices.

        Fund the Programs to implement safety solutions. A perfect 
        solution to a complex problem without proper funding is no 
        solution at all. This is very much like recommending that 
        students learn to read in elementary school without providing 
        teachers and books to make that happen.

    I look forward to working with this subcommittee to identify 
specific action items that can help you convene the experts, educate 
the masses and fund the programs.
    In closing, I think we can step forward fully cognizant of the 
challenges that lie before us in protecting youth online and at the 
same time greatly hopeful that we can find and implement solutions that 
will allow our children to grow up healthy in this digital age.
    Thank you Chairman Pryor, Ranking Member Wicker, and members of the 
Subcommittee for giving me this opportunity address you.

    Senator Pryor. Thank you.
    Mr. McIntyre.

                  STATEMENT OF JEFF McINTYRE, 
            DIRECTOR--NATIONAL POLICY, CHILDREN NOW

    Mr. McIntyre. There we go.
    Good afternoon, Chairman Pryor, Chairman Rockefeller, 
Ranking Member Wicker, and the other members of the 
Subcommittee. I'm Jeff McIntyre, and I'm the Director of 
National Policy for Children Now. I'm also the Chair of the 
Children's Media Policy Coalition, which includes the American 
Academy of Pediatrics, the American Psychological Association, 
and the National PTA.
    My main concerns are children's health and education in 
media. The issues this subcommittee and the Online Safety and 
Technology Working Group report deal with are, frankly, issues 
we've been dealing with since well before media was prevalent 
in our lives: predators, bullies, invasion of our children's 
privacy, their information being used inappropriately, the 
effects of advertising on children's health. These are issues 
that parents are generally worried about.
    So, why is it--so, why is interactive media important in 
this? Basic child development teaches us that children learn 
from the environments they are in: schools, families, religious 
institutions, and communities. But, according to a recent 
Kaiser Family Foundation report, the place where children and 
youth spend most of their time is in the media environment. 
Children spend more time immersed in media than they do in any 
other activity. They average just over seven and a half hours a 
day in nonacademic media, and just under 11 hours a day if you 
account for multi-tasking. In today's world, that means 
children and youth are spending enormous amounts of time 
interacting with media and the individuals behind that media.
    Parents can exert great control over where a child is, 
geographically; but, in the interactive world, that's an 
immensely difficult task to do. This has been an issue, for 
those of us concerned about children, for years. With the 
introduction of television came the very first Congressional 
hearings on whether it contributed to juvenile delinquency back 
in the 1950s, violent media, sexualization, unhealthy food 
marketing. It's about kids receiving information detrimental to 
their health that is inappropriate for their developmental 
level.
    Now it's no longer just passive watching. It's about 
children and youth receiving and giving and then receiving 
targeted, sometimes even individualized, information across 
platforms. Children and youth are no longer just observers of 
media, soaking up information like a sponge. Now they are 
active participants, often bypassing parents to create and 
remix games, websites, social networking profiles, or 
participate in chat rooms and advergames. These platforms, 
however, are increasingly designed for the individual, and the 
software often tweaked for that individual. Every time a child 
or youth get propositioned online, bullied, asked for 
inappropriate information, or sent a coupon on their wireless 
without their parents actively choosing for that to happen, 
that parent's authority has been hijacked.
    It's easy to get stars in our eyes when we start talking 
about technology and media or the latest app, but the basics of 
what's healthy or harmful for our children have existed since, 
well, before television, and will exist long after the latest 
platform fad has passed. Simply put, ``buyer beware'' should 
not apply to our kids, especially in an interactive 
environment, not with predators in chat rooms, not with 
bullies, and not with advertisers using their information 
against them.
    Let me also say that an over-reliance on media literacy as 
the panacea to these issues is an incomplete response. Media 
literacy is about education, it's about building awareness. 
It's something that no one is really opposed to. However, it is 
only a small part of the overall equation.
    I think it's very important that the Subcommittee and the 
Committee understand that building awareness ``may'' result in 
a slow shift of attitude, which ``might'' influence behavior 
over an extended period of time, usually years or more. And 
even then, the amount of media literacy content is 
exponentially dwarfed by the amount of contrary unhealthy media 
content that is available and actively marketed to children and 
youth.
    For instance, in 19---excuse me, a 2007 study showed that 
tweens, between the ages of 8 and 12, were exposed to almost 
8,000 advertisements a year on television alone, the majority 
of which were for food items, such as candy and fast food; none 
were for healthy foods, such as fruits or vegetables. And one 
in five of those ads included a push to a website. And that was 
3 years ago. The same group would see a public service 
announcement, a PSA, roughly about once every 3 days.
    Our boat is small here, and the ocean of other media is 
wide and deep, that our children are in. Education is about 
citizenship, digital or otherwise. Years of Children Now 
research on children's media, whether the--on the effects of 
media duopolies on children's educational programming, the 
presence of minorities in children's programming, or the 
extreme lack of effectiveness of advertising pledges by the 
food and beverage companies, has demonstrated that industrywide 
standards tend to meet only the barest minimum dictated by that 
regulation. And that doesn't matter whether it's government or 
self-regulatory. Then they tend to punt to public affairs to 
attempt to shift the burden of responsible media onto the 
parent or child viewer.
    Now, if you think of this with sexual predators, just 
achieving the lowest common denominator and just talking to our 
children about sexual predators is a very small step, but it 
doesn't really come close to helping solve that issue. Other 
protections need to be put in place to have a comprehensive, 
truly safe, healthy environment for our children and youth. 
While media education is incredibly important, it should not be 
a loophole for structural attention to these issues. Real 
demonstrated change must occur in the media environment, for 
our children to be truly safe.
    I want to thank the members of the Subcommittee and 
Committee for their attention and leadership on this issue. 
Children Now stands ready to offer our assistance and resources 
as you move forward--as we move forward in addressing this 
critical moment in our media history.
    [The prepared statement of Mr. McIntyre follows:]

                 Prepared Statement of Jeff Mcintyre, 
                Director--National Policy, Children Now

    Good Morning Chairman Pryor, Ranking Member Wicker and members of 
the Subcommittee. I'm Jeff McIntyre and I'm the Director of National 
Policy for Children Now. I'm also the Chair of the Children's Media 
Policy Coalition, which includes the American Academy of Pediatrics, 
the American Psychological Association, and the National PTA.
    My main concerns are children's health and education--in media. The 
issues this Subcommittee and the Online Safety and Technology Working 
Group Report deal with are, frankly, issues we've been dealing with 
since well before media was prevalent in our children's lives. 
Predators, bullies, invasion of our children's privacy, their 
information being used inappropriately, the effects of advertising on 
our children's health--these are issues that all parents are worried 
about.
    So, why is interactive media important in this? Basic child 
development teaches us that children learn from the environments they 
are in--schools, families, religious institutions, and communities. 
But, according to a recent Kaiser Family Foundation report--the place 
where children and youth spend most of their time is in the media 
environment. Children spend more time immersed in media than any other 
activity. They average just over seven and a half hours a day in non-
academic media--and just under 11 hours a day, if you account for 
multi-tasking. In today's world, that means children and youth are 
spending enormous amounts of time interacting with media--and the 
individuals behind that media. Parents can exert great control over 
where a child is geographically. In the interactive world, that's an 
immensely difficult task to do.
    This has been an issue for those concerned about children for 
years--with the introduction of television came the first Congressional 
hearings on whether it contributed to juvenile delinquency in the 
1950s. Violent media, sexualization, unhealthy food marketing--it's 
about kids receiving information detrimental to their health that is 
inappropriate for their developmental level. Now, it's no longer just 
passive watching--it's about children and youth receiving and giving 
and then receiving targeted--sometimes individualized--information 
across platforms. Children and youth are no longer just observers of 
media, soaking up information like a sponge. Now, they are active 
participants--often bypassing parents--to create and remix--games, 
websites, social networking profiles, or participate in chat rooms or 
adver-games. These platforms, however, are increasingly designed for 
the individual and the software tweaked for that individual.
    Every time a child or youth gets propositioned online, bullied, 
asked for inappropriate information, or sent a coupon on their wireless 
without their parents actively choosing for that to happen--that 
parent's authority has been hijacked. It's easy to get stars in our 
eyes when talking about technology, media, or the latest app. But the 
basics of what's healthy or harmful for our children have existed since 
before television and will exist long after the latest platform fad has 
passed. Simply put, ``Buyer Beware'' should not apply to our kids, 
especially in an interactive environment. Not with predators in chat 
rooms, not with bullies, and not with advertisers using their 
information against them.
    Let me also say that an over-reliance on media literacy as the 
panacea to these issues is an incomplete response. Media literacy is 
about education--about building awareness. It is something that no one 
is opposed to. However, it is only a small part the overall equation. I 
think it's important that the Subcommittee understand that ``building 
awareness'' may result in a slow shift of attitude which might 
influence behavior over an extended period of time--usually years or 
more. And, even then--the amount of media literacy content is 
exponentially dwarfed by the amount of contrary, unhealthy media 
content available and actively marketed to children and youth.
    For instance--A 2007 study showed that tweens between 8 and 12 were 
exposed to almost 8000 ads a year on television alone--the majority of 
which were for food items, such as candy and fast food. None were for 
healthy foods such as fruits or vegetables. One in five ads included a 
push to the website. That same group would see a PSA only once every 3 
days.
    Our boat is small and the ocean of other media is wide and deep.
    Education is about citizenship--digital or otherwise. Years of 
Children Now research on children's media--whether on the effects of 
media duopolies on children's educational programming, the presence of 
minorities in children's programming, or the extreme lack of 
effectiveness of advertising pledges by the food and beverage 
companies--has demonstrated that industry wide standards tend to meet 
only the barest minimum dictated by that regulation--whether government 
or self-regulatory. Then, they punt to public affairs to attempt to 
shift the burden of responsible media onto the parent or child viewer.
    If you think of this with sexual predators--just achieving the 
lowest common denominator and just talking to our children about sexual 
predators is a very small step--but it doesn't really come close to 
helping solve that issue. Other protections need to be put in place to 
have a comprehensive, truly safe, healthy environment for our children 
and youth. While media education is incredibly important, it should not 
be a loophole for structural attention to these issues. Real, 
demonstrated change must occur in the media environment for our 
children to be truly safe.
    I want to thank Chairman Pryor, Ranking Member Wicker and the 
Subcommittee for their attention and leadership on this issue. Children 
Now stands ready to offer our assistance and resources to you as we 
move forward in addressing this critical moment in our media history.

    Senator Pryor. Thank you.
    Ms. Collins.

         STATEMENT OF MICHELLE COLLINS, VICE PRESIDENT,

        EXPLOITED CHILDREN DIVISION, THE NATIONAL CENTER

                FOR MISSING & EXPLOITED CHILDREN

    Ms. Collins. Mr. Chairman and members of the Subcommittee, 
I welcome this opportunity to appear before you to discuss the 
risk to children on the Internet. The National Center for 
Missing & Exploited Children, NCMEC, joins you in your concern 
for the safety of our youth, and thanks you for bringing 
attention to this very serious problem facing America's 
communities.
    As you know, NCMEC is a not-for-profit corporation mandated 
by Congress and working in partnership with the U.S. Department 
of Justice. NCMEC is a public/private partnership funded in 
part by Congress and in part by the private sector. For 26 
years, NCMEC has operated under Congressional mandate to serve 
as the Nation--or the national resource center for missing and 
exploited children.
    This statutory mandate includes 19 specific operational 
functions, among which is the CyberTipline, which is the 9-1-1 
of the Internet, that public and electronic service providers 
may use to report Internet crimes against children.
    The CyberTipline is the national clearinghouse for leads 
and tips regarding child sexual exploitation crimes. It's 
operated in partnership with Federal, State, and local law 
enforcement agencies, including the FBI and the Internet Crimes 
Against Children Task Forces that are located throughout the 
country. We receive reports in eight categories of crime--or 
crimes against children, including the possession, manufacture, 
and distribution of child pornography, as well as online 
enticement of children for sexual acts.
    NCMEC is pleased to have participated in the Online Safety 
and Technology Working Group, OSTWG, created by this 
committee's legislation. Its membership comprised a broad 
spectrum of knowledge and experience in online safety arena. 
The report recently issued by OSTWG contains important 
recommendations for progress. I'd like to underscore the 
OSTWG's report's conclusion that approaches to online safety 
must take into account the dynamic nature of the Internet and 
technology and the way that things can be used.
    We agree that everyone has a role to play. Parents and 
guardians can become more involved in their children's online 
activities, industry can actively self-regulate to keep its 
safe--or, its users safer, and the government can help increase 
awareness and encourage digital literacy. These efforts would 
benefit significantly from comprehensive, up-to-date 
information on these issues. Given the rapidly changing 
landscape of online communication, we strongly recommend that 
current research be conducted and maintained.
    The Internet offers tremendous potential, especially for 
youth. It has changed the way we communicate, learn, and 
conduct our daily activities. Unfortunately, the Internet can 
also be used to victimize children. The combination of 
widespread use and relative anonymity makes it an appealing 
tool for those who wish to victimize children. This is 
supported by our data. Reports to the CyberTipline about online 
enticement of children for sexual acts has increased 714 
percent since 1998. The attachments to my written testimony 
contain excerpts from actual CyberTipline reports that 
illustrate the problem.
    Youth will often engage in risky behavior in both the real 
world and the online world. The combination of the Internet, 
easy transmission of digital images, and poor judgment can lead 
to serious and unintended consequences for youth, including 
becoming the victim of enticement, blackmail, harassment, and 
exploitation by both adults and other youths.
    Webcams, cell phone Internet access, and social networking 
sites increase the vulnerability of our children. Webcams offer 
this exciting ability to see the person you're communicating 
with over the Internet. While this technology has many 
benefits, it can also be used, and is used, to exploit 
children. The reports to our CyberTipline of incidents 
involving children and Webcams have increased. Many children 
are victimized inadvertently by appearing on their Webcams 
without clothes as a joke or on a dare from friends, unaware 
that these images may end up in a global child pornography 
enterprise. Other children are victims of blackmail, threatened 
with disclosure to friends and family of his or her performance 
before the Webcam doesn't become more sexually explicit.
    Cell phones have placed the--or, has placed the Internet 
basically in our children's pockets. From January of 2008 until 
December of 2009, there was a 650-percent increase in the 
number of CyberTip reports we've received in which a cell phone 
was used in the sexual victimization of a child.
    ``Sexting'' is a term coined by the media that generally 
refers to a youth writing sexually-explicit messages and 
sending sexually-explicit images of themselves to their peers. 
This is an increasing problem that should be addressed through 
education of both parents and youth about the long-term 
consequences of apparently innocent activity amongst friends.
    Social networking sites appeal to children's natural desire 
for self-expression. These hugely popular sites permit users to 
create profiles containing detailed and highly personal 
information about themselves, which sometimes can lead to 
individuals forging relationships with that child. Children 
need to be taught the value of limiting access of their 
personal information to those who are within their known circle 
of family and friends.
    NCMEC has two resources that can help parents and youths 
learn about ways to be safer on the Internet. NetSmartz is an 
interactive, educational safety resource for children, parents, 
guardians, educators, and law enforcement, that uses age-
appropriate 3-D activities to teach children how to be safer on 
the Internet. And, NetSmartz411--it's an Internet safety help 
desk and online resources for parents and guardians that can 
help answer their questions about Internet safety.
    The National Center is actively engaged with industry 
leaders on their efforts to make youth less vulnerable when 
using their services. We encourage them to prohibit illegal and 
abusive activity as one of their terms of services, and to 
enforce this vigorously.
    However, the critical factor in youth online safety is 
parental involvement. Nothing can replace the value of parents 
understanding what their children are doing online, and why, 
and helping them develop good judgment in their online 
communication.
    Thank you very much.
    [The prepared statement of Ms. Collins follows:]

   Prepared Statement of Michelle Collins, Vice President, Exploited 
Children Division, The National Center for Missing & Exploited Children

    Mr. Chairman and members of the Subcommittee, I welcome this 
opportunity to appear before you to discuss the risks to children on 
the Internet. The National Center for Missing & Exploited Children 
(NCMEC) joins you in your concern for the safety of our youth and 
thanks you for bringing attention to this serious problem facing 
America's communities.
    As you know, the National Center for Missing & Exploited Children 
is a not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice. NCMEC is a public-
private partnership, funded in part by Congress and in part by the 
private sector. For 26 years NCMEC has operated under Congressional 
mandate to serve as the national resource center and clearinghouse on 
missing and exploited children. This statutory mandate (see 42 U.S.C.  
5773) includes 19 specific operational functions, among which are:

  <bullet> operating a national 24-hour toll-free hotline, 1-800-THE-
        LOST (1-800-843-5678), to intake reports of missing children 
        and receive leads about ongoing cases;

  <bullet> providing technical assistance and training to individuals 
        and law enforcement agencies in the prevention, investigation, 
        prosecution, and treatment of cases involving missing and 
        exploited children;

  <bullet> tracking the incidence of attempted child abductions;

  <bullet> providing forensic technical assistance to law enforcement;

  <bullet> facilitating the deployment of the National Emergency Child 
        Locator Center during periods of national disasters;

  <bullet> working with law enforcement and the private sector to 
        reduce the distribution of child pornography over the Internet;

  <bullet> operating a child victim identification program to assist 
        law enforcement in identifying victims of child pornography;

  <bullet> developing and disseminating programs and information about 
        Internet safety and the prevention of child abduction and 
        sexual exploitation;

  <bullet> providing technical assistance and training to law 
        enforcement in identifying and locating non-compliant sex 
        offenders; and

  <bullet> operating the CyberTipline, the ``9-1-1 for the Internet,'' 
        that the public and electronic service providers may use to 
        report Internet-related child sexual exploitation.

    The CyberTipline is the national clearinghouse for leads and tips 
regarding child sexual exploitation crimes. It is operated in 
partnership with the Federal Bureau of Investigation (FBI), the 
Department of Homeland Security's Bureau of Immigration and Customs 
Enforcement (ICE), the U.S. Postal Inspection Service, the Internet 
Crimes Against Children Task Forces (ICAC), the U.S. Secret Service, 
the U.S. Department of Justice's Child Exploitation and Obscenity 
Section, as well as other state and local law enforcement. We receive 
reports in eight categories of crimes against children:

  <bullet> possession, manufacture and distribution of child 
        pornography;

  <bullet> online enticement of children for sexual acts;

  <bullet> child prostitution;

  <bullet> sex tourism involving children;

  <bullet> extrafamilial child sexual molestation;

  <bullet> unsolicited obscene material sent to a child;

  <bullet> misleading domain names; and

  <bullet> misleading words or digital images on the Internet.

    These reports are made by both the public and by Electronic Service 
Providers, who are required by law to report to the CyberTipline. The 
leads are reviewed by NCMEC analysts, who examine and evaluate the 
content, add related information that would be useful to law 
enforcement, use publicly-available search tools to determine the 
geographic location of the apparent criminal act, and provide all 
information to the appropriate law enforcement agency for 
investigation. These reports are also triaged to ensure that children 
in imminent danger get first priority.
    The FBI, ICE and Postal Inspection Service have ``real time'' 
access to the CyberTipline, and assign agents and analysts to work at 
NCMEC. In the 12 years since the CyberTipline began, NCMEC has received 
and processed more than 920,000 reports. To date, electronic service 
providers have reported to the CyberTipline more than 7.5 million 
images of sexually exploited children. To date, more than 35 million 
child pornography images and videos have been reviewed by the analysts 
in our Child Victim Identification Program, which assists prosecutors 
to secure convictions for crimes involving identified child victims and 
helps law enforcement to locate and rescue child victims who have not 
yet been identified.
    NCMEC is pleased to have participated in the Online Safety and 
Technology Working Group (OSTWG) created by this Committee's 
legislation. Its membership comprised a broad spectrum of knowledge and 
experience in the online safety arena. The report recently issued by 
OSTWG contains important recommendations for progress.
    I'd like to underscore the OSTWG Report's conclusion that 
approaches to online safety must take into account the dynamic nature 
of technology and the ways that it can be used. We agree that everyone 
has a role to play: parents/guardians can become more involved in their 
children's online activities; industry can actively self-regulate to 
keep its users safer; and the government can help increase awareness 
and encourage digital literacy. These efforts would benefit 
significantly from comprehensive, up-to-date information on these 
issues. Given the rapidly changing landscape of online communication, 
we strongly recommend that current research be conducted and 
maintained.
    The Internet offers tremendous potential, especially for youth. It 
has changed the way we communicate, learn and conduct our daily 
activities. Unfortunately, the Internet can also be used to victimize 
children. The combination of widespread use and relative anonymity 
makes it an appealing tool for those who seek child victims.
    This is supported by our own data: reports to the CyberTipline 
about online enticement of children for sexual acts have increased 714 
percent since 1998. The attachments to my written testimony contain 
excerpts from actual reports that illustrate this problem.
    Youth will often engage in risky behavior, in both the ``real'' 
world and in the online world. The combination of the Internet, easy 
transmission of digital images, and poor judgment can lead to serious 
and unintended consequences for youth--including becoming the victim of 
enticement, blackmail, harassment and exploitation by both adults and 
other youth. Webcams, cell phone Internet access and social networking 
sites increase the vulnerability of our children.
    Webcams offer the exciting ability to see the person you're 
communicating with over the Internet. While this technology has many 
benefits, it can also be used to exploit children. The reports to our 
CyberTipline of incidents involving children and webcams have 
increased. Many children are victimized inadvertently, by appearing on 
their webcams without clothes as a joke, or on a dare from friends, 
unaware that these images may end up in a global child pornography 
enterprise. Other children are victims of blackmail, threatened with 
disclosure to friends and family if his or her ``performance'' before 
the webcam doesn't become more sexually explicit.
    Cell phones have placed the Internet in our children's pockets. 
From January 2008 to December 2009, there was a 650 percent increase of 
CyberTipline reports in which a cell phone was involved in the sexual 
victimization of a child. A 2008 online survey of 653 teens between the 
ages of 13 and 19 conducted by TRU and presented by the National 
Campaign to Prevent Teen and Unplanned Pregnancy and CosmoGirl.com 
found that 20 percent of teens surveyed have posted nude or seminude 
pictures of themselves online. In addition, 39 percent of teens 
surveyed have sent or posted sexually suggestive messages (text, e-
mail, IM).
    ``Sexting'' is a term coined by the media that generally refers to 
youth writing sexually explicit messages, taking sexually explicit 
photos of themselves or others in their peer group, and transmitting 
those photos and/or messages to their peers. This is an increasing 
problem that should be addressed through education of both parents and 
youth about the long-term consequences of apparently ``innocent'' 
activity among friends.
    Social networking sites appeal to children's natural desire for 
self-expression. These hugely popular sites permit users to create 
online profiles containing detailed and highly personal information--
which can sometimes be used by individuals to forge a ``cyber-
relationship'' that can lead to a child being victimized. Children need 
to be taught the value of limiting access to their personal information 
to only those who are in their known circle of friends and family.
    NCMEC has two resources that can help parents and youth learn about 
ways to be safer on the Internet:

  <bullet> NetSmartz is an interactive, educational safety resource for 
        children, parents, guardians, educators, and law enforcement 
        that uses age-appropriate, 3-D activities to teach children how 
        to stay safer on the Internet.

  <bullet> NetSmartz411 is an Internet Safety Helpdesk, an online 
        resource for parents and guardians that can answer questions 
        about Internet safety, computers, portable communications 
        devices, and much more.

    NCMEC is actively engaged with industry leaders on their efforts to 
make youth less vulnerable when using their services. We encourage them 
to prohibit illegal and abusive activity as one of their terms of 
service and to enforce this vigorously. It is important for them to 
take reports of abuse by their users and to make their users aware of 
this reporting ability.
    However, the critical factor in youth online safety is parental 
involvement. Nothing can replace the value of parents understanding 
what their children are doing online, and why, and helping them develop 
good judgment in their online communications.
    Thank you.

    Senator Pryor. Thank you.
    Mr. Snowden.

         STATEMENT OF K. DANE SNOWDEN, VICE PRESIDENT,

                  EXTERNAL AND STATE AFFAIRS,

                CTIA--THE WIRELESS ASSOCIATION 

    Mr. Snowden. Good afternoon, Chairman Pryor, Ranking Member 
Wicker, Chairman Rockefeller, and Senator Klobuchar.
    My name is Dane Snowden, and, as the Vice President of 
External and State Affairs at CTIA, I was the wireless industry 
representative on the NTIA Online Safety and Technology Working 
Group. Thank you for affording me this opportunity to share 
CTIA's views on protecting youth in an online and mobile world.
    Across a diverse wireless ecosystem, the wireless industry 
is proactively doing its part to augment the educational and 
social growth of today's youth by preparing them for an 
increasingly digitized and mobile future. CTIA is proud of the 
wireless industry's commitment to make mobile safety and 
responsible use a priority.
    With respect to the Working Group's report, we support the 
recommendations regarding online safety education, parental 
control tools, and child pornography reporting and data 
retention issues. Specifically, we agree that there is no one-
size-fits-all, once-and-for-all solution to every aspect of 
online safety, especially in the rapidly innovating wireless 
industry.
    There are several areas of the Working Group's report which 
I would like to highlight today. First, it will come as no 
surprise to every parent in the room that wireless devices are 
omnipresent with American teens and tweens, who often seem to 
communicate with text messaging, photo and video sharing, more 
than they do the old-fashioned way, by voice. That, I suppose, 
is a sign of the times.
    However, we recognize that the many advantages wireless 
provides also present opportunities for inappropriate behavior, 
such as texting while driving, sexting, and cyberbullying. In a 
sense, this is not new behavior, and the introduction of new 
technology has often raised parental and policymaking concerns 
about the impact of that technology on young people.
    As innovation in the wireless industry expanded 
exponentially, we anticipated that these same concerns would be 
raised, and have worked to stay ahead of them. In 2004, CTIA 
developed carrier content and Internet guidelines. Our goal was 
to provide consumers with information and tools to make 
informed choices when accessing wireless content. Fast forward 
to today, we see a demand for more content available via the 
Internet versus the old walled-garden approach.
    The wireless industry has responded, and currently a 
majority of the 600 unique devices available can access the 
open Internet. In response to the evolution, the wireless 
industry has taken action to empower parents with choice and 
control over mobile wireless content so that parents may 
determine what is appropriate for their children.
    Some of the tools our members offer include: content 
filters, based on rating for music, games, and apps; limits on 
calling, texting, and camera features; and parental 
notification and monitoring services. In addition, CTIA has 
worked to extend this successful self-regulatory model to 
location-based services, common short codes, and mobile 
financial services.
    Built on notice and consent policies, CTIA's LBS guidelines 
promote and protect user privacy, especially for children, as 
innovative LBS services are developed and deployed.
    Given the growing variety of devices and services capable 
of Internet access, it is worth noting that the Working Group's 
consensus is that there is no single one-size-fits-all 
parental-control technology or safeguard for all media 
platforms. Instead, as the Working Group recommended, CTIA 
recognizes the education and awareness-building efforts are 
absolutely crucial to helping parents navigate the diverse 
parental-control marketplace and keep up with their children's 
evolving mobile usage.
    For this reason, CTIA and the Wireless Foundation recently 
launched ``Be Smart. Be Fair. Be Safe: Responsible [Wireless] 
Use,'' a national education campaign to help teach children 
responsible wireless-use techniques and link parents to the 
available tools and services offered by our member companies.
    And consistent with our belief that education is key, we 
support legislation, offered by Senator Menendez and 
Representative Wasserman-Schultz, which provides government 
grants to a variety of stakeholders who promote Internet 
safety, digital citizenship, and media literacy.
    As proud as we are of our efforts to date, we also know 
that our work to promote online safety will not be finished 
anytime soon, as a new cohort of users signs on, each and every 
day. It is our hope that the Working Group's report, along with 
our industry's efforts, will help to inform online safety 
initiatives at the Federal, State, and local levels.
    The wireless industry believes that, with strategic 
collaborations, we will continue to meet the demand and ensure 
the benefits of wireless to the ever-growing list of American 
wireless consumers. We look forward to working with the 
Committee and other stakeholders to craft policies which 
properly balance the goal of online safety and the need for 
flexibility in responding quickly to behavioral, technological, 
and market changes.
    Thank you. And I look forward to answering any questions 
you have.
    [The prepared statement of Mr. Snowden follows:]

        Prepared Statement of K. Dane Snowden, Vice President, 
      External and State Affairs, CTIA--the Wireless Association 

    Good afternoon, Chairman Pryor, Ranking Member Wicker, and members 
of the Subcommittee. My name is K. Dane Snowden, and I am the Vice 
President of External and State Affairs at CTIA--The Wireless 
Association  (``CTIA''). Before joining CTIA, I was Chief of the 
Consumer and Governmental Affairs Bureau at the Federal Communications 
Commission (``FCC'') for 4 years. In my capacity at the FCC, I oversaw 
all agency consumer related policy issues ranging from the creation of 
the National Do-Not-Call regulatory policy to the consumer outreach and 
complaint divisions. Thank you for affording me this opportunity to 
share with you the views of CTIA and our member companies on protecting 
youth in an online world.
    Today, my comments will highlight the wireless industry's 
continuing efforts to empower parents, safeguard privacy, and help 
ensure America's children and teens are using their wireless devices in 
a responsible manner. Through a diverse wireless ecosystem of service 
providers, device manufacturers, and software and application 
developers, the wireless industry is proactively facilitating the 
educational and social growth of today's youth by preparing them for an 
increasingly digitized and mobile future. Mobile technology offers many 
benefits to children and teens, including thousands of applications 
(``apps'') focused on civic, educational, health care and social 
opportunities. Even with the challenge of protecting children in the 
more ``open'' mobile wireless ecosystem, the wireless industry 
continues to empower parents with choice and control over mobile 
content so that they may determine appropriate mobile uses for their 
children and encourage responsible behavior. The wireless industry also 
has launched a series of educational initiatives and partnerships 
designed to promote mobile safety and responsible use.
    Given the wireless industry's substantial ongoing efforts, CTIA and 
our member companies support Congressional efforts which encourage 
stakeholders to educate parents and children regarding responsible 
mobile device practices. As an active member of the U.S. Department of 
Commerce National Telecommunications & Information Administration's 
(``NTIA'') Online Safety and Technology Working Group (``Working 
Group''), CTIA also supports the Youth Safety on a Living Internet 
(``OSTWG Report'') report's findings that there is no ``one-size-fits-
all, once-and-for-all solution'' to every aspect of online safety, 
rather there must be a layered, multi-stakeholder approach which 
utilizes available content control tools and enhances online safety 
educational strategies for children and parents.\1\
---------------------------------------------------------------------------
    \1\ National Telecommunications and Information Administration, 
Youth Safety on a Living Internet: Report of the Online Safety and 
Technology Working Group (June 4, 2010), available at http://
www.ntia.doc.gov/reports/2010/OSTWG_Final_Report_060410.pdf (``OSTWG 
Report'').
---------------------------------------------------------------------------
I. Children Are Using Mobile Devices and Services to Access Internet 
        Content and Utilize Numerous Innovative Benefits on a Regular 
        Basis
    CTIA recognizes the increasingly prominent and common role that 
wireless devices and services are playing in the development of 
America's youth. Children are actively using mobile devices on a 
regular basis, and progressively using mobile phones at younger ages. 
According to an April 2010 report by the Pew Internet & American Life 
Project, 83 percent of 17-year-olds now own a cell phone (up from 64 
percent in 2004), and 58 percent of 12-year-olds now own a cell phone 
(up from 18 percent in 2004).\2\ These children view mobile devices as 
critical tools for meeting their communications needs and a 
``centerpiece in teen social life'' through text messaging, photo and 
video sharing, Internet access, ``apps'', and other mobile data 
services.\3\ In addition, a mobile device may often be the only link to 
the Internet for children from low-income or minority homes where home 
broadband adoption is generally lower than other demographic 
communities.\4\
---------------------------------------------------------------------------
    \2\ Pew Internet & American Life Project, Teens and Mobile Phones 
(April 20, 2010), available at http://www.pewinternet.org/Reports/2010/
Teens-and-Mobile-Phones.aspx (``Pew Teens and Mobile Phones Report'').
    \3\ Comments of CTIA--The Wireless Association , MB Docket No. 09-
194 (filed Feb. 24, 2010) (``CTIA Empowering Parents NOI Comments''); 
see also, Pew Internet & American Life Project, Teens and Sexting 2 
(Dec. 15, 2009), available at http://www.pewinternet.org//media//
Files/Reports/2009/PIP_Teens_and_Sexting.pdf (``Pew Sexting Report'').
    \4\ CTIA Empowering Parents NOI Comments at 8.
---------------------------------------------------------------------------
    As part of this surge in children's mobile technology use, all 
elements of the wireless ecosystem, including carriers, manufacturers, 
and software and application developers, have enabled numerous 
innovative and beneficial tools for children, from education to health 
care to safety and civic participation. Using ``mLearning'' as just one 
example, innovative mobile wireless services offer personalized 
educational benefits as children use mobile devices to harness 
information on the Internet, choose from the thousands of educational 
``apps,'' and participate in class through text messaging, online 
polling and other multi-media uses. In fact, an entire segment of the 
mobile device market dedicated entirely to promoting reading through 
``e-readers'' and downloadable books has recently developed.
    It is not hard to imagine that one day soon mobile devices may 
replace students' traditional ``book bags.'' Indeed, today millions of 
school-age children never leave home for school without a hand-held 
mobile device. And while some parents insist on this for safety 
reasons, the versatility of mobile devices for recreation as well as 
communication ensures that few kids need to be convinced to carry one 
to and from school. Despite their popularity with students, however, 
the utility of mobile devices as part of the educational mission has 
not been widely appreciated, and school administrators occasionally 
bemoan their potentially distracting influences. Unfortunately, this 
perception overlooks the vast educational benefits of mobile devices 
discussed above.
    In order to address these issues, the OSTWG Report recommends 
policies and incentives to support ``digital citizenship'' which 
encourages children to respect themselves and others online and off and 
``media literacy'' which promotes critical thinking about what is 
posted, shared, produced and uploaded as well as content that's 
consumed.\5\ In addition, CTIA recommends that government agencies help 
ensure parents, teachers, and children take advantage of the learning 
opportunities provided by mobile devices, including updating school 
technology policies to more fully utilize mobile and Internet services 
and modify Federal Universal Service programs to be more technology 
neutral.\6\ As mobile devices and services become more ubiquitous among 
America's children and teens, Congress should consider these 
recommendations which can help provide guidance in the evolving online 
mobile environment which children are increasingly and regularly 
utilizing.
---------------------------------------------------------------------------
    \5\ OSTWG Report at 31-34.
    \6\ CTIA Empowering Parents NOI Comments at 13-20.
---------------------------------------------------------------------------
II. The Wireless Industry Continues Proactive Efforts to Empower 
        Parents and Encourage Responsible Use

a. The Wireless Industry Has Proactively Offered Tools and Developed 
        Best Practices to Empower Parents and Protect Children
    The wireless industry has taken action to empower parents with 
choice and control over mobile wireless content so that they may 
determine what is appropriate for their children. Carriers, moreover, 
have taken extensive steps to meet the demands of parents for these 
tools and have introduced a series of initiatives to educate parents 
and children about the responsibilities and risks of mobile 
connectivity. In the ``open'' mobile wireless ecosystem, the OSTWG 
Report found that children are increasingly exposed to the same risks 
faced across other technological platforms, even as many of those risks 
are similar to ones they face offline.\7\
---------------------------------------------------------------------------
    \7\ OSTWG Report at 5.
---------------------------------------------------------------------------
    In response to consumer and governmental demand for open access, 
open devices, and greater Internet connectivity on handsets, carriers 
have moved away from ``walled garden'' approaches which offered 
consumers service provider-reviewed services and protected consumers, 
including children, from harmful content and online activities. Today, 
wireless carriers generally have little control over content consumers 
may access on their networks in the ``open'' wireless ecosystem. 
Instead, numerous entities in the wireless ecosystem create, 
distribute, and manage content that can be accessed by consumers, 
including children. As a result, children may be exposed to the same 
questionable content that is available on the open Internet including 
violent, offensive and adult-themed content, personalized advertising, 
privacy risks and the plethora of mobile applications which are not 
intended for use by children. In addition, the technological advantages 
of mobile previously highlighted which have opened doors for positive 
educational and social interactions also present opportunities for 
children to engage in irresponsible or inappropriate behavior on mobile 
devices and services, such as texting while driving, sexting, textual 
harassment and cyberbullying.
    In addressing these issues, CTIA plays a key role in facilitating 
industry discussions about mobile safety and responsible use through 
voluntary, self-regulatory best practices and guidelines under which 
carriers, manufacturers and application vendors agree to provide 
significant protections for consumers and, most specifically, children. 
In 2004, well before the influx of wireless data services, applications 
and video services, CTIA developed Guidelines for Carrier Content 
Classification and Internet Access to provide consumers with 
information and tools to make informed choices when accessing wireless 
content.\8\ Under these voluntary guidelines, participating carriers 
agree to develop content classification standards and educate consumers 
about the meaning of the chosen categories and ratings. While the 
implementation of advanced parental control technologies is left to 
individual wireless providers and third-party application vendors, the 
guidelines play an important role in providing a set of baseline 
requirements that help standardize content classifications for the 
carrier-content available on wireless devices. This in turn facilitates 
outreach and educational campaigns intended to inform parents about the 
types of content accessible via wireless devices, as well as the tools 
available to offer children a safe user experience.
---------------------------------------------------------------------------
    \8\ Wireless Content Guidelines, CTIA Consumer Info, http://
www.ctia.org/consumer_info/service/index.cfm/AID/10394 (last visited 
June 28, 2010) (``Guidelines for Carrier Content Classification and 
Internet Access'').
---------------------------------------------------------------------------
    Today, individual wireless carriers offer parents a variety of 
tools that can control children's access to certain content (e.g., 
filters) and prevent the distribution or receipt of inappropriate 
content (e.g., feature or service limits); educate children and parents 
about how to be safe online; and provide parents with options to manage 
their children's messaging, calling, and data usage.\9\ Product 
manufacturers have also deployed effective parental and content 
controls to help protect children.\10\ In addition to carrier-provided 
advanced technologies and parental controls, consumers today can 
independently download third-party solutions to their wireless devices 
through app stores, websites, and other outlets, opening up a host of 
additional content management tools for parents.\11\ As the OSTWG 
Report found, the marketplace for parental controls is functioning 
fairly well, but more can be done to improve awareness and usage of 
existing tools while also striving to improve the tools themselves.\12\
---------------------------------------------------------------------------
    \9\ FCC, Implementation of the Child Safe Viewing Act; Examination 
of Parental Control Technologies for Video or Audio Programming, 
Report, MB Docket 09-26,  99 (2009) (``FCC Child Safe Viewing Act 
Report'').
    \10\ For example, the Apple iTunes and App Stores include content-
based age ratings for apps, and the iPhone and iPad allow users to 
restrict apps based on their rating. Apple's rating system includes 
four categories: 4+, 9+, 12+, and 17+. See Apple iTunes Store and 
product descriptions as of June 26, 2010.
    \11\ FCC Child Safe Viewing Act Report at  104.
    \12\ OSTWG Report at 60.
---------------------------------------------------------------------------
    In addition to the Guidelines for Carrier Content Classification 
and Internet Access, CTIA has worked with carriers and other members of 
the wireless ecosystem to extend this successful, self-regulatory model 
to location based services (``LBS''), common short codes and mobile 
financial services. With the aggregation of personal information on the 
Internet and evolving wireless ecosystem which may rely on, use or 
incorporate the location of a device to provide or enhance a service, 
great diligence is necessary to safeguard privacy, prevent fraud and 
unwanted dissemination of personally identifying information (``PII''), 
especially with regard to children. CTIA's Best Practices and 
Guidelines for Location-Based Services (``LBS Guidelines''), built on 
the now familiar foundation of ``Notice-andConsent,'' promote and 
protect user privacy as new LBS services are developed and 
deployed.\13\
---------------------------------------------------------------------------
    \13\ In April 2010, CTIA released an update of the wireless 
industry's voluntary ``Best Practices and Guidelines for Location-Based 
Services,'' which promotes and protects the privacy of wireless 
customers' location information. CTIA--The Wireless Association , Best 
Practices and Guidelines for Location Based Services, http://
www.ctia.org/business_resources/wic/index.cfm/AID/11300 (last visited 
June 28, 2010).
---------------------------------------------------------------------------
    CTIA's LBS Guidelines provide special protections for children, and 
they recognize that in some circumstances--including protecting the 
safety of children--a wireless carrier's account holder (rather than an 
authorized user, such as a child) may need to determine whether LBS may 
be used at all or a location disclosed to a third-party. For example, a 
parent/account holder may want to subscribe to LBS to know when a child 
arrives at school or may want to prevent the disclosure of a child's 
location information for safety reasons. Importantly, CTIA's LBS 
Guidelines are expansive in scope by applying to all LBS providers, 
including application developers and equipment providers, and not 
simply limited to wireless carriers. These guidelines, which CTIA 
recently updated to reflect changes in the technology, the market, and 
consumers' demands, are an example of how self-regulation has the 
flexibility and the speed to adapt to the rapidly evolving wireless 
ecosystem.
    CTIA understands that protecting children in these online and 
mobile environments is a challenging task for the industry, government 
and--especially--parents. Despite these challenges, the wireless 
industry continues to respond with effective, innovative solutions to 
empower parents with choice and control over the mobile content and 
services their children increasingly utilize. However, Congress should 
recognize the consensus of online safety experts and industry that 
there is no single, one-size-fits-all parental control technology or 
safeguard for all media platforms because of the great variety in 
capabilities and operating systems, even among competing providers 
within the same media platform, and rapidly innovating 
technologies.\14\ As the Working Group recommended, government policies 
can and should encourage stakeholders to help educate parents and 
children regarding safe, responsible mobile device practices that are 
already available.\15\
---------------------------------------------------------------------------
    \14\ See FCC Child Safe Viewing Act Report; OSTWG Report at 65.
    \15\ OSTWG Report at 65-66.
---------------------------------------------------------------------------
b. The Wireless Industry Develops and Implements Educational Outreach 
        and 
        Partnership Efforts to Empower Parents and Educate Children
    Even with the availability of parental control tools and self-
regulatory best practices, CTIA recognizes that education and 
information are the keys to helping parents navigate the diverse 
marketplace of parental control tools and keep up with their children's 
evolving mobile usage. For this reason, CTIA and The Wireless 
Foundation recently announced Be Smart. Be Fair. Be Safe: Responsible 
Wireless Use (``Be Smart'') (www.besmartwireless.com), a national 
education campaign focused on equipping parents with the necessary 
materials and tools to help children use their wireless devices 
responsibly. This site features resources such as sample family rules 
for parents, lesson plans for teachers, information about the latest 
research and surveys, and a toolkit with links to parental controls 
features offered by our member companies.
    Launched in March 2010, the ``Be Smart'' campaign has already 
reached millions of viewers and listeners of newspapers, magazines and 
radio stations around the country. Just last month, The Wireless 
Foundation held a ``Be Smart'' event with Illinois Attorney General 
Lisa Madigan to bring together local and national online safety 
experts, parents, law enforcement and industry representatives to 
discuss the latest research and initiatives in mobile online safety and 
more events are being planned. In addition, the ``Be Smart'' site links 
to CTIA and the National Safety Council's On the Road, Off the Phone 
campaign to educate young people and empower parents to talk to their 
teenage drivers about the dangers of potential distracted driving 
resulting from cell phone use while behind the wheel.\16\
---------------------------------------------------------------------------
    \16\ On the Road, Off the Phone: How to Talk to Your Teenagers, 
http://info.howcast.com/onroadoffphone (last visited June 28, 2010).
---------------------------------------------------------------------------
    As the OSTWG Report recommended, these education and awareness-
building efforts are absolutely crucial to ensure parents have the 
tools they need and children are taught to make informed and 
responsible choices. In March 2010, CTIA joined representatives from 
industry, academia and online safety advocates to support Congressional 
legislation which promotes online safety education through government 
grants to educational agencies, nonprofit organizations, and schools to 
carry out Internet safety and digital media literacy measures in 
schools to prevent harm from occurring in the first place.\17\ Grant 
recipients would be authorized to use the funds to develop tools to 
teach children how to safely, securely and ethically use the Internet 
and support peer-driven Internet safety initiatives and develop public 
education campaigns to promote awareness of online risks and improve 
the health of young people.
---------------------------------------------------------------------------
    \17\ See Adolescent Web Awareness Requires Education Act, H.R. 
3630, 111th Cong. (2009) (``AWARE Act''); see also, School and Family 
Education About the Internet Act of 2009, S. 1047 111th Cong. (2009) 
(``SAFE Internet Act'').
---------------------------------------------------------------------------
    CTIA also supports efforts to coordinate and share information at 
the Federal and state levels. For example, the recent efforts between 
the FCC, Federal Trade Commission (``FTC''), and the U.S. Department of 
Education (as part of the OnGuardOnline public-private coalition) to 
release the Net Cetera online safety guidebook for parents is a 
positive example of how government agencies can help protect children. 
Among other things, the Net Cetera guidebook can help parents 
communicate with their children about using mobile phones safely and 
responsibly and OnGuardOnline.gov provides links to information about 
available parental control tools and technologies across technological 
platforms. CTIA also supports efforts of state Attorneys General to 
provide information and education about issues such as cyberbullying, 
textual harassment and online predation of children.\18\ Given these 
ongoing public and private initiatives, CTIA believes that awareness 
and outreach can help parents utilize the available tools and that 
education is the best way to ensure children are utilizing mobile 
devices and services for responsible and positive purposes.
---------------------------------------------------------------------------
    \18\ See, National Association of Attorneys General, 2008-2009 
Presidential Initiative--Year of the Child: Protecting and Empowering 
Our Next Generation, http://www.naag.org/year-of-the-child1.php (last 
visited June 27, 2010).
---------------------------------------------------------------------------
III. Conclusion
    Today's tech-savvy children continue to embrace mobile technologies 
for educational, entertainment, safety, and other purposes. The 
wireless industry has proactively deployed effective tools that empower 
parents, and it will continue to innovate in the future. As the 
wireless industry develops innovative devices, cutting-edge 
applications and deploys next-generation networks, CTIA believes that 
our industry's best practices must continue to evolve to reflect the 
growing consumer demands in the wireless ecosystem. It is our hope that 
the OSTWG Report will help to inform online safety initiatives at the 
Federal, state and local levels of government and further encourage 
partnerships with the wireless industry to educate parents and children 
about responsible wireless use. We look forward to working with this 
committee to craft policies which properly balance the need for 
flexibility in responding quickly to behavioral, technological and 
market changes. The Wireless industry believes with voluntary 
initiatives and strategic collaborations, we will continue to ensure 
the delivery of the benefits of wireless products and services to all 
Americans. Thank you.

                              Attachment A

            Wireless Industry Initiatives to Empower Parents

Parental Empowerment Tools
    Content filters--Wireless carriers may provide parents with the 
ability to filter content available on a carrier's network. Wireless 
carriers, manufacturers and third party vendors may also offer wireless 
content filters for open Internet access.
    Calling and text limits--Wireless carriers offer a variety of 
calling, text and data plan options which allow parents to place limits 
on the amount of wireless services their children use.
    Camera function limits--Wireless devices may include password 
protected locks on camera and video features. Wireless carriers offer 
data plans which allow parents to place limits on the use of e-mail and 
picture messaging.
    Parental notifications--Wireless carriers may offer features to 
notify a parent when a child sends or receives calls or messages from 
unknown sources or when their child's wireless device leaves a 
specified area.
    Pre-approved calls--Wireless carriers may offer features which 
allow a child's wireless device to receive or send calls or messages 
only to specified numbers.
    Purchase limitations--Wireless carriers offer plans and features 
which allow parents to place limits on the type of content a child may 
purchase such as music, games, and video. Wireless devices may also 
include built-in feature limitations.
    Ratings--A system for classifying and providing information about 
specific content such as games, music, video and apps. Wireless 
carriers and manufacturers may rate content or utilize existing rating 
systems to help parents filter content for children.
    Time of day restrictions--Wireless carriers may offer tools to 
limit wireless usage to certain periods (i.e., non-school hours).

Educational Outreach
    Be Smart. Be Fair. Be Safe. Responsible Wireless Use--Together with 
kids, parents, experts and educators, The Wireless Foundation and our 
member companies, CTIA developed the Be Smart. campaign to help 
parents, educators and policymakers locate and utilize the tools and 
information necessary to ensure children make the right choices when 
using their wireless devices and services. The campaign's cornerstone 
is its website (www.besmartwireless.com) which offers a tool kit of the 
parental control features and filters that are offered by the CTIA's 
member companies and an example of family rules; educators are provided 
two lesson plans for 6th-12th grade students; and policymakers can 
learn more about industry initiatives as well as suggestions on what 
they can do to help foster the digital future.
    Get Wise About Wireless--A partnership between the Wireless 
Foundation and the Weekly Reader Corporation Consumer & Custom 
Publishing that equips parents and teachers with tips and tools to help 
students defeat digital bullies by practicing proper cell phone 
etiquette and safety behaviors. Educational kits sent to schools 
contain an educator guide, a family take-home pamphlet, a classroom 
poster and a student mini-magazine. (www.wirelessfoundation.org/
getwise)
    On Road, Off Phone--As teens and novice drivers learn the complex 
task of driving a motor vehicle, safety should always come first. The 
wireless industry and National Safety Council urge teens to adopt an 
``On the Road, Off the Phone'' philosophy to avoid the dangers of 
distracted driving. (www.onroadoffphone.org)
    Wireless Carrier Tools--Wireless carriers offer websites which 
highlight their parental empowerment tools and educate their customers 
about responsible wireless use. (http://www.besmartwireless.com/pages/
tools_from_the_wireless_industry)

Partnerships
    National Center for Missing & Exploited Children (NCMEC)--In 2008, 
CTIA and our member companies joined forces with NCMEC to keep child 
pornography off of wireless networks by creating the Wireless Child 
Safety Task Force, whose mission is to help keep wireless devices and 
services free of child pornography.
    Family Online Safety Institute--In 2009, CTIA and FOSI held a joint 
conference where Federal and state policymakers, industry leaders and 
online safety advocates discussed major challenges and solutions for 
children in the mobile environment.
    National Crime Prevention Council--The Wireless Foundation and NCPC 
developed the 2009-2010 Crime Prevention Month Kit: Staying Safe in a 
High-Tech World.
    National Safety Council--The wireless industry and National Safety 
Council teamed up for the driving ``On the Road, Off the Phone'' 
campaign.

    Senator Pryor. Thank you.
    Again, I want to thank the panel for your testimony.
    And since we have the Chairman of the Commerce Committee 
here----
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I'll put my statement in the record, but I'd 
probably revise it to make it copy what Mr. McIntyre said.
    [Laughter.]
    [The prepared statement of Senator Rockefeller follows:]

       Prepared Statement of Hon. John D. (Jay) Rockefeller IV, 
                    U.S. Senator from West Virginia
    Thank you, Senator Pryor. And thank you for all of your hard work 
on this important hearing.
    As Chairman of the Consumer Protection Subcommittee, you've been 
such a strong advocate for protecting kids and teens in our digital 
world. I appreciate your leadership on this issue.
    I know this is a concern weighing heavily on the minds of so many 
parents across America, and we are both deeply committed to doing all 
we can to safeguard our Nation's youth.
    When most of us think of a ``bully,'' we think of a big kid picking 
on a smaller kid on the playground, or stealing his lunch at the 
cafeteria.
    In those scenarios, the bullying is confined to a school. There are 
teachers, principals and parents to turn to.
    But the Internet--and our new digital world--has changed things. It 
has made the ability to bully and harass more pervasive, more 
anonymous, and, in many ways, more insidious.
    Even in the confines of his or her own home, a child can become the 
victim of vicious e-mails, text messages, viral videos, or the subject 
of cruel rumors that spread like wildfire.
    Very tragically, such cruel behavior has, in some cases, driven 
some desperate and devastated teens to take their own lives.
    Cyberbullying is just one example of the threats our children face 
in our online world. Unfortunately, there are many more.
    The Internet, for all its good--and there really is so much good: 
rich resources, educational material, networking advances--can also be 
fraught with violent and sexually explicit sites.
    Unfortunately, many parents do not know what their children do 
online--or cannot comprehend the magnitude of the risks they face.
    So the questions we must answer today are:

  <bullet> What are we going to do about it?

  <bullet> How do we better protect youths in our online world?

  <bullet> And what tools can we give parents, teachers and kids to 
        empower and protect themselves and their loved ones?

    I don't pretend there's an easy answer, but I do firmly believe we 
can do better--and can do more--to protect our youth online.
    Our efforts will require all of us--parents, the private sector, 
government and educators--to work together.
    But when the challenges we face involve the safety of our kids, we 
all must get involved.
    I believe:

  <bullet> the private sector must be more proactive in taking steps to 
        safeguard kids' online safety and security.

  <bullet> State and local governments must raise awareness about the 
        problem--and educate and empower kids about proper and safe 
        online behavior.

  <bullet> Congress also has a critical role to play. If companies do 
        not act to better address children's online needs, then 
        Congress should.

    As long as I am Chairman of this Committee, I will continue to work 
toward a safer online environment for our kids. Inaction in the face of 
this growing problem is simply not an option.
    Thank you again, Senator Pryor, for holding this very important 
hearing.
    I look forward to hearing from our witnesses today.

    Senator Pryor. Well, let me go ahead and call on you to ask 
the first questions.
    The Chairman. Well, I got here after you two did.
    Senator Pryor. Now, we--we've already worked it out. We 
insist. Go.
    [Laughter.]
    Senator Pryor. You're the Chairman. Go. It's your turn. Am 
I going to have to hit you----
    The Chairman. What about----
    Senator Pryor.--with this gavel?
    The Chairman.--ladies first?
    [Laugher.]
    Senator Pryor. She's fine with it. She's fine with it, I 
promise.
    Senator Klobuchar. I promise.
    Senator Pryor. You go.
    The Chairman. OK.
    Ms. Rich, the argument is made--now, I'm very skeptical on 
this subject. And I hear Mr. Snowden talk about, ``We're doing 
everything we can. We're sort of staying ahead of the curve. 
And, oh, by the way, can't we have more government grants to 
educate the people?'' And he sort of implied that they were 
doing everything they could to educate the people. And so, I 
guess, logically, he'd be correct--one plus one equals two. 
But, I think, basically, what they want to do is make money and 
that the rest of you, and this particular Senator, have a--sort 
of a different approach to it.
    What is the FTC's assessment with regard to teens, 13 
through 17? We've agreed that kids under 13 are incapable of 
making, you know, intelligent--or mature, informed decisions. 
Does the same hold true for--on this matter, does the same hold 
true for 13 through 17?
    Ms. Rich. We believe there are significant challenges, in 
terms of the impulsiveness and the judgment of teens, they're 
not functioning like adults, and they don't have the decision-
making capacities of adults to protect themselves. But, in 
terms of the COPPA model and whether you can impose parental 
consent for teens' use of technologies and the collection of 
information for teens, we are very skeptical that that model 
would work for teens. They have access to the Internet through 
all sorts of outlets outside the home. They're more likely to 
alter their age information, in order to get online. They may 
not readily go to their parents and ask for permission. So, we 
don't believe that that model would work for teens, but we're 
happy to work with the Committee to develop appropriate 
protections for teens, of a different sort.
    The Chairman. Well, I might ask you to explain that. But, 
let me ask another question. The whole concept--and we've been 
through this in so many ways, on so many subjects--of parental 
responsibility, whether it's the use of the remote, blocking 
out--listing and programming in what programs can and can't be 
seen. I, unlike, Senator Pryor, who comes from a very large and 
urban and sophisticated state--I come from a rather small and 
rural state. And parents really don't have a whole lot of time 
for that, or a whole lot of instinct for that, or, in many 
cases, any training at all for that.
    I mean, and there's the television set. They know how to 
turn it on and off, the way they used to work, but the whole 
concept of the technology of a remote is now extraordinary. I 
mean, they're so large and long, have so many buttons that you 
actually have to get very conversant with them, almost talk to 
them, to find out where the mute button is. Takes--that's 
probably 15 minutes just to find the mute button. So, expecting 
parents--yes, we should expect parents to do that, but is that 
not--maybe I should just ask you: What percentage of parents, 
roughly, in this country, would you say, are actively and 
effectively engaged in dealing with their younger children, 
with respect to the subject of today?
    Ms. Rich. I don't have a figure for that, but we are----
    The Chairman. Don't have to. You could guess.
    Ms. Rich.--we--I really wouldn't be able to estimate that. 
But, we are working hard to get our booklet Net Cetera, which 
is all about parents talking to their kids about the use of 
these technologies, into the schools. Just in the last 10 
months, we've distributed 3.7 million of them. One came home in 
my 12-year-old's backpack, and he gave it to me, and we talked 
about it. We'd already talked about those things.
    The Chairman. Well, you work for the FTC. I would have 
hoped you would have talked to him----
    Ms. Rich. Right. Yes.
    [Laughter.]
    Ms. Rich.--and we intend to do that. That being said, I 
agree that education is not the only solution, because people 
are busy. There's more that could be done. Mr. Snowden talked 
about controls on cell phones. I think more could be done to 
educate parents about those controls, because I think phones 
provide the unique opportunity to add controls at the outset, 
because parents still pay for most phones. And, I know, when I 
got my 12-year-old a cell phone, I was not told about all of 
the defaults that I could set, and, as a result, we got home, 
and he was on the Internet and using all sorts of games that I 
did not think I got with my phone, and was very unhappy about.
    In addition, enforcement is hugely important in this area. 
And the FTC has a long record of enforcement against companies 
that misused children and teens information. GeoCities, Liberty 
Financial, Toysmart, Gateway--I could name a lot of cases. And, 
most recently, we sent a letter to a company that was 
potentially planning to release very sensitive information 
about gay youth, the XY Company. So, enforcement is also very 
important in this area.
    The Chairman. OK. Ms. Rich, my time has run out, but I 
just--I want to take the concept that this is not just another 
subject that we're talking about. I think this is a game-
changer, in terms of the values that our children will grow up 
with and carry on. What Mr. McIntyre or Ms. Collins, either one 
of them, or both of them, said, reading is no longer, sort of, 
appropriate behavior; thinking is not necessarily appropriate 
behavior, you have to do some of it at school, but you 
certainly don't have to do it when you're, you know, doing what 
we're talking about here, or watching television, you just 
watch, somebody else thinks for you. And I really--I think it's 
a huge problem for our culture and for our future, because we 
are so open and so free and so noninterventionist. People can 
take advantage of vulnerability, at great profit, and yet not 
be tagged with being, themselves, purveyors or encouragers of 
predatory or bullying or whatever type behavior.
    I think we have to think very seriously about whether we 
can let people continue to think that way. It's not just a 
matter of educating people what they could do, but it's a 
matter of scaring the heck out of people about what's going to 
happen to--what is happening to their kids, that they don't 
know about.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, I think I will follow the Chair's 
lead and insert my statement in the record.
    [The prepared statement of Senator Wicker follows:]

     Prepared Statement of Hon. Roger F. Wicker, U.S. Senator from 
                              Mississippi

    Thank you, Mr. Chairman, for holding this hearing on protecting 
young Americans in an online world. This is a very important topic, 
which deserves and requires continuing research and investigation if we 
are to keep up with the ever-changing Internet. It is also an issue 
that I know you and I both are interested in personally, and I commend 
you for your commitment and determination to ensure that our youth are 
protected online. I look forward to continuing to work with you to find 
the best way we can assist educators, industry, and most importantly 
parents in keeping their children safe online.
    The Internet is unquestionably one of the marvels of modern times. 
Accessing the World Wide Web has impacted our daily lives as much as 
nearly any technological achievement in history. Education, 
entertainment, travel, commerce and even health care have all been 
revolutionized by the Internet's influence. Access to online content 
has gone from a luxury to a virtual necessity in the classroom, 
boardroom, and even the offices of the Capitol. One of the most 
critical components to the Internet's success has been its dynamic 
nature. It is changing and growing constantly, unencumbered by 
unnecessary regulation and driven to provide a better product that 
meets increasing consumer demand. However, this continuous evolution 
also presents one of the Internet's biggest challenges.
    Keeping pace with technological changes is a difficulty that many 
industries face. It seems that almost every day a new service, 
application or product is unveiled that is a little faster, better, and 
more complicated than those we were using yesterday. This presents new 
and unique challenges in efforts to ensure that online technologies are 
safe for children. We continue to search for the right balance that 
will ensure safety without unnecessarily restricting development of 
beneficial products. Finding that balance is especially challenging 
when we are discussing content viewed and used by people of all ages.
    Children today are interacting in new ways online and often are 
providing the content themselves. Through mobile broadband and texts, 
many of today's children are connected to each other and the Internet. 
This fact was underscored in a recent report by the Pew Internet and 
American Life Project, which found that 72 percent of teens use text 
messages and almost 60 percent of 12-year-olds own a cell phone.
    Gone are the days when the best advice to parents for protecting 
their children online was to monitor their child's activity by putting 
the family computer in a visible location in the house. Today, parents 
must get involved directly and talk with children about what they are 
doing online and how to do it safely. One problem is that most parents 
know less about these technologies than their children. We must all 
work together not only to equip parents with the best tools to keep 
their children safe but also the knowledge to use the tools effectively 
and to talk to their kids about safe behavior online.
    Industry, child advocacy groups, and relevant government agencies 
have made great strides studying the online dangers for youth, and in 
finding ways to protect children. Several of our witnesses participated 
in the Online Safety and Technology Working Group, which recently 
published a report titled ``Youth Safety on a Living Internet.'' This 
report acknowledged that there is no one silver bullet answer for 
keeping children safe online.
    I am particularly interested in the report's finding that there are 
numerous tools available for parents but more needs to be done to 
improve awareness and usage of these resources. That is one area I 
would like to explore further with our witnesses today. Working 
together, what can we do to help parents better understand the problems 
they are facing? What tools are available to help them? And how do we 
encourage parents to utilize these tools?
    I want to thank all our witnesses for being with us today and 
sharing your expertise on this topic.

    Senator Wicker. Thank you, to the Chairman of the 
Subcommittee, particularly for the efficient way in which he 
has run this hearing today, getting it started as the vote was 
going, and moving it along at an efficient pace. So, thank you, 
Mr. Chairman, for your concern with this. And my statement in 
the record will stand.
    I hope it's still all right for Americans to make money in 
this industry. Mr. Nigam, I would assume that the people at 
MySpace don't mind making a dollar, either. I think there's a 
way for innovation and investment and job creation to occur in 
this industry while still protecting children and young people, 
and I hope we can do that.
    I appreciate the testimony of all of you.
    Let me just ask this, and I'll start down here with Mr. 
Snowden, and maybe people can respond if they disagree. I'm 
trying to figure out where we might have differences of 
approach on the panel.
    Mr. Snowden, you say, ``We look forward to working with 
this committee to craft policies which properly balance the 
need, on the one hand, for flexibility in responding quickly to 
behavioral, technological, and market changes, with 
concerns''--and I'm paraphrasing your words--``concerns for 
safety.'' So, what are your specific concerns there, Mr. 
Snowden, that might upset the balance between the need for 
flexibility in innovation and safety?
    And also, you say, ``The wireless industry believes, with 
voluntary initiatives and strategic collaborations, we'll 
continue to ensure delivery of benefits of wireless products 
and services to all Americans.''
    What gives you pause, Mr. Snowden, beyond voluntary 
initiatives that might have a stifling effect on innovation and 
keeping the United States on the cutting edge of this industry?
    Mr. Snowden. Thank you very much for your question, sir. I 
think the short answer is: I'm not sure if there is large scale 
or any disagreement among any of us. We work collaboratively 
with just about everyone on this panel. And I've just met Mr. 
McIntyre today, but I look forward to working with him as we go 
forward.
    In terms of our concern, is--and I think you saw this in 
the Working Group's report--there is no-one-size-fits all. And 
if you take the mobile space, and you say, ``Well, you need to 
do this,'' the--you treat the mobile community the same way you 
treat the online community, versus e-mail or whatever it might 
be, or television--it's not going to work. And I think--we 
spent a whole year debating this issue of, Is there one way to 
do this? And at conclusion, as you saw in the Working Group 
that you saw from Hemu, is that there isn't one way to do it.
    And I think, from our standpoint, we're not in this to make 
money, in terms of on the backs of exploiting children. That is 
not our goal. We saw the headlights of what was going on in 
other industries when we began to watch our industry grow and 
explode, in terms of the technology. And one of the things that 
we did immediately, for example, is we started working with the 
National Center for Missing & Exploited Children on child 
pornography. We wanted to make sure that wasn't on our 
networks. We began to work with the FTC. We began to work with 
other parties so that we could make sure we were smart on these 
issues, so that we can protect kids.
    A lot of this is behavior of children that's facilitated by 
various products that are out there. We look at it from a 
three-pronged way that takes education, it takes the law, it 
takes technology. And so, there is not just one way to do it. 
It's everything, working together.
    Senator Wicker. Anybody wish to take issue with Mr. Snowden 
in that regard? Follow-ups?
    Mr. Nigam. Yes.
    Senator Wicker. Mr. Nigam?
    Mr. Nigam. I noticed you kept looking at me, so I assume 
that's a hint to say something.
    [Laughter.]
    Mr. Nigam. Senator, what I want to point out--I actually 
want to step back and try to frame the discussion a little bit. 
And it's partly in response to what you said, but partly in 
response to what Chairman Rockefeller also said.
    When we looked at these issues--and I, for one, have looked 
at them for many years--one thing that's become very clear is 
this, and this is the pain point for parents.
    And I know, I was asked to let you know that I'm speaking 
on behalf of myself rather than News Corporation and--during 
the question session.
    Parents are looking at technology and saying, ``It's that 
thing that my kids know, and I know nothing about.'' And then 
they're making a jump to a conclusion, which they don't need to 
make, but they're doing it. And that is, ``My kids know that 
technology. I don't. And therefore, I cannot raise them, when 
it comes to technology.'' And, I think what we have to do is 
help parents understand that, as parents, they still have the 
right, the power, and the ability to educate their teens and 
their kids about safety, just like they did from the day their 
baby was brought home from the hospital. When they did it with 
the cribs and teaching them. Then they did it with the parks. 
Then they did it when they sent their 13-year-old to the mall 
and said, ``You're not going to do this. You're going to stick 
with your group. You're not going to talk to strangers. You're 
not going to disclose info.'' Things like that. And what you'll 
find is, the lessons they've been teaching all along, if they 
continue to teach that in these new mediums, whatever they 
are--it doesn't even matter what they are--those lessons apply 
perfectly well.
    And the second thing you find is that teens and kids 
actually learn them. We often think they don't, but they do. 
They learn how to look both ways when they cross the street. 
They learn how to avoid that creepy guy in the mall or tell 
somebody there's somebody in the mall that they want to stay 
away from. They learn those things.
    And then, from a purely business perspective, what's really 
interesting is, oftentimes people have a feeling, ``Businesses 
got to make money, got to make money, got to make money.'' 
What's really interesting here, in the safety area 
particularly, is that in--businesses actually benefit by doing 
the right thing--tremendously. And they benefit because their 
reputation is at stake, and nobody wants their reputation to be 
tied to predators and other misconduct as, ``That's the 
business where you find that.'' VCs won't invest in businesses 
like that. Advertisers won't advertise and align their, you 
know, billion-dollar-supported brands with businesses with 
reputation issues or criminal issues and things like that.
    So, there's actually an incentive, from day one, to focus 
on Business 101. And that is, you can do the right thing, and 
you will be doing the right thing for your business. So, from 
that perspective, I go back to what I've said before in other 
settings, and that is: Look at this issue from the perspective 
of, How do you build a town into a city, into a country, into a 
state, and look at all the different things you do there, and 
take those same learnings and start applying them in this area, 
and help people understand that they can actually do that and 
succeed that way?
    Senator Pryor. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. And 
thank you for convening this important hearing.
    As a parent of a 15-year-old that just did her birthday 
invitations by Facebook, I know how technology has changed our 
children's lives. The Pew Internet in American Life Project 
documented that 73 percent of American teens now use social 
networking website, up from 55 percent, 2 years ago. So, I 
think it's no surprise, with that exponential growth, that we 
are looking at this and trying to figure out new ways to 
respond. The same study found that 83 percent of 17-year-olds, 
and nearly 60 percent of 12-year-olds, own a cell phone.
    So, my question, first, is--in fact, just this morning, I 
sent a letter to Facebook's CEO Mark Zuckerberg, asking about 
the feasibility of adding a safety button to Facebook pages of 
kids under the age of 18.
    On Monday, Facebook partnered with a child protection 
agency to create a panic-button application for users in the 
United Kingdom, but this application is not available in the 
U.S. There is a Help button on the pages, but it doesn't--you 
have to go through two clicks to get to any security 
information. And, in my opinion, a prominent button or link, 
given some of the numbers that we're seeing in the numbers with 
predators on the Internet, would make this a sensible way to 
handle this, for kids who have no idea what they're getting 
into, often.
    How readily available, do you think--and anyone can answer 
this--if you want to start, Ms. Collins, because the group that 
they partnered with in the U.K. was similar to your group--how 
readily available are public safety materials to teenagers 
online? Do you think children know and understand the basic 
risk and threat? As you know, most children don't always report 
the threats to law enforcement. And how can we better get 
information to teens and parents? And does this type of thing 
going on in the U.K. make sense?
    Ms. Collins. Thank you, Senator. Those are excellent 
questions.
    One of the most important things, in the online world and 
the various platforms that children and adults are using, is 
the ability to be able to report incidents that they find 
disturbing or harmful, possibly illegal, in an easy-to-do-
format, an easy-to-do way. Most companies have an Abuse button, 
some sort of policy and procedure in place, but if it's not 
easy for the user to do, they're not going to report it. In 
most cases, as you mentioned, very often they won't report the 
incident in the first place. So, the availability of a 
prominent and easy-to-use, easy-to-find Abuse button, Report 
button is very important.
    There have been discussions, amongst the industry and 
amongst child protection groups, about the importance of really 
having some sort of--essentially, if you can imagine a 
``splash'' page, because there are many resources that are 
really necessary for families to be able to access. Certainly, 
in my world, it's the sexual predation of children by adults 
and others. But, of course, there are other issues that people 
encounter on social networking sites, on the Internet, in 
general, whether it be, you know, potential domestic violence 
that they are witnessing information on; suicide; bullying; you 
know, gender identity issues--that there are many qualified and 
very good entities out there that we need to be able to find 
some way to be able to easily point parents, children, 
concerned members of the public--when they see an incident, 
something they find disturbing, something they want to report, 
that they can easily access the reputable entities that they 
would then be able to make a report to. And working across the 
industry to do such an initiative, I think, would be very 
important, because we need to make it easy for people to report 
something if they find it disturbing or harmful.
    Senator Klobuchar. So, the easier it--and the more obvious 
that it's more available, the better it is for those that could 
be the victims of predators.
    Ms. Collins. Well, most companies--yes--most companies also 
have abuse and compliance teams. Most of the large players have 
compliance teams that also take reports and--because people 
really do report many different types of abuse, whether it be 
language, whether it be content, and, of course, predation. And 
those companies will make reports regarding the sexual 
predation of children and online child pornography to the 
National Center for Missing & Exploited Children.
    But, to your point, accessibility and ease of use is 
critical.
    Senator Klobuchar. OK. That's why I was focused on that. 
And we hope we can work with them on this.
    One issue that hasn't been discussed is peer-to-peer file 
sharing and the privacy concerns that arise when kids use these 
programs. As you know, these programs are popular with children 
and teenagers because they can download songs and movies to 
their computer. Oftentimes, however, children will share 
personal files, such as family photos, home movies, family 
documents, and there are many cases of predators using peer-to-
peer networks to download pornographic materials and target 
kids.
    Senator Thune and I have recently introduced legislation 
that attempts to address the problem of inadvertent sharing on 
file-sharing networks. I did an event at--actually, at Best 
Buy, with a number of victims, not child victims, but people 
who had just simply gone home to work on their computer, put 
all the documents from their employer on there as they were 
working on it. They didn't know that their kid had one of these 
peer-to-peer file-sharing programs on the Internet, and 
suddenly all of their company's private employee data was 
stolen and where they became victims of identity theft. We had 
a number of cases like this.
    So, if anyone wants to comment on the peer-to-peer issue.
    Ms. Rich?
    Ms. Rich. Yes, Senator, this is a hugely important area. 
And if you talk to people who monitor this area, they say that 
the amount of information--sensitive information flowing over 
the peer-to-peer networks is enormous. We recently did a sweep 
and sent warning letters to many dozens of companies whose 
sensitive information was exposed over the networks, probably 
for the same reason you were just describing, which is, their 
employees downloaded it, maybe at home, or their kids did, and 
then all this sensitive information--tax records, health 
information, financial records--was exposed.
    So, it's a hugely important area. And I know you have been 
working on a bill, that we support, that provides greater 
transparency for this, and warnings. And we're very supportive.
    Senator Klobuchar. Anyone else want to add anything?
    [No response.]
    Senator Klobuchar. All right. Thank you very much.
    Senator Pryor. Thank you.
    Ms. Rich, let me start with you, if I may. And I have a 
copy of your Net Cetera publication here. And I'm just 
curious--I don't know, really, how to ask this, other than say, 
kind of, on a scale of 1 to 10, how successful do you think 
this effort has been? And I guess, also, what kind of feedback 
are you hearing from people on it?
    Ms. Rich. Well, it's interesting you should use that 
number, because we actually do have an online survey we use for 
our ``OnGuard Online,'' of which this is part, and have asked 
consumers, or users, to rate it on a scale of, well, 1 to 100. 
And it's at 79 percent, which is higher than the information 
provided on other government websites. If you take into account 
the reach we've obtained through this, I think we're very 
pleased with where we are. As I said earlier, in less than 10 
months, we distributed over 3.7 million. And when one school 
district finds out another one has distributed it, they call us 
up and ask for it. So, every week, we take a tabulation, and it 
rises. So, we're very pleased with how it's going, and we 
intend to find additional outlets to distribute it.
    Senator Pryor. Great.
    Mr. Nigam, let me ask you, if I may, about the children who 
are online and--you may not be qualified to give, like, a 
psychological profile, but what kind of--you know, what--is 
there a pattern out there about who does the bullying and who 
gets bullied the most? Or is it just kind of a random selection 
of kids?
    Mr. Nigam. Chairman Pryor, I have four children, so I can 
probably create psychological profiles of children.
    [Laughter.]
    Senator Pryor. I understand.
    Mr. Nigam. But, that said, in particular, what the research 
has--and this is research done in four different, I think, 
specialists doing research, and they all came to the same 
conclusion, which is really an eye opener, and that is, kids 
who are at risk in the physical world are the exact same kids 
who are at risk online. Those who engage in bullying activity 
in the physical world are the same ones who will engage in 
bullying activity online. Those who get bullied in the physical 
world will also be the ones who will get bullied online.
    And what this has done is, in essence, confirmed that the 
physical and the online have really become one. And, I think, 
as long as we're focused on treating them separately and 
finding separate solutions, we're actually missing an 
opportunity, and that is to really look at it from that larger 
50,000-foot context and say, ``Is there more that needs to be 
done in the physical side?'' And, if it's going to be done, 
apply that, and make sure it gets applied online. If you find a 
kid who's bullied or a child, in the physical side, then start 
engaging and saying, ``That could also be happening online''; 
and vice versa on the bully, which is, if they're doing it in 
the bully--if your school is saying your child is causing 
trouble, or another parent is saying that, well, then also 
start considering, ``Are they doing that and extending it to 
the online environment?'' because, more than likely, that's 
going to be true.
    Senator Pryor. OK. Let me ask you a different question, and 
that is--you mentioned, in your statement, that MySpace 
provides to parents and teens and school officials some sort of 
guide. Is it a written guide?
    Mr. Nigam. Yes.
    Senator Pryor. And wouldn't it be more effective, and 
perhaps the most effective, if there was something very clear 
at the point of use, you know, there on MySpace itself, online, 
that the kids and the parents somehow could utilize. And--or do 
you already do that?
    Mr. Nigam. Actually, Senator, we have a section on 
myspace.com/safety that is designed specifically for parents, 
for--and another section for teens, and one for educators----
    Senator Pryor. But----
    Mr. Nigam.--that has the guides for downloading. And on 
every page, including the front page of the site, there is a 
Safety button that takes you----
    Senator Pryor. OK.
    Mr. Nigam.--to all the right places.
    Senator Pryor. That's really was what I was asking, 
because----
    Mr. Nigam. Right.
    Senator Pryor.--I know a lot of companies are well-
intentioned, but you've got to click and follow certain links 
to get where you need to be. And what you're saying, on 
MySpace, it is there on every page, so they can easily get to 
it if they need to.
    Mr. Nigam. Right. And this ties exactly back to--from a 
purely business perspective, it builds reputation with your 
user base, it builds trust, it's good for business, it's the 
right thing to do. And that's a good example of why you should 
do that, whatever business you are.
    Senator Pryor. OK. Great.
    Ms. Collins, let me switch to you, if I may, and that is, 
What are your recommendations on how to generate more awareness 
about safety resources that are already available to parents 
and children? I mean, my experience is, most parents really 
don't have a real good idea that some of these resources are 
available. So, how do you think we can best get that word out 
in the most effective way?
    Ms. Collins. I think it's an excellent question. And, you 
know, I've participated and gone out to some schools in the 
evenings or on weekends to do parent events, to talk about 
Internet safety. And, unfortunately, you usually get the same 
parents who are probably pretty engaged in their children's 
lives at that time also.
    There are many, many good resources out there for parents, 
including NetSmartz411, which explains technology in very easy-
to-understand language. But, we--you know, all of us, everyone 
continues to put parents right there at the front line in order 
to educate their children, but they don't necessarily have the 
tools of what they need to educate them on.
    I think that, just off the top of my head, one of the 
interesting ways that--maybe would be, rather than expecting 
the parents to be coming into the schools in the evenings or on 
the weekends and so forth, bring it into the workplaces. Bring 
in some of the information, bring it to them, rather than 
expect them to come to an event at the schools.
    I think the schools still, though, are front-line for 
getting information home to the families. And I agree with much 
of what Mr. Nigam was saying about making sure that we teach 
these overarching lessons of safety, rather than teaching to a 
specific technology, because the one guarantee we have is, it's 
going to be different in 2 years.
    Senator Pryor. What is the--from your standpoint, Ms. 
Collins, what's the most alarming trend that you're seeing, in 
terms of, you know, children being targeted or, you know, just 
prevalent problems on the Internet with kids? What's the most 
alarming trend that you're seeing?
    Ms. Collins. The trend that we're seeing most, just in the 
last year and a half, 2 years, are the teens creating sexually 
explicit material of themselves and sending it to others 
online. We have many cases, and you can pretty much speak with 
law enforcement across the country working these cases. And 
they're challenged with these cases, not only on how to respond 
as a law enforcement officer, but how to intervene with the 
families. Kids who are producing very sexually explicit 
materials, sending it to their boyfriends/girlfriends, posting 
it up on their social networking pages, many of them, you know, 
the distribution may occur within a small group of their 
friends or their school, but we've heard from so many kids and 
teens, the humiliation the long-term impact of it.
    And, in fact, there are more cases that we're hearing 
about, across the country, where a child may put something 
explicit of themselves somewhere online, I take it down, send 
it around the Internet, and someone then can use that to 
blackmail the child. And we're seeing those cases, really, 
across the country and around the world. And the hard part then 
is, When is the child going to be able to tell somebody and 
report it?
    So, I think, right now, the most obvious trend for us is 
the kids who are using this technology now, lots of technology, 
lots of privacy, they're at a sexually curious age, and making 
some poor decisions.
    Senator Pryor. Right.
    Well, listen. I'm going to call on Chairman Rockefeller, 
and he's actually going to take over chairing the hearing for 
me.
    So, thank you very much for your time.
    The Chairman [presiding]. For a price.
    Senator Pryor. Yes, I understand.
    [Laughter.]
    The Chairman. It's a busy time here.
    The--Mr. Snowden, do you think that--one of the things 
we've done here in the Commerce Committee is to say that you 
cannot text or cannot use a cell phone while you're driving. 
And----
    Mr. Snowden. And we support that.
    The Chairman. That wasn't my question.
    Mr. Snowden. OK.
    [Laughter.]
    The Chairman. The--do you think that--you see, it keeps on 
growing. People, they may know that it's a--it has nothing to 
do with bullying or exploitation, but it's just endangerment of 
other people, including the other person in the car that you're 
driving or the car that you hit. Five thousand people a year, 
maybe more than that, die; and I think there's something like--
I think it's something like 50,000 a year are wounded, maimed, 
or whatever, as a result of that behavior.
    Now, in this committee, we've sort of agreed that that 
should be illegal. In other words, the government is 
intervening in a behavioral matter, having nothing to do with 
kids, you know, up to the age of 17, by definition, but people 
much more mature than that who are doing something which is 
lethal. And so, we would have the choice, I suppose, of saying, 
``Well, in time, this is going to be apparent.'' And to which 
my answer is, ``No, it wouldn't be apparent. People just keep 
on dying, because texting is--you know, is just necessary to so 
many people.'' And so, the government has to intervene.
    Now, why do you think it is that the government has to 
intervene in a mature situation leading to a bad or lethal 
result, in many cases, and many, many very close misses--why is 
it that the government has to intervene, probably, in that? 
And, you say--I didn't ask you, but you said you were in 
support of that. And that's not--that has the same sort of 
parallel logic involved in it as the subject that we're talking 
about, which, in fact, worries me much more, for the long-term 
health of the country.
    Mr. Snowden. If I'm following you correctly, sir, the--
where we support is--and we've put, as you put it earlier, 
money behind it by doing a PSA on driving, ``On The Road, Off 
The''--``On The Phone, Off The Road Campaign'' about text 
messaging. We don't want people doing that. And what states 
have done around the country is made the behavior illegal. And 
I think what we're seeing here in this context of what young 
people are doing is--the question that you're asking me is, 
Should that be illegal?
    The Chairman. No. I'm saying don't you think it was 
appropriate--it's appropriate for the government to have to 
intervene and make it illegal, with penalties?
    Mr. Snowden. It depends what you mean by--what the 
government's saying is----
    The Chairman. If you're----
    Mr. Snowden.--illegal.
    The Chairman.--caught texting or using a cell phone in a 
car.
    Mr. Snowden. And we--we've--I have, personally, written 
letters to----
    The Chairman. So, what's the----
    Mr. Snowden.--in----
    The Chairman.--difference?
    Mr. Snowden.--support of this in----
    The Chairman. What's the difference? That's the lesser evil 
than what we're talking about at this hearing, to me.
    Mr. Snowden. What is the difference----
    The Chairman. What we're talking about----
    Mr. Snowden.--between----
    The Chairman.--at this hearing shapes the future of the way 
children grow up to be adults.
    Mr. Snowden. What I'm not following, sir, is--you're 
saying----
    The Chairman. Well, I'll try somebody else, then.
    Mr. Snowden. Well----
    The Chairman. Ms. Rich, maybe you can respond.
    Ms. Rich. Well, can I translate for him?
    [Laughter.]
    Ms. Rich. What he's saying is that----
    The Chairman. No, no. I don't ask you to translate me----
    Ms. Rich. Yes.
    The Chairman.--to him. I asked you to----
    Ms. Rich. You want me to answer it?
    The Chairman.--answer my question.
    Ms. Rich. You're saying these consequences are even far 
more serious than the texting----
    The Chairman. For the long-term, I think.
    Ms. Rich.--because we're shaping the minds of youth----
    The Chairman. Yes.
    Ms. Rich.--and the safety of youth.
    The Chairman. Yes.
    Ms. Rich. So, we, at the FTC, would agree that the privacy 
and safety of teens is immensely important, and that's why 
we've done all the efforts that I described earlier.
    Mr. Snowden. And may I go back to this, sir?
    The Chairman. Well, you can try again.
    Mr. Snowden. Sure.
    The Chairman. Neither of us are doing very well.
    Mr. Snowden. Well, we're not disagreeing with you. We're 
not disagreeing with anything you're saying. What I was trying 
to understand before I answered your question clearly was, Are 
you saying that the behavior that--of sexting should be made 
illegal, are you saying that the behavior of cyberbullying 
should be made illegal? And, in that case, particularly 
cyberbullying, there are cases--that is illegal. I mean, 
States' attorneys have already----
    The Chairman. Well, I mean, I--I'd take it in a different--
--
    Mr. Snowden.----. So, we support that.
    The Chairman.--direction. I would say--and, you know, I'm 
pretty hardcore on all of this. I don't have a whole lot of 
tolerance. I mean, when the good Senator from Mississippi 
said--turned the hearing from something about, ``Are we getting 
in the way of innovation in technology?''--not seeming to 
understand that this is about sexual predating and bullying and 
all kinds of things. And people--I mean, I--you know, the 
Internet, to me, is very interesting.
    There's nobody here, so I can just talk as long as I want. 
The----
    [Laughter.]
    The Chairman. It's very interesting. The Internet was a 
magnificent discovery. Everybody lives and dies by it. At the 
very same time that we're spending a great deal of time on this 
committee and on the Intelligence Committee, in which I also 
serve, working on something called Cybersecurity.
    Mr. Snowden. Right.
    The Chairman. Cybersecurity has everything to do with the 
destruction--the physical destruction or shutdown of the a 
nation, or large sectors of a nation, at will, by a 14-year-old 
kid in Indonesia or a state--a hostile state in some other part 
of the world, so that the Internet there becomes, in fact, both 
President Bush's, the last one, and Obama's Director of 
National Intelligence have identified cybersecurity as the 
national--the major national security threat, more than 
plutonium, more than dirty bombs, more than all kinds of other 
things. So, that's one iteration of the Internet.
    Then we come to what we're discussing today. So, you know, 
``We should do more--get out more of these pamphlets,'' I don't 
disagree with. But, I want to hear out of your words, the folks 
who produce this--not produce it, but who produce the 
instruments that allow it, is a more aggressive attitude about 
intervention. Now, I don't think you can--you can't monitor 
what kids are doing, but there has to be----
    Mr. Snowden. Correct.
    The Chairman.--some hookup--and maybe, Mr. McIntyre and Ms. 
Collins, you could help me on this--where people are--they pay 
a penalty. I mean, surely, if they are turned in or it could be 
verified, that their cell phone is shut down for a week--I'm 
talking about something which sort of says, ``Uh, this is 
important. This is not acceptable.'' And I don't know exactly 
what it is.
    But, just--you know, I can remember when Jack Watson was 
President of the Motion Picture Association. They were--and I 
was furious about motion picture indecency and violence and all 
the rest of it, and the way it's going. And he kept talking 
about a $500-million TV--national TV advertising program which 
he was going to do. And I was on this committee at the time, 
and so, he brought this magnificent work into reality and 
showed it to this committee. I didn't want to watch it, because 
I thought it was such a fraud, that they were, sort of, buying 
their way out by buying--putting down X hundreds of millions of 
dollars, out of their trillions, for national advertising on 
``Don't be sexual,'' ``Don't be violent,'' ``Don't be 
explicit.'' And there's some evidence to show that, in the war 
against drunk driving, it had--other effects of that sort had 
some effect emanating from the government, not from the 
industry trying to protect its own future. But--and then he 
wanted to come show it to me in my office, and I wouldn't see 
it.
    It was not a serious attempt on the part of the movie 
industry, in that case, to monitor its own content. I could say 
the same thing to the cable companies. They do not seriously 
monitor their content. They say, ``We do what the watchers 
want. We give them what they want.'' That is ridiculous. They 
give them what they teach their watchers to want to want. 
That's not Shakespeare, but it's very clear to me.
    [Laughter.]
    The Chairman. And that's the way this world works. That's 
the way money speaks. That's what Wall Street does. That's what 
people who have do to people who don't have. Now, that's a 
little bit broad, but you understand. I'm very angry and 
passionate on this issue.
    So, I look at you and I think, ``Well, we're doing the best 
we can to try, and we're putting out little pamphlets, or we're 
putting out--sending stuff to schools,'' all of which sounds to 
me wholly in adequate when you're dealing with teenage basic, 
you know, sexual instincts, bullying instincts, ``I've got to 
be stronger than the next fellow.'' Did you see the movie 
``Doubt''?
    Mr. Snowden. I did.
    The Chairman. Did you remember the African-American boy who 
was bullied because he was African American? That made a 
profound impact on me. He was totally helpless. And it took a 
Priest to come pick up his stuff that was dumped on the floor. 
He was bullied.
    I cannot tolerate that kind of thing in the world that I 
want my children to live in. And so, maybe I'll just address to 
the panel, so I can just stop talking, What is the best 
approach to this? A serious, aggressive approach.
    We have an Intelligence Committee, and we have an 
intelligence community, which assumes bad behavior, well proven 
throughout all of the centuries, from one country to another, 
or countries within countries to that country, as we now have, 
you know, cells that are made up of Americans trying to damage 
their own country's government. And then we have a military. 
And the Intelligence Committee informs the military, in case it 
gets to that stage. We don't take chances on things that are a 
matter of national security.
    In this case, I'm saying the future of what goes on in the 
minds, or does not go on in the minds, of our children--our 
young children--is a matter of enormous importance, if not 
national security, you know, currently defined.
    I--to me, it's a terribly important matter, and I think 
your answer to it is within the classic bounds of a sense of 
corporate responsibility. You want to do the right thing----
    Mr. Snowden. Correct.
    The Chairman.--but it just never ends up being effective 
enough, quick enough. And I don't think we have a whole lot of 
time. And, actually, I don't want you to answer this. I want 
Mr. McIntyre--I just pick on you, Mr. Snowden, and I get my 
answers from the others.
    Ms. Collins, Mr. McIntyre, could you give me some help on 
this? And I do it--I mean, I do it----
    Mr. Snowden. I'd like to offer some, as well, sir.
    The Chairman. And you will have a chance.
    Mr. Snowden. OK.
    Mr. McIntyre. Thank you, Senator. It's hard to know where 
to pick a starting point on this, because there are so many 
different places we could make an impact.
    I wholeheartedly agree, from my experience in working with 
Mr. Valenti and the television industry on the efforts that 
we've experienced there, and that we continue to experience. I 
sit on the Oversight Monitoring Board for the Television Rating 
System, which is mostly just concerned with coming up with a 
better PSA. And it makes no impact at all. That group hasn't 
even met since 2008, and we've experienced a lot of 
difficulties in trying to move that aspect of media forward.
    If I may offer, it seems to me that, when we talk about 
these issues, we tend to still focus on mostly a market-based 
approach to this. There's nothing wrong with that, but I think 
it is short-sighted to only have a market-based approach to 
this. As I have said repeatedly, media, for us, in the 
Children's Media Policy Coalition and the groups we represent, 
is a kids' health issue. The exposure to media impacts 
children's behavior regarding their health. It impacts their 
physical health, their sexual health, their mental health. It 
is the most dominant environment they're in, right now, that 
it--that impacts their health.
    The Chairman. And you're including the Internet----
    Mr. McIntyre. Yes. Absolutely.
    The Chairman.--and cell phones among those.
    Mr. McIntyre. Absolutely. All media in this.
    If you look at trying to impact health behavior using a 
market-based approach--and I'm not antimarket when I'm saying 
this--but, just from a more objective analytical perspective, a 
market-based approach tends to be reactive. Something happens, 
then the market reacts around it, and you get this kind of slow 
trickle effect when that occurs. That's totally inadequate when 
it comes to a health-based effect, especially for children, 
which are not small adults. They're different, and they're 
different, developmentally, well into their teen years.
    What is most successful in health-based communities is a 
prevention approach. You know, we don't want to wait for the 
disease to happen, and then have to continue to treat it. We 
really haven't done much there.
    And so, it's a real struggle to try to get the media 
environment involved in that. Yes, it takes all of these great 
programs that these individuals have talked about to be able 
have. We need pamphlets. We need education. We need the PSAs. 
But, it is--I think I could best say, it's, at best, a good 
half-step. There has to be other things.
    We need--most of the agreements on privacy right now are 
opt-out agreements. We need to be able to have an opt-in 
agreement, with informed consent by the people that are 
participating in that. And ``informed consent'' is a very 
specific technical legal term that the health community uses 
that assumes autonomy and informs in a certain--what's the 
other word that I've got--assumes a certain ability to be able 
pursue malpractice, should that be violated.
    And so, yes, I think we've got lots of other options here, 
but, you know, when we have another great pamphlet given to us, 
it really becomes kind of frustrating. We're not against the 
pamphlets; we just think it's a really small half-step to go 
forward with.
    The Chairman. Ms. Collins?
    Ms. Collins. Senator, we're--we review child pornography, 
sexually explicit images and videos, day in and day out. We've 
received over 140,000--or, I'm sorry, 940,000 CyberTipline 
reports regarding child sexual exploitation over the last 12 
years. The numbers continue to skyrocket. The problem of child 
pornography, you know, from very, very little children 
certainly through the teens, you know, with the creating 
sexually explicit material and so forth.
    The type of behavior that we see the teens engaging in, 
taking these sexually explicit images and videos, they're 
modeling it after what they see and what they're surrounded by. 
One of the initiatives--it's a little off point with what you 
asked, but one of the initiatives that I did want to tell you 
about, that you may or may not be familiar with--the National 
Center, during the course of operating the CyberTipline, we 
come across, every single day, active child pornography 
websites, that are hosted anywhere in the world, that contain 
vile, reprehensible images of children being sexually abused or 
exploited.
    We make available, to participating electronic service 
providers here in the U.S.--those who wish to be engaged, more 
involved in ensuring that they're not easily facilitating 
transmission or access to these types of websites--we make 
available, every single day, a list of active child pornography 
Web pages, so they can--basically, provide them the tools that 
they can do more to try to reduce further proliferation of 
these images. Many of these children who have been sexually 
abused, their abusers are long gone and in jail, but their 
images continue to circulate on the Internet. And industry 
really can do a lot to try to reduce that.
    In addition, we provide industry participating members with 
hash values, which are basically digital signatures of 
photographs of child victims of pornography. Some of the--
again, some of these children, you know, their abusers are long 
gone, but their images and their revictimization continues to 
happen every single day. We provide these tools to the 
industry, on a voluntary basis, asking them to do what they can 
to try to reduce the further distribution of these images--not 
only because it's the right and legal thing to do, but also 
because it's really a victim- rights issue, that something 
awful happened to a child, and we really should do everything 
that we can to try to reduce that victimization in the future.
    So, we do have initiatives--voluntary initiatives with 
companies here in the U.S., trying to exchange information. We 
provide information to other law enforcement agencies overseas, 
really to try to do--approach it from many different angles. 
Certainly, law enforcement arrests the people who are abusing 
our children; try to educate the kids and the parents and the 
community at large about, ``These are the things you need to 
watch for. If something happens, please report it''; and, 
finally, working with the industry, trying to give tools, also, 
that they will be able to do more, really trying impact it from 
many different levels.
    Ms. Rich. Mr.----
    Mr. Snowden. Mr. Chairman, may I----
    Ms. Rich. We're all----
    Mr. Snowden.--may I address it, as well----
    The Chairman. Yes.
    Mr. Snowden.--sir?
    The Chairman. Yes, you can, in a minute. Two things on my 
mind.
    I have held so many roundtable or, you know, classroom 
discussions with superintendents and parents and psychologists 
and teachers and students all over West Virginia. I mean, this 
is a very, very big subject, as far as I'm concerned. And I 
really have the feeling that those meetings, when you put them 
all together, have made virtually no difference at all. Because 
the parents who came were the ones who--you know, the--we asked 
parents, or we asked the school to pick parents. And so, maybe 
they picked, you know, the most with-it, tech-savvy parents, or 
maybe they pick really good parents. But, I think the--my 
impression is that most of the parents of most of the kids 
don't show up at those things because they--they're scared to, 
because they would show that they didn't know how to do the 
remote-control stuff, much less how do you intervene in--you 
know, in something which goes up on a blog, or whatever. And, 
you know, on blogs, you can take things down. You can take 
things down.
    So, can you just discuss--and then I'll get to you, Mr. 
Snowden--can you--any of you discuss the taking down--and 
somebody, a moment ago, suggested liability, suing. Boy, that's 
a stopper. That's a national attention-getter, too. Now, I 
don't know--would you--you wouldn't it on the kid, I think 
you'd do it on the ISP. I mean, I don't know. What--how can you 
take stuff down so that the kid who sent it is embarrassed, 
maybe becomes a little local news story? I mean, I don't know. 
What--I--but, I know you can take stuff down. Who can do that?
    Ms. Collins. Whoever owns the servers can do that. And 
bringing it to the attention of whoever owns that server, 
whether it's an online service provider, whether it's an 
Internet service provider--bringing that to the company is the 
first step. Then, of course, reporting it. Somebody needs to 
know to be able to take it down. You know, most members of the 
public and most parents, you know, if there's something very 
disturbing up there about their child--inappropriate photos, 
whatever it may be--would not necessarily know how to contact a 
company to try to take those steps.
    The Chairman. Right.
    Ms. Collins. Many companies do, in fact--certainly, with 
child pornography, there is really no problem with getting 
companies to take that down. It's illegal material, and it's 
violations of terms of service, it's contraband.
    The Chairman. Who tries to get it down? Who takes it down?
    Ms. Collins. The actual company that is hosting the 
servers. Where the content is----
    The Chairman. So, they do it themselves.
    Ms. Collins. They will take it down if they're notified, if 
they become aware of it. Most companies, we have not 
experienced any problem with them removing that material and 
reporting it to law enforcement.
    Regarding, you know, abusive, disturbing, harassing, 
upsetting quotes to a blog or social networking site, the 
different companies would have different policies, I assume. 
So, I would probably pass off to one of them to determine at 
what level would they be willing to take it down if a member of 
the public approached them.
    Mr. Nigam. Mr. Chairman, can I speak from my experience in 
MySpace and having built the program there?
    One of the things that all companies can do is be proactive 
when it comes to the kind of content that goes on the site. And 
by that, my--what I mean by that is, employ individuals who 
actually review the images that are posted, identify ones that 
have child pornography, hate speech, extreme violence, drugs, 
paraphernalia, things like that, and remove those and then 
punish the member who violated the rules.
    Second--that's the proactive side--in case you miss 
something, give every user the opportunity to report an abusive 
situation in the place where it may happen. In other words, if 
there's any ability to generate content by a user, that 
location should also have a reporting capability to allow 
anybody who's there to let us know.
    And then employ the 24/7 staff that actually looks at the 
reports coming in, prioritizes based on, ``Is it suicide?''--
goes to the top; ``Is it child exploitation?''--goes to the 
top. And there are lots of----
    The Chairman. You----
    Mr. Nigam.--key words that can be used.
    The Chairman. You mean if somebody takes the initiative--a 
citizen makes the initiative to report to you, for example, 
that you will act.
    Mr. Nigam. Absolutely.
    The Chairman. And my question would be--that's a pretty 
scary thing for a citizen to do. How do they know what they're 
getting into?
    Mr. Nigam. Well, that's where----
    The Chairman. In other words, my question is, Why wouldn't 
you set up your own standards for Facebook and what you will 
allow to appear or what you will--you know, I don't know the 
answer to it. I'm asking.
    Mr. Nigam. I can answer that. Every company has a ``terms 
of use'' that sets the rules and it also sets the expectation 
of what it allows and doesn't allow. At MySpace specifically--
--
    The Chairman. But, that's the small-print thing that people 
get?
    Mr. Nigam. Well, actually, that's the thing that you have 
to agree to that says, ``You are not allowed to post 
pornography, you're not allowed to harass another member, bully 
another member, you're not allowed''--and it goes through a 
list of things. Then the company, like MySpace, proactively, 
using----
    The Chairman. Yes. But, where do they see that? Where do 
they get that? How many times do they get that? Does the child 
or the parent, or whatever----
    Mr. Nigam. Well----
    The Chairman. How many times do you make that----
    Mr. Nigam. Children actually get the message more, because, 
when they are signed up, they get special messages that are 
different than what adults get. But, at the bottom of every 
page, the terms are--if you click on it, in front of you will 
pop the terms. And that's every page you're on, this site.
    But, I think the more important focus point here is, How 
proactive is a company in enforcing the rules? In other words, 
is it using keyword technology, like MySpace does, to trigger a 
review that, because there may be something bad in this area, 
``Staffer go and take a look at it.'' And if there is something 
bad remove it, report it to law enforcement if it's illegal, 
punish the user, take action. And then follow the trail deeper. 
If, for example, you're finding an adult who has befriended 
some kids, and one of them is saying, ``I think he's exploiting 
me in some sense,'' not only do you act on that, you then look 
at everything else that adult may be doing, and follow the 
trail to see if there's a criminal case to be reported to law 
enforcement.
    So, I think companies can be a great deal more proactive 
than they, historically, have been. And it is--and, Senator, I 
agree with you on this--it's time to change the paradigm on how 
companies approach bad behavior, unwanted behavior, illegal 
behavior, from simply a reactive, ``Let me know and I'll take 
it down,'' to a proactive, ``Let me identify it before the user 
base does, or before victimization occurs.''
    Ms. Rich. Mr. Chairman?
    The Chairman. Yes. I've got to do Mr. McIntyre, then Mr. 
Snowden, and then Ms. Collins.
    Mr. McIntyre. Thank----
    The Chairman. And then, Ms. Rich, you're----
    [Laughter.]
    Ms. Rich. If we have time.
    The Chairman.--you have life, as of this afternoon, right? 
The FTC lives.
    Ms. Rich. Right. Terrific.
    [Laughter.]
    Mr. McIntyre. That's good news.
    Ms. Rich. Yes.
    Mr. McIntyre. Thank you. I'll be brief.
    It seems to me, when I think of enforcement in this area--I 
am not a techie, by any means, but my, kind of, an external 
observation is that these companies are incredibly efficient--
even cutting-edge--when it comes to identifying and prosecuting 
copyright enforcement and trademark infringement. I would 
wonder if there was something in that process, that those 
companies employ, that would allow for them to also pursue 
these other infringements with equal enthusiasm.
    The Chairman. Mr. Snowden, then Ms. Collins, and then Ms. 
Rich, and then we'll probably wind up.
    Mr. Snowden. There are a lot of ideas that have been 
presented here. And, Mr. Chairman, I would like to say that 
your passion--you're not alone in that.
    And it's not so much the words that I'm conveying on behalf 
of the industry, I think our actions actually demonstrate this, 
as well, particularly as we look at what we've--we embarked 
upon over 7 years ago. Before we started seeing anything on our 
networks, we started talking with the National Center for 
Missing & Exploited Children to make sure child pornography 
wasn't there. We started working with the various groups. So, 
it is fair to say that the wireless industry actually looked at 
lessons from other industries and said, ``We want to get ahead 
of this.''
    You raised a couple of questions earlier about: Can we just 
shut the phone down for a week? The question that really gets 
debated in that is, Who is the--who has the authority to do 
that? If we were to do that, I would imagine we would be called 
up here before the Hill, with several different committees and 
the FCC, because net neutrality rules would probably come into 
place, about shutting service down and things of that nature. 
So, we need to look at the competing public policy goals that 
are going on right now.
    We used to have a--for years there was a walled garden that 
we had in our networks, and we controlled that. Now, with open 
access, that Congress and other have said, ``We want to have 
more open access, not a walled garden,'' that means there are 
less--there's less control. So, there's something that--we need 
to factor that in as we go through this debate.
    I want to convey that we want to work with this committee, 
and other committees as well, as we go through this, but we 
have to look at it at a macro level, not just in a micro level 
of one single public policy goal. From our standpoint----
    The Chairman. No, no. I'm not going to let you get away 
with that. That--you ended your first statement, that there 
isn't one single approach to this. And I'm not disinclined to 
agree--I'm--double negative. I'm inclined to agree with you 
that there isn't one approach. But, you can't just sort of say 
that, and therefore, stop, and then saying, ``But we were there 
7 years ago.''
    Mr. Snowden. We were there 7 years ago, with our 
technology, with our industry, figuring out how we can do it 
for our issues. For example----
    The Chairman. Are you satisfied with what you're doing?
    Mr. Snowden. We are very satisfied with----
    The Chairman. You're----
    Mr. Snowden.--what we're doing.
    The Chairman.--speaking for----
    Mr. Snowden. And we know----
    The Chairman.--a lot of people.
    Mr. Snowden.--there is more to be done, because we know, as 
the evolution--as innovation continues, kids get smarter, 
technology gets smarter, we all have to get smarter. As you 
listen to what was going on with MySpace, you put rules in 
place for MySpace, that may not work in the mobile environment, 
much like the V-Chip won't work in the mobile or the social 
networking environment, as well. So, we have to look at it, as 
the Working Group said, in a macro level and not one-size-fits-
all.
    The Chairman. But, don't make it so complicated. Look, 
that's--it's doable. OK? I mean, you've got----
    Mr. Snowden. We agree.
    The Chairman.--you've got, MySpace--I'm sorry, I called you 
``Facebook,'' and I apologize.
    [Laughter.]
    The Chairman. But, I mean, you've got that, and you've got 
other venues for it, but there aren't that many. I mean if you 
have to have a multipronged attack--I mean, when Eisenhower 
designed Normandy Beach, I don't think he, sort of, said, 
``Well, we have to do everything the same.'' He said, ``Where 
are you landing? What are the situations? Where are the Germans 
planted?''--and all the rest of it. But, it has to be attacked, 
like we had to do Normandy in order to win that war.
    And we have to do something, a lot more than we're doing, 
in order to win this--or to try to slow down this disease. The 
great influenza epidemic of 1918. I'm ready to make a 
comparison. You know, people aren't dying from it, but 
they're--some are, and their minds are being changed, and 
they're being turned from readers and thinkers into followers 
and bullyers, and, ``I want to please my peers,'' and all of 
that. That's been--that was true when I grew up, but we didn't 
have the tools that are available now. And I think those 
tools----
    It's like the spectrum. Everybody uses the spectrum. And 
all telecommunications companies think that the spectrum 
belongs to them. It doesn't. It belongs to the government. It 
belongs to the American people. And therefore, it can be 
exercised for the benefit of the American people. Which means 
that we ought to be--I mean, the FTC--or the FCC, for example, 
is allowed to comment on promiscuity, but they can't talk on 
violence. That doesn't make any sense.
    In other words, you have to take action at a higher level 
to cause things to happen at a lower level, I think, unless you 
don't consider the problem that serious. If it's not that 
serious a problem, or if the kids are going to evolve out of 
this behavior because they'll grow up and become more mature 
and just their--stop their kids from doing it, whatever it is, 
and then the market works, fine. I don't happen to believe 
that's going to happen.
    Mr. Snowden. Well, that's why we created tools on our 
networks. We have tools that parents can have by literally just 
asking, ``What are the filtering tools that I can put on my 
device?'' That's why we partnered with the National Center, to 
make sure we don't have child pornography. And this is why we 
have launched BeSmartWireless.com so that there's--there are 
tool kits there for teachers and parents and students to 
understand what the landscape is.
    This is a massive issue, and you're absolutely correct. And 
it's something that I think we have to all work together to try 
to achieve. And we feel that we are providing the tools, we are 
working in concert with very--many of these organizations here 
today, and others, and we want to work with Congress, as well.
    The Chairman. Yes. We always have the choice that, if we 
don't like what you're doing, we could do something ourselves, 
right?
    Mr. Snowden. Absolutely.
    The Chairman. You don't want that, do you?
    Mr. Snowden. Well, we want to make sure that we do 
something that's balanced.
    The Chairman. I--it wasn't the question I asked.
    [Laughter.]
    The Chairman. OK.
    Closing thoughts. Anybody.
    Ms. Rich. Yes. I just wanted to come back to the issue of 
consumer privacy, which has been mentioned. You used the term 
``game-changer'' before, and we're working hard now on privacy 
issues, because we believe that some of the technologies you're 
talking about--mobile social networking, we didn't mention 
cloud computing, but all the new ways data is used--are really 
a game-changer for privacy.
    Data is ubiquitous. And right now the dominant model for 
addressing privacy are these privacy policies which we've just 
talked about. The terms of service, it's fine print. People 
don't stop, in the middle of what they're doing, to go read the 
20-page privacy policy, and then decide, oh, in fact, they're 
not going to do what they were doing.
    So, we are looking hard--and this is for adults and teens--
on whether there are better rules of the road, better ways to 
manage data collection, because otherwise teens' data and 
adults' data really can be used by anybody.
    Mr. Nigam. Mr. Chairman, first, I want to thank you and the 
Committee for having this hearing, because one of the things 
that always inspires solutions is dialogue.
    You asked, in many ways, what people were doing, but you're 
also, I think, heavily focused on--and this committee is--on 
what can be done. And I think sometimes, especially in the 
technology side, it's hard, when you're looking from the 
outside in, to see what the possibilities are, but it's 
definitely easier just to ask.
    And I think there's an opportunity here for this committee 
to convene a series of gatherings, if--perhaps that's the 
easiest way to put the word--but, not of the policy folks, like 
us, but of the engineers, because there are amazingly smart 
minds in this country who know how to solve problems, using the 
power of technology. I know the National Center had talked 
about it, with the image-hashing and the fingerprinting, which 
I know MySpace uses, and a lot of other companies do. That's 
just one tiny example of the power of technology being used for 
good. There are hundreds of others that can be created. Many 
are.
    But, at some point, I think what we have to do is focus on 
what to do and how to do, as opposed to what are the issues. 
It--I think we all know what the issues are, and I think it's 
time that we can step forward and say, ``Let's put together the 
what to do and the how to do.'' And the folks who can do the 
``how to do'' are the engineers and that community in this 
country. And I think this body and others in the government 
have the opportunity to convene that gathering and convene a 
series of gatherings like that. And I think a lot of progress 
can be made through that methodology. OK?
    The Chairman. Mr. McIntyre.
    Mr. McIntyre. Thank you for allowing closing comments, 
Senator.
    I would say that I'm not sure that we do know what all the 
issues are here, or that they have been fully acknowledged and 
realized by the industry representatives. Most of this hearing 
deals with the critical issues around sexual and child 
predators. But, ultimately, the heart of the issue is about 
children and their giving out information, whether that be 
through a picture, or whether it be through their personal 
information, where privacy concerns can arise, or whether it is 
in ways that it is solicited inappropriately and then used 
against them by advertisers, as well.
    And so, my concern in this is the public health concern. 
When I look at this report that was just recently generated, as 
great as it is in dealing with the very limited issues that it 
deals with, there are no members from the public health 
community that were a part of that to be able to represent the 
broader spectrum of health issues that are important to 
recognize around our children.
    This is a health issue for our children. It is a basic 
health issue for our children. And we would love to see more 
involvement from the public health community and more 
involvement of the public health priorities as we go forward on 
this.
    The Chairman. Ms. Collins?
    Ms. Collins. Mr. Chairman, it's interesting, when we're 
discussing future steps--and it is very difficult because there 
isn't a whole lot of very current research regarding exactly 
what is happening online, because the platforms keep changing, 
technology keeps changing quickly, and kids and the Internet 
are moving fast.
    I think that it's very important when--you know, to do 
timely research, empirically-based findings, in order to 
determine where exactly to move forward with education, as well 
as bringing law enforcement to the table. Because law 
enforcement across the country are overwhelmed with these types 
of cases, and they're seeing all sorts of things that may or 
may not come through when interviewing children.
    You--the research is needed. We have over 900,000 anecdotes 
within the CyberTipline. One of my light-bulb moments, you 
know, over the past few years, working with some of the 
technologists that Mr. Nigam mentioned--you have these 
brilliant geniuses who are building all these amazing games and 
technologies and so forth, and they're creative and they're 
building these wonderful products that are going to go out 
there. They're not thinking, for a second, about how those 
products are going to be used and exploited to victimize 
children. And in my experience, working with them and talking 
with them and telling them some of these anecdotes, telling 
them some of these stories, it helps them really have a light-
bulb moment themselves to try to build the architecture of that 
system a little bit differently so it's less easy to exploit 
kids, less easy for them--for individuals to take advantage of 
the system.
    I think that really clear examples and cases that would 
help demonstrate how products will be exploited, potentially, 
is very important. So, you know, that's a--you know, kind of a 
forward-movement thing.
    But, I think, lessons learned from the companies that have 
been doing this for some time, so new companies, new products, 
new platforms may avoid some of the pitfalls that have been 
seen in the past.
    The Chairman. OK.
    Mr. Snowden?
    Mr. Snowden. Mr. Chairman, we look forward to working with 
you and--specifically--and this committee, generally--on 
ensuring that consumers have choice and control over their 
products and services, particularly when it comes to wireless. 
And I just wanted to say, thank you for the opportunity to be 
here. We appreciate it.
    The Chairman. OK.
    Am I satisfied? No.
    [Laughter.]
    The Chairman. But, am I grateful? Yes, to all of you, for 
coming.
    And I'm just very much thinking about when a government and 
a private sector of enormous power, stand and watch, and 
sometimes intervene, maybe, as the most vulnerable--you know, 
kids from 5 to 13, 13 to 17, and, frankly, it certainly goes 
beyond that--are being exploited and are being taught, through 
peer pressure and the availability of this medium, and the 
excitement of it, to lose curiosity as I would--and, I would 
say, to think less. That's why I'll never--I will always read 
books. I'm not reading a book if I'm reading it on, you know, 
iPad or whatever. I'm just not doing it. And I just--I think 
there are certain disciplines that young people have to go 
through in the training of their minds. Chess is good, for a 
reason. Teaching kids to play chess is good, for a reason, 
because, like going to law school, it makes you use your mind. 
And it takes up time, then you get into competitions, and you 
go out and you--you know, a whole new life begins.
    Here, what we're talking about is the opposite, and that 
is--and I will always come back to fine print, because this 
committee has done so much work on consumer protection, where 
fine print is the way that people--health insurance companies, 
pop-up Internet things--you know, come to win over people, 
because nobody wants to read fine print, and then--well, in the 
middle of the fine print, there's just a big blue thing saying 
``Yes'' if you want the service. And obviously you think, 
``yes,'' and you don't have to pay for it, you think, and 
whatever. So, I--the fine print, I think, is a--it was probably 
a subject for a hearing, but certainly not today.
    Something has to happen on this. And I think people on this 
committee, at least I would think the majority of them, feel 
pretty strongly about it. And, you know, so we will see what 
happens.
    And I thank you all very much for your courtesy and your 
time in being here.
    [Whereupon, at 4:16 p.m., the hearing was adjourned.]


                            A P P E N D I X

    American Civil LIberties Union--Washington Legislative 
                                                     Office
                                      Washington, DC, July 15, 2010

Chairman Mark Pryor,
Subcommittee on Consumer Protection, Product Safety, and Insurance,
U.S. Senate,
Washington, DC.

Ranking Member Roger Wicker,
Subcommittee on Consumer Protection, Product Safety, and Insurance,
U.S. Senate,
Washington, DC.

Re: Subcommittee hearing on ``Protecting Youths in an Online World''

Dear Chairman Pryor, Ranking Member Wicker, and Members of the 
            Subcommittee:

    Thank you for offering the American Civil Liberties Union (ACLU) 
the opportunity to submit this statement for the record in connection 
with the Subcommittee's hearing titled ``Protecting Youths in an Online 
World.'' The ACLU is a non-partisan organization with more than a half 
million members, countless additional activists and supporters, and 53 
affiliates nationwide. While recognizing the concern many Americans 
have about the dangers facing children on the Internet, we urge the 
Subcommittee to avoid taking steps that would criminalize protected 
first amendment speech and, instead, to support programs that would 
educate and inform children, parents and educators about online risk 
prevention and Internet safety practices.
    The Internet presents new ways for young people to communicate--but 
it does not inherently increase the dangers that have been present in 
human society for centuries. Reported incidents involving youths online 
have produced heartbreaking stories with which all Americans 
sympathize. From these reports, one might conclude that the online 
world is becoming an increasingly dangerous place for children. But it 
is also well-documented that online activity, particularly among youth, 
is increasing exponentially and so it is only logical that online 
incidents--such as online harassment, bullying or worse--would also be 
increasing. We must not let the compelling nature of these anecdotal 
reports stand in for a more reasoned assessment of the threats facing 
young people online.
    It is understandable to want to protect young people online. But 
before taking action in a way that would narrow the rights of adults 
and youth online, there should be a clear understanding of the 
differences between online threats and the kinds of issues young people 
have been dealing with for generations. There is evidence to suggest 
that some of the reported risks young people face online may be 
exaggerated. For example, one respected social media researcher at 
Harvard said that child abduction by a stranger is an extremely rare 
threat--12 out of 300,000 in a year.\1\ It stands to reason that such 
abductions resulting from online activity are similarly rare. And 
despite dire warnings that 20 percent of children have been sexually 
solicited in chat rooms, by instant messenger, or e-mail, it is 
routinely overlooked that these solicitations overwhelmingly originate 
with other young people--96 percent--and that such solicitations are 
easily and typically ignored.\2\ The phenomenon of ``cyberbullying'' 
has also received attention recently and in a rush to address this 
problem, lawmakers have forgotten that bullying has been around since 
long before the Internet. Previously young people harassed and 
intimidated each other face to face, through third parties, through the 
mails, by telephone, across the airwaves, and--only now--via Internet 
communications. Yet there is very little research to suggest the 
dangers to young people are dramatically worse online than offline. 
Before taking legislative steps that may restrict online free speech, 
we urge Congress to make sure it accurately assesses the severity of 
the threat and narrowly focuses any legislative proposal.
---------------------------------------------------------------------------
    \1\ Technology Review, ``The Moral Panic over Social-Networking 
Sites'' (Aug. 7, 2006) (quoting Danah Boyd).
    \2\ Id.
---------------------------------------------------------------------------
    Federal attempts to circumvent the first amendment and regulate 
online behavior with the goal of protecting youths are nothing new. 
They began in the mid-1990s with the Communications Decency Act (CDA), 
which attempted, among other things, to protect minors from harmful 
material on the Internet by criminalizing the knowing transmission of 
obscene or indecent messages to any minor recipient or the knowing 
sending or display of any message that depicts patently offensive 
activities.\3\ After the Supreme Court struck down the CDA, Congress 
tried again by enacting the Child Online Protection Act (COPA), which 
provided for civil and criminal penalties for anyone who knowingly 
posts material that is harmful to minors on the web for commercial 
purposes.\4\ Both laws were declared unconstitutional for 
overreaching--imposing a broader speech restriction than necessary to 
achieve the narrow objective of protecting children from obscene 
material.\5\
---------------------------------------------------------------------------
    \3\ Telecommunications Act of 1996, Pub. L. 104-104, 110 Stat. 56 
(Title V--Communications Decency Act of 1996) (CDA was an add-on to the 
bill and received no substantial public airing of its provisions, 
unlike the remainder of the bill).
    \4\ 47 U.S.C. s. 231.
    \5\ See Reno v. ACLU, 521 U.S. 844, 117 S. Ct. 2329 (1997) (CDA 
facially overbroad); ACLU v. Mukasey, 534 F.3d 181 (3d Cir. 2008) 
(cert. denied) (COPA not narrowly tailored and not the least 
restrictive alternative).
---------------------------------------------------------------------------
    Other Federal legislative efforts have been more successful. The 
Child Online Privacy Protection Act (COPPA) protects children under 13 
from the collection of personally identifying information by operators 
of commercial websites or online services. The Children's Internet 
Protection Act (CIPA) mandates that schools and libraries employ 
software filters to restrict access by minors to inappropriate material 
as a condition of receiving Federal funds. Many Federal and state 
legislative initiatives have attempted to impose restrictions, 
sometimes successfully, on sex offenders in their use of the Internet 
even after completion of their sentences.
    Criminalizing online speech is unconstitutional and will be 
ineffective. Harassing speech will either continue online in violation 
of the law or it will simply shift to other spheres within which it 
simultaneously exists. This does not serve to minimize the potential 
dangers facing young people online, but rather it demonstrates that we 
may be better served by working to educate youth on the 
responsibilities associated with electronic communications.
    Legislation has been introduced to inform children, parents, and 
educators about the risks and opportunities associated with online 
communications. H.R. 3630 and related bill H.R. 3222, the ``Adolescent 
Web Awareness Requires Education Act (AWARE Act),'' offered by 
Representative Wasserman-Schultz, both have elements aimed at doing so. 
The latter bill, in particular, would direct grant funds to the 
development of Internet safety education programs and would provide 
training and tools to teachers and parents to help keep young people in 
a position to use the Internet safely. The former bill--H.R. 3630--
would put a greater emphasis on crime awareness which in our view 
misplaces priorities about the Internet, a facility that should be 
viewed as a vast and expanding resource and not primarily as a place of 
criminality and intimidation. However, the bill also includes some of 
the same opportunities for education of children, parents and educators 
and, as such, represents a better step forward than an overbroad 
attempt to criminalize certain kinds of online speech.
    Young people are always quick to adopt new technologies and this 
should be recognized and encouraged as we move into the digital age. 
The Internet has made it easier for them to learn about the world and 
communicate with others. While some might say that such ease of 
communication necessitates the need for special restrictions on minors 
who haven't learned the restraint that comes with maturity, we believe 
that any restriction specifically aimed at curbing the speech rights of 
minors in the new electronic forum is a step in the wrong direction and 
not in keeping with the ideals of our constitutional framework.
    We do not take issue with the Subcommittee's interest in looking at 
the issues of harassment, intimidation, or abuse faced by youth, but we 
would encourage taking a broad view of the phenomenon, not limited to 
the particular tools of communications used to convey such messages 
that may lead to harmful actions. For example a review of the tools 
that the Internet can provide to assist in limiting bullying or 
harassment, such as documentation of incidents and identifying when 
intervention is necessary, could yield valuable insights for fighting 
the problem. If additional legislation at the Federal level is deemed 
necessary, we would urge the Subcommittee to carefully define its terms 
before moving forward, taking care to draw any prohibitions very 
narrowly so as to avoid limitations on protected First Amendment 
rights. In the meantime, as we still stand on the opening threshold of 
the Internet age, there is much good that can be done by expanding 
public awareness of both the benefits and risks associated with online 
activity and we would encourage the Subcommittee to support such 
efforts.
    If you have questions or comments on ACLU's position on this issue, 
please feel free to contact Michael Macleod-Ball at 202-675-2309 or by 
e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ae7e7ebe9e6efe5eecaeee9ebe9e6ffa4e5f8eda4">[email&#160;protected]</a>
            Sincerely,
                                           Laura W. Murphy,
                           Director, Washington Legislative Office.

                                   Michael W. Macleod-Ball,
                              Chief Legislative and Policy Counsel.
                                 ______
                                 
                   Prepared Statement of Yahoo! Inc.

    Chairman Pryor, Ranking Member Wicker and members of the 
Subcommittee, you are to be commended for your continued and long-
standing interest in child online safety issues. Yahoo! also has a deep 
commitment to online safety issues and is grateful for the opportunity 
to share some relevant information learned through a study we released 
in honor of National Internet Safety Month in June. Yahoo! was also a 
participant in the Online Safety and Technology Working Group 
(``OSTWG'') that was set up pursuant to legislation that started in 
this committee in 2007. In June, the OSTWG issued its report to 
Congress entitled ``Youth Safety on a Living Internet'' which addresses 
several key areas of online safety including education, safety tools, 
reporting and cooperation with law enforcement. Yahoo! has many 
activities in these areas and will take this opportunity to briefly 
describe what is being done in these areas.

Yahoo! Background
    Yahoo! attracts hundreds of millions of users every month through 
its innovative technology and engaging content and services, making it 
one of the most visited Internet destinations and a world-class online 
media company. Yahoo!'s vision is to be the center of people's online 
lives by delivering personally relevant, meaningful Internet 
experiences. Yahoo! is headquartered in Sunnyvale, California.
Yahoo! Online Safety and Digital Protection Survey
    In April of this year, Yahoo! conducted an online survey with Ipsos 
OTX to gain insight into consumers' behaviors and perceptions with 
regard to online safety. The survey is based on a sample size of 2003 
Internet users in the United States, ages 18-64 years old. Our goal in 
conducting the survey was to gain insights into people's behaviors and 
sentiments regarding online safety so we can better align our safety 
education, product features, and outreach efforts to user needs. We 
wanted to drive awareness of National Internet Safety month in June by 
uncovering trends around online safety--specifically with parents and 
children and digital reputation management.
    The survey interviewed a cross-section of U.S. adults, with 40 
percent of the respondents being parents with children of the age of 17 
or younger. The survey asked a variety of questions relating to parents 
and kid's online safety management, including cyberbullying, sexting; 
and digital reputation management.
    The findings of the survey are very encouraging as they show 
parents are being much more proactive than generally believed when it 
comes to their children's online safety. The data also shows that there 
is more work to be done. Overall, Yahoo! gave parents a B+ for their 
efforts to monitor their children's online activities. Yahoo! also 
concluded, based on the survey results, that more education and 
resources are needed to help parents and children address cyberbullying 
and digital reputation management. More detailed information on the 
survey findings is attached as a presentation at the end of this 
document.

Parents Are Taking Action
    Yahoo! celebrates the parents who are proactively monitoring their 
children's online safety and are having appropriate discussions with 
their kids. The Yahoo! survey shows:

  <bullet> 78 percent of parents are concerned about their children's 
        online safety, with almost 50 percent being ``very concerned.''

  <bullet> 70 percent of parents talk to their children about online 
        safety at least 2-3 times a year; 45 percent talk to their 
        children at least once a month.

  <bullet> 74 percent of parents are connected to their children's 
        profiles on social networking sites.

  <bullet> 71 percent of parents have taken at least one action to 
        manage their children's use of the Internet or cell phones such 
        as:

    <ctr-circle> Checking to see where children are searching online.

    <ctr-circle> Setting time limits for children's use of computers or 
            cell phones.

    <ctr-circle> Setting parental controls on video sites.

    <ctr-circle> Using filters to limit where children go on the web.

    This level of parental engagement is an encouraging sign that 
parents and children are becoming more comfortable with safety issues 
and discussing them with each other. It also shows parents are 
embracing the tools that are available to empower them to control their 
own and their children's online experiences. But there is always room 
for improvement.

Cyberbullying Findings
    While many parents are actively engaged in their children's online 
experiences, cyberbullying presents significant challenges. Most 
parents are aware of the problems presented by cyberbullying, yet are 
unsure of appropriate actions to take in response. The data from our 
survey shows:

  <bullet> 81 percent of parents know what cyberbullying is.

  <bullet> 1 in 4 adults (25 percent) who are aware of cyberbullying 
        have either been victims or know someone else affected by 
        cyberbullying.

  <bullet> 37 percent of parents feel that they know what to do about 
        cyberbullying.

  <bullet> Almost three-quarters (73 percent) of people want their 
        child's school to play an active role in teaching kids about 
        online safety and citizenship.

Yahoo! Tips on Cyberbullying
    Yahoo! has developed an extensive safety site accessible from 
nearly every page of yahoo.com. Yahoo! Safely (safely.yahoo.com) helps 
inform parents, students, and teachers about online safety through 
timely videos, simple strategies and advice from non-profit safety 
experts. Specifically, Yahoo! Safely offers the following tips for 
young people to help prevent cyberbullying.

  <bullet> Own your digital reputation. The Internet is a public space, 
        so before you share photos or personal details, make sure it's 
        info that you'd share with teachers, colleges, or job 
        prospects.

  <bullet> Keep your private information under your control. Keeping 
        Internet conversations (and your user names/profiles) free of 
        personal information like your password, full name, or even the 
        name of your school, is important.

  <bullet> Be nice (and pass it on)! Be respectful online and treat 
        people the way you'd want to be treated. If someone is being 
        disrespectful or bullying you, try to ignore them and use 
        privacy tools to block them from viewing your full profile and 
        contacting you.

  <bullet> Know your rights. You have the right to not respond to e-
        mail or other messages that are inappropriate or make you feel 
        uncomfortable. If you get a message that doesn't feel right, 
        show it to your parents, guardians, or another trusted adult 
        and report the incident to your Internet service provider.

  <bullet> Have a family chat. Talking with your parents or guardians 
        doesn't mean giving up your privacy. Everyone benefits when 
        you're on the same page about online activities, including when 
        you can go online, how long you can stay, and what activities 
        you can do online.

Digital Reputation Management Findings
    Digital reputation management is a growing concern for both 
children and adults as they share more and more personal information 
online. New stories have reported everyone from potential employers to 
college admissions officers conducting online searches and considering 
the findings in evaluating an applicant. The information a user posts 
online can have important safety consequences, and important long term 
implications on the user's reputation.
    However, according to the recent Yahoo! online safety survey, 65 
percent of people do not know, or are not sure what a digital footprint 
is and 31 percent do not feel they are in control of their online 
image. ``Digital reputation management'' as defined by the study 
includes both a user's digital footprint--the content and information 
that is posted by or about a user on the web over time, including 
online profiles, comments and blogs--and a user's online image--the way 
people are perceived based on content.
    The survey also concluded that

  <bullet> 48 percent of respondents do not realize or are not sure if 
        the information they put on the web will remain online forever 
        and 7 percent think that it won't remain online forever if they 
        simply delete it.

  <bullet> 20 percent of people plug their own name into a search 
        engine once a month or more; 49 percent do it 2-3 times a year 
        or less.

  <bullet> Adults ages 18-34 are more proactive about managing their 
        digital profiles than adults 35-49 and adults 50+.

    Online safety education has long urged children, and actually users 
of all ages, to be careful about the types of personal information they 
post online and who they make it available to--such as information 
about where they live or where they go to school--as an important part 
of maintaining their physical safety. Given the many other implications 
that a user's online activity can have for their present and future, 
these survey results suggests that there is a need to cultivate greater 
awareness among Internet users of all ages about the broader impacts of 
what they choose to share online.

Yahoo! Tips on Digital Reputation Management

  <bullet> Know your connections: Only connect with people you know 
        offline.

  <bullet> Think before you post: Once something is posted online, it's 
        virtually impossible to take back because words, pictures, and 
        videos can be easily forwarded, copied, and taken out of 
        context.

  <bullet> Protect your personal information: Posting personal 
        information or photos can identify you to strangers. Never 
        reveal personal information to people unless you are friends 
        with them offline.

  <bullet> Configure your settings: Take the time to understand the 
        profile settings that are available to you on websites and 
        social networks, and tailor those settings for you.

  <bullet> Understand your digital footprint: On a monthly basis, 
        search for your name on search engines, like Yahoo! Search, and 
        on social networks to understand what type of content is 
        associated with you.

Yahoo! Online Safety Efforts
    At Yahoo!, we are very proud of our long history of promoting safer 
environments for kids to experience the benefits of the Internet. In 
1996, Yahoo! was the first Internet company to launch a child and 
teacher-friendly web resource of safe, child-appropriate websites. 
Yahoo! Kids (formerly Yahooligans!) is Yahoo!'s award-winning web guide 
for children ages 7 to 12. All content on Yahoo! Kids has been reviewed 
by human editors for appropriateness for it's young audience. Yahoo! 
Kids (kids.yahoo.com) also includes a substantive Parents Guide that 
covers all manner of media safety, especially online safety issues.
    Today, Yahoo! Kids, Yahoo! Shine, and Yahoo! Safely all feature 
safety information targeted to kids, teens, and adults. Yahooligans! 
was our starting point, but we have grown our safety program into a 
multi-faceted approach to online safety that focuses on: (1) education; 
(2) user and ISP reporting; (3) technology and user empowerment tools; 
and (4) relationships with law enforcement, industry peers and child 
advocacy organizations. Many of our most recent efforts are directly 
related to the issues raised in our online safety survey. They also 
largely coincide with the findings of the recently released Online 
Safety and Technology Working Group (OSTWG) study entitled ``Youth 
Safety on a Living Internet.''

OSTWG Study and Recommendations
    The National Telecommunications and Information Administration 
(NTIA) was tasked by the ``Protecting Children in the 21st Century 
Act,'' a title of the ``Broadband Data Improvement Act,'' P.L. 110-385, 
to create a multi-disciplinary working group to report to Congress on 
four key areas relating to the safety of children while online. These 
four areas are: (1) online safety education; (2) parental controls and 
other empowerment tools; (3) child pornography reporting; and (4) data 
retention. Yahoo! was pleased to provide expert participation in the 
OSTWG. The OSTWG issued its report this past June and it included over 
30 recommendations for the continued study and improvement of online 
safety efforts.
    As many of the participants in the hearing are likely to comment on 
the OSTWG report findings, Yahoo! would like to focus on those findings 
and recommendations that are most relevant to our areas of focus.

Online Safety Education Findings and Recommendations
    The OSTWG Subcommittee on Internet Safety Education made a number 
of important findings about the elements of successful education and 
awareness efforts that should be carefully considered by any entity 
seeking to promote safety education. These findings include that: 
educational messages should not be fear based nor follow a one-size-
fits-all approach given that those who are at risk in the offline world 
also tend to be at the greatest risk in the online world; messages and 
advice should be appropriately tailored to the risks being addressed, 
how technology is actually being used and the intended audience. For 
example, the OSTWG Report notes that at one point the primary safety 
advice given to parents was to locate the family computer somewhere 
central in the house.\1\ Today, widespread use of mobile devices makes 
this messaging far less relevant. Safety education needs to evolve as 
use of technology evolves. The subcommittee also noted that there are 
many stakeholders who have key roles to play in promoting safe online 
practices including schools, parents and online services.\2\
---------------------------------------------------------------------------
    \1\ Youth Safety on a Living Internet, Report of the Online Safety 
and Technology Working Group, June 2010 http://www.ntia.doc.gov/
reports/2010/OSTWGFinalReport060410.pdf at 6.
    \2\ Id. at 5.
---------------------------------------------------------------------------
    Similar to our survey findings, The OSTWG report finds that 
cyberbullying is the most serious concern for students, parents, and 
schools because it is currently the online danger that children and 
teens are most likely to face.\3\
---------------------------------------------------------------------------
    \3\ Id. at 12.
---------------------------------------------------------------------------
    The OSTWG report offers a number of recommendations that Yahoo! 
agrees are of key importance to continuing to improve the effectiveness 
of safety awareness. I would like to specifically highlight a few of 
these recommendations and the corresponding Yahoo! efforts that support 
the goals of the recommendations.

  <bullet> ``Keep Up With Research and Base Education On It'': \4\ 
        Yahoo!'s recent survey, as well as our extensive work with 
        safety experts, is designed to provide the basis for a fact-
        driven approach to developing on our online safety programs, 
        including which issues to focus on and how best to convey 
        safety messages. We welcome more coordinated national efforts 
        to bring together the great academic and scientific work that 
        has been done in this space and to further develop our common 
        understanding of the risks we want to address.
---------------------------------------------------------------------------
    \4\ Id. at 30-31.

  <bullet> ``Coordinate Federal Government Educational Efforts'': \5\ 
        Yahoo! applauds the efforts of government entities, 
        particularly the Federal Trade Commission, for its online 
        safety education efforts. OnGuard Online has been a leading 
        educational effort that, Yahoo!, like many service providers 
        point our users to as a key safety resource both from 
        safely.yahoo.com and from security.yahoo.com. Other efforts to 
        consider online safety or citizenship funding within 
        reauthorization of the Elementary and Secondary Education Act 
        should also be seriously considered.
---------------------------------------------------------------------------
    \5\ Id. at 31.

  <bullet> ``Establish Industry Best Practices'': \6\ The OSTWG Report 
        recommends that providers evaluate the specific safety needs of 
        their users and to tailor educational efforts, safety tools and 
        other resources to those needs. In addition, it calls on 
        providers to work collaboratively with other companies, non-
        profits, schools and governments. Yahoo! has a wide range of 
        programs under way with each of these groups. To name a few:
---------------------------------------------------------------------------
    \6\ Id. at 32.

    <ctr-circle> Yahoo! has created educational videos for Yahoo! 
            Profiles, integrates tips and advice into product help 
            pages, and issues regular blog posts to educate people on 
            online safety issues on Yodel Anecdotal (yodel.yahoo.com) 
---------------------------------------------------------------------------
            and the Yahoo! Policy blog (ypolicyblog.com).

    <ctr-circle> Yahoo! is engaged in partnerships with Ikeepsafe.org, 
            Family Online Safety Institute, Teen Angels/wiredsafety, i-
            Safe, CARU/BBB, connectsafely.org, and Commonsense Media. 
            These activists and experts are on the cutting edge of 
            relevant advice, solutions and emerging issues.

    <ctr-circle> Yahoo! hosts an annual Cybercitizenship Summit to 
            bring together educational thought leaders to discuss 
            issues, developments, and solutions around youth and online 
            safety. Our last Summit, held on December 4, 2009 focused 
            on cyberbullying and online reputation management.

    <ctr-circle> Yahoo! has partnered with Ikeepsafe.org/DARE to 
            develop Internet safety curriculum for grades K-6. We work 
            collaboratively with iKeepSafe in developing the Project 
            PRO curriculum, aimed at helping educators coach their 
            students on how to manage their digital reputations.

    <ctr-circle> Yahoo! increases awareness around online safety 
            throughout the year during Safer Internet Day (February), 
            Internet Safety Month (June), and National Cyber-Security 
            Awareness Month (October). This can include messages on our 
            front page, which attracts over 600 million users per 
            month. Yahoo! has also worked closely with the National 
            Cyber Security Alliance on a consumer messaging project in 
            2010.

    <ctr-circle> Yahoo! works collaboratively with local police 
            departments to deliver preventative and diversion safety 
            courses. Yahoo! has been working on a pilot Diversion 
            course with the Sunnyvale, California Police. The course is 
            designed to train students on better online behavior if 
            they receive detention or other sentencing by the courts 
            for online crimes such as sexting.

Parental Control and User Empowerment Tools Findings and 
        Recommendations
    The Parental Control and User Empowerment Tools subcommittee found 
that the parental control marketplace is functioning fairly well--at 
least for parents with some degree of technical sophistication--and yet 
there is more that can be done to increase awareness and usage of 
existing tools and to continue to improve capabilities. After studying 
the range of tools in the marketplace--both stand alone solutions and 
integrated product safety features--and their effectiveness and level 
of use, the subcommittee developed, among others, the following 
conclusions and recommendations.

  <bullet> User empowerment tools and parental controls are ``most 
        effective as part of a `layered' approach to online safety that 
        views them as one of many strategies or solutions.'' \7\ In 
        addition, the report found that ``technical solutions can 
        supplement, but can never supplant the educational and 
        mentoring role.'' \8\
---------------------------------------------------------------------------
    \7\ Id. at 66.
    \8\ Id. at 7.

  <bullet> ``Parental empowerment technologies and options should be 
        included in new offerings whenever possible'' and ``[s]afety by 
        design'' should be encouraged. The OSTWG also recommends that 
        industry carefully review default settings which are an 
        important element of safety by design. Yahoo! has been 
        examining its default settings in the context of new product 
        and feature launches, and, within the context of the overall 
        operation of the service, attempts to set defaults to embrace 
        safety as a key objective. Examples of ``safety by design'' and 
---------------------------------------------------------------------------
        use of default settings include:

    <ctr-circle> Enhancements to our social experience within Yahoo! 
            Pulse launched in early June, defaulting users registered 
            as being ages 13-17 to allow only ``connections'' (those 
            that have been confirmed by the user as a friend) to see 
            their profiles. Yahoo! also has defaulted settings on Pulse 
            for users under age 18 that are designed to steer users 
            away from revealing their ages and addresses.

    <ctr-circle> The launch of our ``Updates'' service where users can 
            post status updates from various places throughout the 
            Yahoo! network also defaults the sharing of these updates 
            to ``connections only'' for teen users.

    <ctr-circle> Flickr, Yahoo!'s photo sharing service, provides 
            various controls for users to tailor their experience 
            including the ability to make photos public, private or 
            viewed by friends and/or family; categorize photos as safe, 
            moderate or restricted content; turn SafeSearch on so only 
            photos designed as safe for a global, public audience will 
            be returned in results; hide photos from public searches; 
            customize settings around privacy and permissions; and the 
            ability to report abuse.

    <ctr-circle> The Yahoo! SafeSearch feature is designed to filter 
            out explicit, adult-oriented content from Yahoo! Search 
            results. Yahoo! defaults to a filter that removes adult 
            video and image search results. Parents can password-
            protect the search filter setting for their computer by 
            ``locking'' their SafeSearch settings.

    <ctr-circle> Yahoo! Messenger allows people to block others from 
            contacting them as well as report suspected spammers and 
            report abuse.

    <ctr-circle> Yahoo! Groups gives users control over how they 
            receive e-mail messages, the ability to block users under 
            the age of 18 from receiving messages, and the ability to 
            report abuse.

    <ctr-circle> Yahoo! Chat does not support user created chat rooms--
            all chat rooms are created by Yahoo!; we have restricted 
            usage of the service to 18 and older, no longer support a 
            ``teen'' category, and have included a ``report abuse'' 
            button.

  <bullet> Community Policing was also recommended by the OSTWG as an 
        important part of service provider options to allow users to 
        flag inappropriate content and report inappropriate 
        behavior.\9\ User and third party reporting have long played an 
        important role in Yahoo!'s safety approach. We use these 
        efforts to help us identify material in violation of our Terms 
        of Service so that we can remove it from our site, discover 
        users who are violating our guidelines, and to assist us in 
        identifying and reporting child pornography content to the 
        National Center for Missing & Exploited Children (``NCMEC''). 
        In addition to leveraging the power of our users to help us 
        identify abuse of our services, we also employ filters, 
        algorithms, human and automated resources to detect child 
        pornography content, as well as work with third parties that 
        have lists of URLs where known child pornography is found.
---------------------------------------------------------------------------
    \9\ Id. at 67.
---------------------------------------------------------------------------
Child Pornography Reporting Findings and Recommendations
    As a result of the Protect Our Children Act of 2008, Public Law No. 
110-401, 122 Stat. 4229 (2008), the reporting obligations for Internet 
Service Providers, previously captured at 42 U.S.C. 13032, have been 
improved by a new law that: (1) clearly states what should be included 
in a report; (2) provides appropriate immunities for the transmission 
of images as part of fulfilling the reporting obligation; and (3) 
provides for preservation of materials included in a report and related 
to a report.
    OSTWG recommendations in this area in large part focus on smaller 
ISP and OSPs that may not understand or have mechanisms in place to 
report as required by the new law. Other recommendations focus on the 
continued need for dialogue with law enforcement and NCMEC, as well as 
increased technology and information sharing among service 
providers.\10\ Yahoo!'s efforts as a leader on reporting issues is 
evidenced by our visible presence on these issues over many years.
---------------------------------------------------------------------------
    \10\ Id. at 89-91.

    <ctr-circle> Yahoo! features prominent ``Report Abuse'' links 
            across our network near user generated content to encourage 
---------------------------------------------------------------------------
            users to flag problem issues.

    <ctr-circle> Yahoo! was an active participant in developing with 
            industry peers and NCMEC the service provider sound 
            practices for reporting child pornography, which were the 
            model for changes in the law passed as part of the Protect 
            our Children Act in 2008.

    <ctr-circle> Yahoo! has had a long-time relationship with Internet 
            Watch Foundation and uses the Foundation's URL list along 
            with NCMEC's URL list to remove known child pornography 
            sites from its search index.

    <ctr-circle> Yahoo! is a founding member of the Technology 
            Coalition working to develop improved detection and 
            reporting technologies for child pornography images.

Data Retention in Child Exploitation Investigations Findings and 
        Recommendations
    Unlike other areas of the Report, no clear consensus emerged on 
whether there is a need for mandatory retention obligations beyond 
those required as part of the preservation regime in the Protect our 
Children Act. Instead of attempting to arrive at a consensus view, the 
Report focuses on conveying the diverse viewpoints of law enforcement, 
industry, and privacy advocates. Indeed, following the subcommittee's 
investigation, there remain many unanswered questions about the need 
for data retention, the potential scope of data retention, technical 
costs and limitations, and the impact on user privacy.

  <bullet> The recommendation to study the impact of the new 
        preservation provisions of the Protect our Children Act is 
        perhaps the most important.\11\ Yahoo! supported the 
        legislation that became the Protect our Children Act, including 
        the preservation provision, because it was designed to balance 
        law enforcement's needs for ISPs and OSPs to hold data 
        regarding those who misuse services to exploit children online 
        with the overall privacy interests of the entire user 
        community. This balance was struck by focusing preservation 
        efforts on those users who ISPs and OSPs are already required 
        by law to report as being involved in an apparent incident of 
        child pornography. This focus makes sense because the vast 
        majority of other users will never be investigated for the 
        commission of a crime.
---------------------------------------------------------------------------
    \11\ Id. at 116.

    When the legislation was passed in 2008, approximately 30,000 
        reports by ISPs and OSPs were submitted to NCMEC. However, 
        there were over 60,000 reports in 2009 and over 27,000 just in 
        the first quarter of 2010, on track for a 78 percent year over 
        year increase from 2009.\12\ These provider reports provide an 
        important and underutilized means to pursue child predation. 
        This is a well-tailored solution to the need for data retention 
        in online child exploitation cases and should be given a chance 
        to be fully implemented and evaluated on its merits before 
        additional data retention measures are considered.
---------------------------------------------------------------------------
    \12\ Id. at 88-89.

  <bullet> The OSTWG Study further suggests Internet Crimes Against 
        Children Task Forces hold regular meetings with ISPs and 
        OSPs.\13\ This recommendation is in synch with our own online 
        safety principle to work constructively with law enforcement as 
        a partner in creating a safer Internet. That is why Yahoo! has 
        built a law enforcement compliance function to respond to valid 
        law enforcement demands and to be able to respond appropriately 
        in investigations of online child exploitation crimes.
---------------------------------------------------------------------------
    \13\ Id. at 116.

    <ctr-circle> Yahoo! maintains a 24x7 law enforcement compliance 
            function which responds to requests related to child 
---------------------------------------------------------------------------
            exploitation in an expedited fashion.

    <ctr-circle> We engage in law enforcement educational efforts 
            including presentations for Internet Crimes Against 
            Children investigators, Federal investigators, and state 
            Attorneys General offices.

    <ctr-circle> We work with law enforcement and NCMEC to take swift 
            action when we become aware of harmful activities to 
            children that are in violation of our policies.

    <ctr-circle> Yahoo! was also an early participant in the Financial 
            Coalition Against Child Pornography, a coalition of credit 
            card issuers and Internet services companies which seeks to 
            eliminate commercial child pornography by taking action on 
            the payment systems used fund these illegal operations.

    As evidenced by the many of examples of our engagement on these 
issues over a number of years, Yahoo! is very much in line with the 
actions suggested by the OSTWG report. We have found our niche and will 
continue to work to protect kids online.

Role for Government
    Yahoo! believes government agencies can follow up on the 
recommendations of the OSTWG report and the findings of our survey by 
sponsoring additional research, highlighting best practice and safety 
advice through sites like the FTC's OnGuard Online, encouraging the 
development of online safety tools, continuing to promote education and 
training of students and teachers, and maintaining oversight of 
reporting and enforcement efforts. While many of the other players 
engaged in this dialogue can educate and create technologies or tools, 
only the government can enforce the laws passed to fight against child 
predation and exploitation.
    To that end, Yahoo! supports implementation of the provisions of 
several laws passed in the 110th Congress, including the Protect our 
Children Act, P.L. 110-401, which provided authorization for new 
computer forensics labs to assist law enforcement investigations, a new 
national strategy for child exploitation prevention and interdiction, 
strengthening the role of ICAC Task Forces, and creation of a Crimes 
against Children Data System. Additionally, Congress passed the 
Protecting Children in the 21st Century Act, P.L. 110-385, which 
authorized an education campaign on child safety to be run by the FTC 
as well as limitations on funding for schools and libraries unless they 
have online safety and cyberbullying education. Congress also passed 
the Kids Act, P.L. 110-400 designed to allow service providers to 
access lists of sexual predators' screen names, but no rule has yet 
been established for sharing online identities. Other legislation 
passed in 2008 and known as the Effective Child Pornography Prosecution 
Act, P.L. 110-358, included changes to interstate commerce definitions 
to include child pornography as well as stricter penalties for 
violations of the law in this area. All of these changes are still in 
the implementation stage or are awaiting rulemakings and testing in the 
market and/or courts. It is important for this committee and others in 
this Congress to ensure the laws you have passed are moving forward, as 
you are doing today by reviewing these issues in depth.

Conclusion
    Our survey findings are both encouraging and cause for reflection. 
While parental engagement is overall at a positive level, kids, parents 
and educators are all struggling with how best to approach the 
challenging issue of cyberbullying. And parents and kids both need to 
better understand digital reputation management--the long-term impact 
of the information they share in the online world.
    The OSTWG Report both reinforces the findings from our survey and 
our ongoing dialogue with safety experts, and suggests additional data 
and education are needed. Yahoo! is committed to continuing down the 
path of promoting user awareness and cultivating safe online behaviors 
among our subscribers. We look forward to continuing the safety 
dialogue with our partners, peers and law enforcement and, in 
particular, with this committee. We further look forward to seeing how 
Congress conducts oversight over the many varied agencies implementing 
the four new child safety laws enacted in 2008.
    Thank you, once again, for taking our testimony on these issues.
                                 ______
                                 
                  Online Safety and Digital Protection
                Yahoo! Consumer Pulse Survey--April 2010

Background & Methodology
  <bullet> Yahoo!, in partnership with Ipsos OTX, conducted an online 
        survey to gain insight into consumers' behaviors and 
        perceptions with respect to online safety.

  <bullet> 2003 respondents were recruited via Ipsos OTX's Internet 
        panel for an 18 minute online survey. Interviews were conducted 
        from April 16-April 21.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                Parents & Kid's Online Safety Management

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Letters indicate statistically significant differences at the 90 
percent confidence level between corresponding groups. PARENT1. On a 
scale of 1-5 how concerned are you about your child's safety online?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups. 
PARENT17. How often do you talk to your child(ren) about online safety?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    PARENT18. Are you connected ('friends' with) to your kids on social 
network sites? Base: Children visit social networking sites PARENT19. 
Which of the following, if any, do you know? Base: Children visit 
social networking sites.
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding groups.
    PARENT5. Do you, and does your child(ren), know what cyber-bullying 
is? Cyber-bullying, happens when people use the Internet, cell phones, 
or other devices to send or post text or images intended to hurt or 
embarrass another person. *Base: Total Answering--changed mid-field.
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Letters indicate statistically significant differences at the 90 
percent confidence level between corresponding groups.
    PARENT7. Have you ever witnessed or experienced cyber bullying?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PARENT8. Do you know what to do about cyber bullying?
    OE2: Imagine if you or your child(ren) were the victim of cyber 
bullying. What, if anything, would you do about it?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PARENT24. What role do you think schools should play in teaching 
children about online safety and citizenship?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lettering indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PARENT6. Does your child(ren)'s school have a cyber-bulling policy?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    PARENT9 .Which of the following have you done?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lettering indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PARENT3. Which of the following, if any, regarding your kid's use 
of the Internet and cell phones do you do?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PARENT17. How often do you talk to your child(ren) about online 
safety?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    PARENT15. How often, if ever, do you search your children's name 
online to see what comes up or to check his/her profile? Base: Parents 
Boxes indicate statistically significant differences at the 90 percent 
confidence level between corresponding demographic groups.
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

Adult Online Image Management

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPR13. Do you know what a digital footprint is?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPR15. Do you think you are in control of your online image 
(i.e., the image you portray online)?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPRO4. When you send an e-mail or post a comment on someone's 
wall or a blog, do you think it will remain online forever?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPRO10. How often, if ever, do you search online your own name 
to see what comes up or to check your profile?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lettering indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    DIGFTPR5. Which, if any, of the following steps do you take to 
manage your ``digital profile''?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    DIGFTPR4. How concerned are you about protecting your ``digital 
profile,'' to guard against identity theft or other fraud/misuse/abuse?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Boxes indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPRO9. How often do you think that information found online 
about people is used to make a hiring or other important decision?
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lettering indicate statistically significant differences at the 90 
percent confidence level between corresponding demographic groups.
    PROFPRO6. Whom are you most concerned will see your personal 
information online? Select all that apply.
    Source: Yahoo! Online Safety & Digital Protection Survey (April 
2010)

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
